Appendix A-1
Filed Apr. 5, 2021
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SEVEN
WARREN M. LENT et al.,

Plaintiffs, Appellants,
and Cross-respondents,

B292091

(Los Angeles
County Super. Ct.
No. BS167531)

v.
CALIFORNIA COASTAL
COMMISSION,
Defendant,
Respondent, and
Cross-appellant,
CALIFORNIA STATE
COASTAL CONSERVANCY
et al.,
Real Parties in
Interest.
APPEAL from a judgment of the Superior Court
of Los Angeles County. James C. Chalfant, Judge.
Reversed with directions.

Appendix A-2
Pacific Legal Foundation, Damien M. Schiff,
Joshua P. Thompson, and Jeremy Talcott;
FisherBroyles and Paul J. Beard II for Plaintiffs,
Appellants, and Cross-respondents.
Law Offices of Thomas D. Roth and Thomas D.
Roth for Center for Balanced Land Use, Inc. as
Amicus Curiae on behalf of Plaintiffs, Appellants, and
Cross-respondents.
Knipe Law Firm and V. Nicholas Knipe for Malibu
Association of Realtors as Amicus Curiae on behalf of
Plaintiffs, Appellants, and Cross-respondents.
Berding Weil and Fredrick A. Hagen; Kara M.
Rollins and Harriet H. Hageman for New Civil
Liberties Alliance as Amicus Curiae on behalf of
Plaintiffs, Appellants, and Cross-respondents.
Kara M. Rollins and Harriet H. Hageman for
National Federation of Independent Business Small
Business Legal Center as Amicus Curiae on behalf of
Plaintiffs, Appellants, and Cross-respondents.
Chris Scheuring for California Farm Bureau
Federation as Amicus Curiae on behalf of Plaintiffs,
Appellants, and Cross-respondents.
Xavier Becerra, Attorney General, Daniel A.
Olivas, Senior Assistant Attorney General, Christina
Bull Arndt and David Edsall Jr., Deputy Attorneys
General, for Defendant, Respondent, and Crossappellant.

Appendix A-3
Environmental Law Clinic, Mills Legal Clinic at
Stanford Law School, Deborah A. Sivas, and Molly L.
Melius for Surfrider Foundation and Azul as Amici
Curiae on behalf of Defendant, Respondent, and
Cross-appellant.
_______________________
INTRODUCTION
A house sits on beachfront property in Malibu. A
five-foot-wide vertical easement, owned by the
California Coastal Conservancy for public access to
the coast, encumbers one side of the property. By 1983
the property owner had built on the easement area a
deck providing private access to the beach, a staircase
from the deck leading to the house, and a gate
blocking public access to the easement area. The
California Coastal Commission, which enforces the
California Coastal Act (Pub. Resources Code, § 30000
et seq.)1 and remedies violations of permit conditions,
did not approve these structures.
Warren and Henny Lent purchased the property
in 2002. In 2007 the Commission began asking the
Lents to remove the structures so the Conservancy
could build a public accessway over the easement
area. The Lents refused. In 2014 the Commission
served the Lents with a notice of intent to issue a
cease and desist order. The notice advised the Lents
the Commission could impose administrative
penalties under section 30821, a statute enacted that
year authorizing the Commission to impose penalties
Undesignated statutory references are to the Public Resources
Code.
1

Appendix A-4
on property owners who violate the public access
provisions of the Coastal Act. Still, the Lents refused
to remove the structures.
Two weeks before the scheduled hearing on the
cease and desist order, the Commission staff issued a
report detailing the Lents’ alleged violations of the
Coastal Act. In the report the Commission staff
recommended that the Commission impose a penalty
of between $800,000 and $1,500,000 (and specifically
recommended a penalty of $950,000), but stated that
the
Commission
was
justified
under
the
circumstances in imposing a penalty of up to
$8,370,000. At the hearing the Commission issued the
cease and desist order and imposed a penalty of
$4,185,000.
The Lents filed a petition for writ of mandate
asking the trial court to set aside the Commission’s
order and penalty. In addition to contending
substantial
evidence
did
not
support
the
Commission’s determination that the Lents violated
the Coastal Act, the Lents argued section 30821 is
unconstitutional on its face because it allows the
Commission to impose substantial penalties at an
informal hearing where the alleged violator does not
have the procedural protections traditionally afforded
defendants in criminal proceedings. The Lents also
argued that section 30821 is unconstitutional as
applied to them and that the penalty violated the
constitutional prohibition on excessive fines. The trial
court granted the petition in part and denied it in
part, ruling substantial evidence supported the
Commission’s decision to issue the cease and desist
order and to impose a penalty. The court ruled,

Appendix A-5
however, the Commission violated the Lents’ due
process rights by not giving them adequate notice of
the amount of the penalty the Commission intended
to impose. Therefore, the court set aside the penalty
and directed the Commission to allow the Lents to
submit additional evidence. Both the Lents and the
Commission appealed.
We conclude substantial evidence supported the
Commission’s decision to issue the cease and desist
order. We also conclude the Commission did not
violate the Lents’ due process rights by imposing a
$4,185,000 penalty, even though its staff
recommended a smaller penalty, because the
Commission had previously advised the Lents it could
impose a penalty of up to $11,250 per day and the
Commission staff specifically advised the Lents that
the Commission could impose a penalty of up to
$8,370,000. Therefore, we reverse the trial court’s
judgment remanding the matter to the Commission.
On the Lents’ appeal of the penalty, we conclude
the Lents failed to show section 30821 is
unconstitutional, either on its face or as applied to
them. We also conclude the penalty does not violate
the constitutional prohibition on excessive fines.
Therefore, we reverse the superior court’s judgment
and affirm the Commission’s order.

Appendix A-6
FACTUAL AND PROCEDURAL BACKGROUND
A. A Prior Owner Builds the House
The Lents own property in Malibu. South of the
property is the ocean; north of the property is the
Pacific Coast Highway. In 1978 a prior owner of the
property applied to the Commission for a coastal
development permit to build a house. As a condition of
approving the permit, the Commission required the
prior owner to dedicate a vertical public-access
easement on the eastern side of the property. In 1980
the prior owner recorded an offer to dedicate a fivefoot-wide easement, and in 1982 the Conservancy
recorded a certificate of acceptance. A storm
drainpipe, owned by the County of Los Angeles, runs
across the easement area.
Notwithstanding the permit condition and the
easement, the prior owner built in the easement area
a wooden deck that sits above the drainpipe and a
staircase that provides access from the deck to the
house. The staircase occupies 27 inches of the fivefoot-wide easement. The deck provides access to the
sand through a (different) staircase. The owner also
constructed a fence and gate adjacent to the sidewalk
that blocks access to the easement area from the
highway. The Commission did not issue a permit or
otherwise approve any of these structures. This is a
view of the easement area from the north (i.e., PCH):

Appendix A-7

B. The Commission Attempts To Obtain the
Lents’ Consent To Remove the Unpermitted
Structures
In 1993 the Conservancy sent a letter to the
owners of the property informing them of the
easement and stating the Conservancy had “the right
to open for public use a five-foot-wide corridor for
pedestrian access to and from the shoreline.” The
Conservancy also stated, however, the easement
would “remain closed until the Conservancy locate[d]

Appendix A-8
a management agency and open[ed] this easement to
public use.” Observing that the gate blocked access to
the easement area, the Commission asked the owners
to “either remove the gate” or “seek the Conservancy’s
permission to keep the gate in place during the period
that the accessway is officially closed” and remove the
gate once the Conservancy decided to open the
easement.
The Lents purchased the property in 2002 (with
the gate intact). In April 2007 the Commission sent a
letter to the Lents stating the structures in the
easement area, including the deck and the gate, were
inconsistent with the easement and violated the
Coastal Act and asking the Lents to remove all
structures in the easement area. The Commission also
attached a copy of the house’s original permit
conditions. The next month the Commission served
the Lents with a “notice of intent to commence cease
and desist order proceedings.” The Lents did not agree
to remove the structures.
Because the topography of the easement area
includes several steep elevation drops, the
Conservancy determined it had to build an accessway
with stairs to make the easement usable for the
public. In 2008 the Conservancy hired a contractor to
conduct a survey of the easement area to assess the
feasibility of building an accessway, and in 2010 an
architectural firm completed conceptual plans for the
accessway. Later that year, representatives from the
Commission, the Conservancy, and the architectural
firm met at the property with the Lents and their
attorneys to discuss development of the accessway.

Appendix A-9
During the next several years the Commission
and the Lents’ attorneys exchanged correspondence in
which the Commission asked the Lents to remove the
structures in the easement area and the Lents
objected for various reasons. Having failed to resolve
the issue, the Commission sent a letter to counsel for
the Lents in June 2014 stating that, “under the newly
enacted Section 30821, . . . in cases involving
violations of the public access provisions of the Coastal
Act, the Commission is authorized to impose
administrative civil penalties in an amount up to
$11,250 per day per violation.”
C. The Commission Issues a Cease and Desist
Order and Imposes a Monetary Penalty
In September 2015 the Commission served the
Lents with a new notice of intent to issue a cease and
desist order and to impose penalties under section
30821. In February 2016 the Lents served the
Commission with a statement of defense. Among
other arguments, the Lents contended the
Commission had approved the structures in the
easement area, the doctrine of laches barred the
Commission from requiring the Lents to remove the
stairway, and the Commission could not impose
penalties on the Lents because the Lents had not built
the allegedly unpermitted structures.
On November 18, 2016, two weeks before the
scheduled hearing on the cease and desist order, the
Commission staff submitted a report with proposed
findings and recommendations. The report stated that
under section 30821 “[t]he potential penalty that the
Commission could impose” was $8,370,000—$11,250
per day for 744 days, beginning November 24, 2014,

Appendix A-10
the date the Commission advised the Lents that their
violations of the Coastal Act could expose them to
administrative penalties. The staff report stated that
a penalty of up to $8,370,000 was warranted because
the violations caused “significant blockage of public
access” to the coast, there was limited coastal access
in the area, the Lents refused to undertake any
“voluntary
restoration
efforts”
despite
the
Commission’s efforts over many years to obtain the
Lents’ consent, and the Lents used the property as a
vacation rental and marketed the property’s private
beach access on at least one vacation rental website.
The Commission staff, however, “taking the most
conservative possible approach in weighing the
relevant statutory factors,” recommended the
Commission impose a penalty between $800,000 and
$1,500,000, and specifically $950,000.
At the public hearing the Commission staff
presented its findings and conclusions, again
recommending the Commission impose a $950,000
penalty. Counsel for the Lents presented a defense,
and Warren Lent spoke at the hearing. After the
Lents’ presentation, several individuals spoke,
including the executive officer of the Conservancy.
The executive officer stated that the only impediment
to opening the easement for public access was the
Lents’ refusal to remove the structures, and both the
executive officer and another member of the
Conservancy stated that the Conservancy’s engineers
had determined it was feasible to build an accessway
in the easement area.
After the presentations, the commissioners
deliberated. Several commissioners stated the Lents’

Appendix A-11
conduct was particularly egregious and warranted a
penalty higher than the staff’s recommendation.
Ultimately, the Commission voted unanimously to
issue the cease and desist order requiring the Lents to
remove the structures in the easement area and to
impose a penalty of $4,185,000.
D. The Lents File a Petition for Writ of Mandate,
Which the Trial Court Grants in Part
In February 2017 the Lents filed a petition for a
writ of mandate. In addition to making the arguments
they made during the administrative proceedings, the
Lents argued section 30821 is unconstitutional on its
face because it allows the Commission to impose
substantial penalties without providing property
owners sufficient procedural protections. The Lents
also argued the penalty was an excessive fine under
the federal and state constitutions.
The trial court found that there was
“overwhelming evidence” the Lents violated the
Coastal Act by “interfering with the public’s right of
access to the ocean via the easement” and that the
“Conservancy has made clear that the stairway/gate
has substantially impaired its ability to move forward
with a public accessway.” The court ruled that
substantial evidence supported the Commission’s
cease and desist order, that laches did not bar the
Commission from issuing the order, and that the
Commission was authorized to impose penalties.
Although the court ruled the penalty was not
constitutionally excessive, the court also ruled the
Commission violated the Lents’ due process rights by
“deviat[ing] upward from the staff-recommended
$950,000” penalty without providing the Lents an

Appendix A-12
“opportunity to argue against the Commission’s . . .
reasoning for imposition of a considerably larger fine.”
The court stated: “The amount of the fine in this case
is substantial and the hearing procedure did not give
[the Lents] an opportunity to present all available
evidence and argue against the $4.1 million penalty
imposed. An additional opportunity to present
evidence would have enhanced the reliability of the
quasi-criminal proceeding and the fine actually
imposed, and a safeguard permitting [the Lents] to
present additional penalty evidence would not
adversely impact the Commission’s procedure.”
The trial court entered judgment ordering the
Commission to set aside the penalty, inform the Lents
of a specific proposed penalty, and give the Lents an
opportunity to present additional evidence. The trial
court otherwise denied the Lents’ petition. The Lents
timely appealed, and the Commission timely crossappealed.
DISCUSSION
A. The Commission Did Not Abuse Its Discretion
in Issuing the Cease and Desist Order
1. Standard of Review
Under the Coastal Act “[a]ny aggrieved person”
has the “right to judicial review of any decision or
action of the commission by filing a petition for writ of
mandate in accordance with [Code of Civil Procedure]
Section 1094.5 . . . .” (§ 30801; see SLPR, L.L.C. v. San
Diego Unified Port Dist. (2020) 49 Cal.App.5th 284,
321 [“‘administrative mandamus is the “proper and
sole remedy” for challenging or seeking review of’ a

Appendix A-13
[Commission] decision”].) “[T]he trial court reviews
the commission’s decision to determine whether the
commission ‘proceeded without, or in excess of,
jurisdiction; whether there was a fair trial; and
whether there was any prejudicial abuse of discretion.
Abuse of discretion is established if the [Commission]
has not proceeded in the manner required by law, the
order or decision is not supported by the findings, or
the findings are not supported by the evidence.’”
(Mountainlands Conservancy, LLC v. California
Coastal Com. (2020) 47 Cal.App.5th 214, 230; see
Code Civ. Proc., § 1094.5, subd. (b); San Diego Navy
Broadway Complex Coalition v. California Coastal
Com. (2019) 40 Cal.App.5th 563, 572.) “‘Our scope of
review is identical to that of the trial court.
[Citations.] We, like the trial court, examine all
relevant materials in the entire administrative record
to determine whether the agency’s decision is
supported by substantial evidence.’” (San Diego Navy,
at p. 572; see Ross v. California Coastal Com. (2011)
199 Cal.App.4th 900, 922.)
2. The Commission Proceeded in the Manner
Required by Law in Issuing the Cease and
Desist Order
Section 30600 requires “any person . . . wishing to
perform or undertake any development in the coastal
zone” to “obtain a coastal development permit.” Under
section 30810 the Commission may issue a cease and
desist order after a public hearing if the Commission
“determines that any person or governmental agency
has undertaken, or is threatening to undertake, any
activity that (1) requires a permit from the
commission without securing a permit or (2) is

Appendix A-14
inconsistent with any permit previously issued by the
commission . . . .” The Lents argue an owner who
merely purchases property containing unpermitted
structures, but who did not build the structures, does
not undertake activity that requires a permit under
the Coastal Act. Therefore, according to the Lents,
regardless of whether the structures in the easement
area required a permit or violated the terms of the
easement, the Commission erred in issuing the cease
and desist order.
The law does not support the Lents’ interpretation
of section 30600. Although the statute refers to the
person “wishing to perform or undertake”
development, the requirement to obtain a permit for
any development in the Coastal Zone necessarily
extends to subsequent owners of the property. “It is
well settled that the burdens of permits run with the
land once the benefits have been accepted.” (Ojavan
Investors, Inc. v. California Coastal Com. (1994) 26
Cal.App.4th 516, 526.) A successor obtains property
“with the same limitations and restrictions which
bound” the prior owner. (Id. at p. 527; see, e.g., City of
Berkeley v. 1080 Delaware, LLC (2015) 234
Cal.App.4th 1144, 1151 [purchaser of property
waives, “by [its] purchase of deed-restricted lots, any
right to a property interest greater than that conveyed
by [the] predecessors in interest,” and the “conditions
of the permit remain enforceable against a subsequent
owner of the property”]; Feduniak v. California
Coastal Com. (2007) 148 Cal.App.4th 1346, 1379
[“once the period to challenge the [coastal
development permit] restrictions had expired and
they were recorded, they became immune from
collateral attack by the original property owner and

Appendix A-15
successor owners”]; Serra Canyon Co. v. California
Coastal Com. (2004) 120 Cal.App.4th 663, 668
[although the property owner “was not a party to the
original permits, it was bound by the inaction of its
predecessor in interest”]; Ojavan, at p. 525 [deadline
for successors to challenge coastal development
permits ran from the date the Commission issued the
permits, not the date the successors purportedly
violated the permit restrictions, because the
successors were “bound by what their grantee had to
convey”].) Therefore, an owner who maintains a
development on his or her property “undertakes
activity” that requires a permit for purposes of section
30810, as does an owner who maintains a
development inconsistent with a previously issued
permit, regardless of whether he or she constructed
the development. (See Ojavan Investors, Inc. v.
California Coastal Com. (1997) 54 Cal.App.4th 373,
386 (Ojavan II) [former provision of the Coastal Act,
which provided that “[a]ny person who violates any
provision of this division shall be subject to a civil fine
of not to exceed ten thousand dollars,” applied to
coastal permit violations and “extended to . . . the
successors-in-interest in the real property subject to
the permits”].)
Under the Lents’ theory, a property owner who
develops coastal property has an obligation to obtain
permits under section 30600, but a subsequent
purchaser does not. Developers could avoid complying
with the Coastal Act by simply selling the property
before the Commission discovers the development, a
result inconsistent with the purposes and directives of
the Coastal Act. (See § 30001, subd. (d) [“[t]he
Legislature hereby finds and declares” that “future

Appendix A-16
developments that are carefully planned and
developed consistent with the policies of this division,
are essential to the economic and social well-being of
the people of this state”]; § 30607 [“[a]ny permit that
is issued or any development or action approved . . .
shall be subject to reasonable terms and conditions in
order to ensure that such development or action will
be in accordance with the provisions of [the Act]”]; see
also § 30009 [the Coastal Act “shall be liberally
construed to accomplish its purposes and objectives”].)
The court in Leslie Salt Co. v. San Francisco Bay
Conservation & Development Com. (1984) 153
Cal.App.3d 605 reached a similar conclusion for
nearly identical statutory language. Leslie Salt
involved a challenge to the McAteer-Petris Act (Gov.
Code, § 66600 et seq.), which authorizes the San
Francisco Bay Conservation and Development
Commission (SFBCDC) to issue permits to any person
or government agency seeking to place fill in the San
Francisco Bay. (See id., §§ 66604, 66610, 66632.) The
McAteer-Petris Act has a provision nearly identical to
the cease and desist provision of the Coastal Act: The
SFBCDC may issue a cease and desist order if it
“determines that a person or governmental agency
has undertaken, or is threatening to undertake, an
activity that (1) requires a permit from the
commission without securing a permit, or (2) is
inconsistent with a permit previously issued by the
commission . . . .” (Id., § 66638, subd. (a).) In Leslie
Salt the SFBCDC issued a cease and desist order
requiring a property owner to remove fill that had
been placed on the owner’s property, even though the
SFBCDC did not prove the current owner placed or
authorized the placement of the fill. (Leslie Salt Co.,

Appendix A-17
at pp. 609-610.) The court in Leslie Salt reversed the
trial court’s order issuing a writ of mandate to set
aside the order, holding it was reasonable and
necessary to construe the cease and desist provision
so that its reference to “one who ‘has undertaken, or
is threatening to undertake’ the proscribed activities
refers not simply to one responsible for the actual
placement of unauthorized fill but also to one whose
property is misused by others for that purpose . . . .”
(Id. at pp. 618, 622.)
The Lents attempt to distinguish Leslie Salt on
the ground that, unlike the McAteer-Petris Act, the
Coastal Act gives the Commission an additional
mechanism to remedy unlawful activity. Under
section 30811 the commission may “order restoration
of a site if it finds that the development has occurred
without a coastal development permit . . . , the
development is inconsistent with [the Coastal Act],
and the development is causing continuing resource
damage.” According to the Lents, the Commission
may issue a restoration order against a property
owner who did not build an unpermitted development,
but not a cease and desist order. Section 30811,
however, does not say this. Section 30811 does not
specify against whom the Commission may issue a
restoration order, nor does it distinguish between
developers and “mere” property owners. Contrary to
the Lents’ assertion, nothing in the statutory scheme
suggests that section 30810 applies only to persons
who build an unpermitted development and that
section 30811 applies more broadly to persons who
build the development and to subsequent property
owners.

Appendix A-18
Moreover,
although
the
Commission
characterized its order requiring the Lents to remove
the structures in the easement area as a cease and
desist order, the Commission’s findings satisfied the
requirements for issuing a restoration order under
section 30811.2 The Commission determined that the
Lents’ property contained unpermitted developments
(an issue we will address), that the developments were
inconsistent with the easement and violated the
public access provisions of the Coastal Act, and that
“the presence of the unpermitted development in a
public easement is causing continuing resource
damage” by obstructing public access to the coast. The
Lents concede that, under the regulations
implementing section 30811, public access qualifies as
a resource and that a Commission restoration order
may require an owner to remove an unpermitted
development. (See Cal. Code Regs., tit. 14, § 13190,
subd. (a) [“as such term is used in section 30811 . . .
‘[r]esource’ means any resource which is afforded
protection under the policies of Chapter 3 of the
Coastal Act, including but not limited to public
access”].)
3. Substantial Evidence Supported the
Commission’s Cease and Desist Order
In its cease and desist order, the Commission
concluded that the Lents, by retaining “solid material
and structures” on the property, including “the
separate placement of a gate, a staircase, decks, and
supporting structures,” undertook activity that
The Commission’s 2007 notice to the Lents stated the
Commission intended to issue both a cease and desist order
under section 30810 and a restoration order under section 30811.
2

Appendix A-19
required a permit and that was inconsistent with a
previously issued permit. The Lents contend there
was no substantial evidence to support the
Commission’s decision. There was.3
As stated, with certain exceptions not applicable
here, any person who wants to perform or undertake
development in the coastal zone must obtain a coastal
development permit. (§ 30600.)4 “‘[T]he Coastal Act’s
definition of “development” goes beyond “what is
commonly regarded as a development of real
property.”’” (Surfrider Foundation v. Martins Beach 1,
LLC (2017) 14 Cal.App.5th 238, 252; see 11 Lagunita,
LLC v. California Coastal Com. (2020) 58 Cal.App.5th
904, 919 [“The word ‘development’ as used in the
Coastal Act is expansive.”].) Not only does
“development” include “the placement or erection of
any solid material or structure” on land and
“construction . . . or alteration of the size of any
structure,” it includes any “change in . . . access” to
water. (§ 30106.) As the Commission found, the deck,
staircase, and gate were developments that required
a coastal development permit because they were solid
materials or structures built on land. (See LT-WR,
L.L.C. v. California Coastal Com. (2007) 152
Cal.App.4th 770, 805 [“gates and signs are
‘development’ within the meaning” of section 30106].)
The deck, stairway, and gate were also developments
because they altered access to water—namely, by
Although the Lents apparently removed the unpermitted
structures after the trial court entered judgment, they state they
plan to rebuild them if they are successful in this litigation.
3

Exceptions include, for example, “[i]mmediate emergency work
necessary to protect life or property.” (§ 30600, subd. (e)(1).) The
Lents do not contend an exception applies.
4

Appendix A-20
providing beach access to the occupants of the Lents’
property and restricting beach access to all others.
(See Surfrider Foundation, at p. 247 [landowners
engaged in unpermitted development under section
30106 by closing a gate on a road to the beach, putting
up a sign stating the beach was closed, covering a sign
that advertised public access, and stationing security
guards to deny public access]; see also San Diego
Unified Port Dist. v. California Coastal Com., supra,
27 Cal.App.5th at p. 1129 [“a core principle of the
[Coastal] Act is to maximize public access to and along
the coast as well as recreational opportunities in the
coastal zone”].)
Substantial evidence supported the Commission’s
finding the structures were not permitted. The plans
the prior owner submitted in support of the original
permit application do not depict any structures in the
easement area (except the drainpipe). On the other
hand, the plans do depict a deck on the south side of
the house facing the beach and an exterior stairwell
on the western side of the house—the side that does
not include the easement area—providing access from
the house to the beach. In 1980 the owner of the
property also applied for, and the Commission
approved, an amended permit to extend the size of the
house toward the coast. Again, the prior owner
submitted plans in support of the amendment that did
not depict structures in the easement area, but that
did depict the deck on the south side of the house. The
plans also depicted a proposed new staircase leading
from the deck to the beach (which the Commission did
not approve).

Appendix A-21
Substantial evidence also supported the
Commission’s finding the structures in the easement
were inconsistent with both the original permit and
the amended permit. The original permit included a
condition requiring all construction to “occur in accord
with the proposal as set forth in the application,” with
“[a]ny deviations from the approved plans” requiring
review by the Commission. The amended permit
included the same condition, plus an additional
condition requiring “[c]onstruction of the house and
deck” to “occur in accord with the revised plans
submitted by the applicant.” It also provided that
“[a]ll conditions of the original permit not expressly
altered by this amendment shall remain in effect.”
The structures in the easement area were inconsistent
with these conditions.
Notwithstanding this evidence, the Lents rely on
two sets of conceptual floorplans to argue the
Commission impliedly approved the deck and
staircase in the easement area. The Lents contend the
first set, which the prior owners submitted to the
County of Los Angeles in 1980, depicts both the
staircase in the easement area and an exterior door on
the east side of the house adjacent to the stairway.
However, the Commission stated that this set of
plans, while it may have been submitted to the county,
was not in the Commission’s permit file for the
property, and it is a reasonable inference (if not a selfevident certainty) the Commission would not have
approved a stairway that encroached two feet three
inches into a five-foot-wide easement—nearly half the
width of the easement. And even if the Commission
had approved these plans, the plans are largely
illegible, and the Lents provided no evidence the

Appendix A-22
staircase and deck, as constructed, comply with these
plans.
The second set of plans, which the prior owner did
submit to the Commission, shows an exterior door on
the northeast corner of the building adjacent to the
easement area. According to the Lents, the existence
of the door in the conceptual plan implies the
Commission approved the stairway and deck.
However, the plans do not depict the stairway or the
deck in the easement area. Moreover, the prior owner
submitted the plans in support of a 1981 amendment
to the permit that had nothing to do with the
purported exterior door. This third amendment
“permit[ted] the applicant to extend the western
corner of the . . . house”—a corner not adjacent to the
easement area—an additional “18 inches beyond the
stringline” between the corners of the adjacent
buildings and stated that “[a]ll conditions of the
original permit not expressly altered by this
amendment shall remain in effect.”
Finally, the Lents submitted the virtually
identical declarations of two architects, both of whom
stated that in the 1970s and 1980s they did not always
depict “walkways, steps, planters and other
landscape/ancillary features outside of the footprint of
the residence” on initial concept drawings submitted
to the Commission. This testimony, however, was not
consistent with either the original plans or the plans
submitted in support of the 1980 amendment, each of
which depicted a deck and stairway—just not the ones
eventually built in the easement area. The
Commission did not have to find the architects’
declaration(s) credible or persuasive. (See Ross v.

Appendix A-23
California Coastal Com., supra, 199 Cal.App.4th at
p. 922 [“‘it is for the Commission to weigh the
preponderance of conflicting evidence, as [the court]
may reverse its decision only if, based on the evidence
before it, a reasonable person could not have reached
the conclusion reached by it”].) And even if the
Commission occasionally permitted stairways and
decks that were not depicted on conceptual plans,
such action would have little bearing on whether the
Commission approved the stairway and deck here.
The owners constructed the stairway and deck in a
public-access easement area, and the architects did
not state they generally omitted depictions of
stairways and decks in public-access easement areas.
In light of the numerous conceptual plans submitted
to the Commission that did not depict these structures
(but depicted similar structures elsewhere on the
property), the permit condition requiring the owner to
dedicate an easement for public access, and the fact
the structures encroached on the easement, there was
substantial evidence the Commission never issued
permits for the structures.
B. Laches Did Not Bar the Commission from
Issuing the Cease and Desist Order
The Lents argue laches barred the Commission’s
enforcement action because “the Commission was
guilty of unreasonable delay in seeking the
[s]tructures’ removal, thereby unduly prejudicing the
Lents and acquiescing as a matter of law in their
maintenance.” The trial court did not err in ruling the
Lents had not met their burden of showing laches
barred the Commission from issuing the order.

Appendix A-24
“Under appropriate circumstances, the defense of
laches may operate as a bar to a claim by a public
administrative agency . . . if the requirements of
unreasonable delay and resulting prejudice are met.”
(Robert F. Kennedy Medical Center v. Belshe (1996) 13
Cal.4th 748, 760, fn. 9; accord, Krolikowski v. San
Diego City Employees’ Retirement System (2018) 24
Cal.App.5th 537, 568; Cedars-Sinai Medical Center v.
Shewry (2006) 137 Cal.App.4th 964, 985-986.)5 The
standard of review for an order applying the doctrine
of laches is generally substantial evidence. (Johnson
v. City of Loma Linda (2000) 24 Cal.4th 61, 67.) But
because laches is an affirmative defense, on which the
defendant has the burden of proof (Highland Springs
Conference & Training Center v. City of Banning
(2016) 244 Cal.App.4th 267, 282), the standard of
review for an order refusing to apply laches is
different. “‘In the case where the trier of fact has
expressly or implicitly concluded that the party with
the burden of proof did not carry the burden and that
party appeals, it is misleading to characterize the
failure-of-proof issue as whether substantial evidence
supports the judgment . . . .’” (Dreyer’s Grand Ice
Cream, Inc. v. County of Kern (2013) 218 Cal.App.4th
828, 838.) Instead, “‘the question for a reviewing court
becomes whether the evidence compels a finding in
favor of the appellant as a matter of law’” because “‘the
appellant’s evidence was (1) “uncontradicted and
unimpeached” and (2) “of such a character and weight
as to leave no room for a judicial determination that it
Laches, however, “‘“is not available where it would nullify an
important policy adopted for the benefit of the public.”’”
(Krolikowski v. San Diego Employees’ Retirement System, supra,
24 Cal.App.5th at p. 568; see Feduniak v. California Coastal
Com., supra, 148 Cal.App.4th at p. 1381.)
5

Appendix A-25
was insufficient to support a finding.”’” (Ibid.; see
Eisen v. Tavangarian (2019) 36 Cal.App.5th 626, 647
[applying this standard to the defenses of waiver and
estoppel]; Atkins v. City of Los Angeles (2017) 8
Cal.App.5th 696, 734 [applying this standard to an
employer’s defense of undue hardship in an action
under the Fair Employment and Housing Act].)
For purposes of laches, “‘“‘[a] defendant has been
prejudiced by a delay when the . . . defendant has
changed his position in a way that would not have
occurred if the plaintiff had not delayed.’”’” (George v.
Shams-Shirazi (2020) 45 Cal.App.5th 134, 142; see
Magic Kitchen LLC v. Good Things Internat., Ltd.
(2007) 153 Cal.App.4th 1144, 1161.) The party
asserting
laches
may
either
“‘affirmatively
demonstrate[ ]’”
prejudice
(Highland
Springs
Conference & Training Center v. City of Banning,
supra, 244 Cal.App.4th at p. 282), or “the element of
prejudice may be ‘presumed’ if there exists a statute
of limitations which is sufficiently analogous to the
facts of the case, and the period of such statute of
limitations has been exceeded by the public
administrative agency in making its claim” (Fountain
Valley Regional Hospital & Medical Center v. Bonta
(1999) 75 Cal.App.4th 316, 323-324; see Malaga
County Water Dist. v. State Water Resources Control
Bd. (2020) 58 Cal.App.5th 447, 463 [discussing the
two ways to show prejudice]). The Lents do not
contend in their opening brief that an analogous
statute of limitations creates a presumption of
prejudice (nor did they in the trial court).6 They
In their reply brief the Lents cite the statutes of limitations
applicable to an action alleging a patent or latent deficiency in
construction of real property (Code Civ. Proc., §§ 337.1, subd. (a),

6

Appendix A-26
instead assert “the Commission’s enforcement delay
has resulted in the loss of significant evidence
concerning the [s]tructures’ legality.”
A defendant may show prejudice for purposes of
laches where delay causes “important evidence . . . to
become unavailable.” (City and County of San
Francisco v. Pacello (1978) 85 Cal.App.3d 637, 645; see
Bono v. Clark (2002) 103 Cal.App.4th 1409, 1420
[“Death of important witnesses may constitute
prejudice.”].) But the Lents have not shown there was
such a loss of important evidence here. The Lents rely
on a declaration Warren Lent submitted to the
Commission in January 2016 claiming that he had
“recently attempted to communicate with the
architect that developed the Property as well as the
337.15, subd. (a)) and an “action upon a statute for a . . . penalty
to the people of this state” (id., § 340, subd. (b)). To the extent the
Lents argue these statutes of limitations create a presumption of
prejudice, the Lents forfeited the argument by not making it in
their opening brief. (See Dumas v. Los Angeles County Bd. of
Supervisors (2020) 45 Cal.App.5th 348, 356, fn. 5.) In any event,
none of these statutes would create such a presumption here. A
cause of action for construction defect is not analogous to a
Commission cease and desist order, which is more akin to an
action to enjoin activity inconsistent with easement rights. And
even if an action to impose a penalty under Code of Civil
Procedure section 340 were analogous, the Commission moved
promptly to impose penalties here. The Legislature did not enact
section 30821 until June 2014—seven years after the
Commission filed its first notice of intent to issue a cease and
desist order and began trying to negotiate a resolution with the
Lents. The Commission informed the Lents their conduct might
expose them to penalties only a few months after the Legislature
enacted section 30821 (see Stats. 2014, ch. 35, § 147), and shortly
thereafter the Commission served the Lents with a new notice of
intent to issue a cease and desist order and impose penalties.

Appendix A-27
prior Property owner that oversaw the development,”
but that his “attempts . . . confirmed both these
persons died within the past few years.” The Lents’
argument, however, ignores that the Commission first
asked the Lents to remove the structures from the
easement area in April 2007—nearly nine years
before Warren Lent stated he “recently” tried
contacting the prior owner and the architect.7 There is
no evidence the prior owner and the architect were not
alive and willing to discuss the history of the property
with the Lents in April 2007 when the Commission
sought the Lents’ consent to remove the structures,
nor is there evidence showing how long the Lents
waited before attempting to contact the prior owner
and the architect. The Lents’ evidence did not compel
the trial court to find the Commission’s purported
delay in seeking to enforce the terms of the easement
caused the Lents’ claimed prejudice.
The Lents also suggest the Commission
acquiesced in the Lents’ maintenance of the
unpermitted structures because it knew of the
structures by 1993 or, at the latest, 2002. In contexts
other than administrative enforcement actions, a
defendant can establish laches by showing either that
the plaintiff’s unreasonable delay caused him or her
prejudice or that “the plaintiff has acquiesced in the
act about which the plaintiff complains.” (Johnson v.
City of Loma Linda, supra, 24 Cal.4th at p. 77.) Even
In their opening brief the Lents assert the Commission did not
notify them until 2010 that the stairway was not permitted. This
assertion is contradicted by the Commission’s April 2007 letter
stating that all “development obstructing the accessway” was
unpermitted and should be removed, including the “deck area”
(on which the stairway sits).
7

Appendix A-28
assuming laches can bar an administrative
enforcement action where the agency acquiesces to a
defendant’s conduct (and there is no showing of
prejudice), the Lents’ evidence did not compel the trial
court to find the Conservancy and Commission
acquiesced here. The Conservancy notified the prior
owner in 1993 that the easement was closed
temporarily because the Conservancy had not
retained a management agency to open the easement
for public use, but that the gate violated the terms of
the easement and the owners would need to remove
the gate either immediately or, at the latest, when the
Conservancy was ready to develop the easement. The
Lents submitted no evidence the Commission or the
Conservancy agreed that any of the structures could
remain permanently. (See Pacific Hills Homeowners
Assn. v. Prun (2008) 160 Cal.App.4th 1557, 1565
[despite delays by a homeowners’ association in
seeking to enforce setback requirements governing a
homeowner’s gate, the homeowner could not show the
association acquiesced where the association “made
its opposition to the gate known from the moment it
was built, and it never changed its position or
communicated to defendants it had changed its
position”]; Wells Fargo Bank v. Goldzband (1997) 53
Cal.App.4th 596, 632 [the California Division of Oil
and Gas did not acquiesce by failing for 16 years to
require a mineral rights owner to plug and abandon
oil wells, where there was no evidence the agency
agreed the owner was not responsible for plugging and
abandoning the wells]; Tustin Community Hospital,
Inc. v. Santa Ana Community Hospital Assn. (1979)
89 Cal.App.3d 889, 899 [“[m]ere delay on the part of
the plaintiff does not necessarily indicate an actual
willingness that the defendant may continue his

Appendix A-29
invasion of the plaintiff’s rights” sufficient to show
acquiescence].)
C. The Lents Received Adequate Notice of the
Penalty
“[P]rocedural due process ‘does not require any
particular form of notice . . . .’” (Lusardi Construction
Co. v. Aubry (1992) 1 Cal.4th 976, 990; accord, Pacific
Gas & Electric Co. v. Public Utilities Com. (2015) 237
Cal.App.4th 812, 860 (Pacific Gas).) “‘“If the
[administrative remedy] provides for reasonable
notice and a reasonable opportunity to be heard, that
is all that is required.”’” (Jonathan Neil & Assoc., Inc.
v. Jones (2004) 33 Cal.4th 917, 936, fn. 7, brackets in
original; see Pacific Gas, at p. 860 [“All that is
required is that the notice be reasonable.”].)
The Lents had reasonable and sufficient notice.
As the Commission correctly argues, due process does
not require an administrative agency to notify an
alleged violator of an exact penalty the agency intends
to impose, so long as the agency provides adequate
notice of the substance of the charge. For example, in
Pacific Gas, supra, 237 Cal.App.4th 812 a gas pipeline
operator challenged a $14,350,000 penalty imposed by
the Public Utilities Commission (PUC), which the
PUC based in part on a provision authorizing daily
penalties of $50,000 for a continuing violation. (Id. at
pp. 832-833.) The court held the PUC provided
adequate notice by sending the operator an order to
show cause informing it of the rule it violated, of the
conduct constituting the violation, and that the
violation could expose the operator to penalties under
an applicable section of the Public Utilities Code, even
though the PUC did not cite the section of the code

Appendix A-30
permitting it to impose daily penalties for a
continuing violation. (Id. at p. 861.)
Here, the Commission in its 2015 notice of intent
informed the Lents how their conduct violated the
Coastal Act and provided them with citations to all
applicable statutes. And although the Commission did
not indicate the specific penalty amount it would
impose, it cited section 30821 and stated the Lents’
conduct could warrant penalties of up to $11,250 “for
each day the violation has persisted or is persisting,
for up to five (5) years.” The rest was a matter of
multiplication; the Lents at that point knew all they
needed to know about the potential penalty they
faced, how the Commission would calculate it, and
why.
But there was more: Two weeks before the
hearing the Commission staff issued its recommended
findings and order and sent a copy to counsel for the
Lents. Not only did the staff describe in further detail
how the Lents violated the Coastal Act and why their
conduct warranted penalties under section 30821, but
the staff attached all of the evidence it relied on to
reach its conclusions. While the Commission staff
recommended a penalty of between $800,000 and
$1,500,000 “in an effort to be extraordinarily
conservative in th[e] first unilateral imposition of
administrative penalties,” it also specifically advised
the Lents that the Commission could impose a penalty
of “up to $8,370,000” and that “application of [the
statutory] factors would support the imposition of a
higher end penalty in the matter close to the
$8 million” or “a penalty in the middle range . . . near
$4 million . . . .”

Appendix A-31
Of course, under some circumstances an agency
may violate due process by indicating it intends to
impose a certain penalty, but subsequently deciding
to impose a greater penalty, without giving the person
an additional opportunity to respond. For example, in
Tafti v. County of Tulare (2011) 198 Cal.App.4th 891
the county served a notice ordering the owner of a
gasoline station to pay a $138,824 penalty, but
informed him he could request a hearing to challenge
the order. (Id. at pp. 894-895.) The court in Tafti
vacated the $1,148,200 penalty an administrative law
judge subsequently imposed during the hearing,
holding the county did not adequately inform the
owner it might increase the penalty at the hearing.
(Id. at pp. 898-900.) But the circumstances here are
different. The Commission staff informed the Lents
that its recommended penalty range of $800,000 to
$1,500,000 was just that—a recommendation—and
that the Commission could impose a penalty of up to
$8,370,000. Moreover, by the time the Commission
staff sent its notice of intent to issue a cease and desist
order and impose penalties, the Lents, through
counsel, had exchanged correspondence with the
Commission about the unpermitted developments.
The Lents and their attorneys received adequate
notice of the potential penalty.
The Lents argue they “could not present” evidence
of whether the penalty imposed by the Commission
“might be” constitutionally excessive, and could not
have “fully appreciated” “the importance” of other
evidence, until the commissioners began deliberating
a potential penalty higher than the penalty
recommended by the Commission staff. Therefore,
according to the Lents, due process required the

Appendix A-32
Commission to give them an opportunity to submit
additional evidence after the Commission decided to
impose the penalty. Not true. The Lents knew in
September 2015, long before the Commission staff
made a recommendation on the amount of a penalty,
that the Commission might impose daily penalties of
up to $11,250. The Lents filed a statement of defense
and a supplemental statement of defense, but never
raised a constitutional objection to the potential size
of the penalty. At the hearing, neither the Lents’
attorneys nor Warren Lent argued that the potential
size of the penalty was constitutionally excessive or
that the Lents needed additional time to submit
evidence relevant to the statutory penalty factors
under section 30820, subdivision (c), even though the
Commission had specifically informed the Lents two
weeks before the hearing that the Commission could
impose a penalty of up to $8,170,000. In addition, even
if the Commission somehow reduced the Lents’
motivation or incentive to submit relevant evidence by
recommending a penalty of “only” up to $1,500,000,
the Lents have not identified what additional evidence
they would have submitted had the Commission staff
recommended a larger penalty.8

In its cross-appeal, the Commission asserts the trial court
“erred by remanding based on finding that the Commission
focused overly on deterrence” and “by finding that the second
penalty factor, on susceptibility to remediation, did not support
imposition of a penalty.” Because the trial court did not make
either finding, and the Lents do not mention either finding in
their opening brief, we do not address the Commission’s
assertion.
8

Appendix A-33
D. The Lents Have Not Shown They Received
Inadequate Procedural Protections
The Lents contend that, even if they received
sufficient notice of the potential penalty, section
30821 is unconstitutional on its face because it allows
the Commission to impose substantial penalties
without giving alleged violators sufficient procedural
protections. In the alternative, the Lents contend
section 30821 is unconstitutional as applied to them.
Neither contention has merit.
1. Applicable Law
“Both the federal and state Constitutions compel
the government to afford persons due process before
depriving them of any property interest.” (Today’s
Fresh Start, Inc. v. Los Angeles County Office of
Education (2013) 57 Cal.4th 197, 212 (Today’s Fresh
Start).) “‘The essence of due process is the
requirement that “a person in jeopardy of serious loss
[be given] notice of the case against him and
opportunity to meet it.”’ [Citations.] The opportunity
to be heard must be afforded ‘at a meaningful time
and in a meaningful manner.’” (Ibid.) In determining
“‘“the quantum and quality of the process due in a
particular situation”’ . . . the United States Supreme
Court [in Mathews v. Eldridge (1976) 424 U.S. 319,
335 [96 S.Ct. 893, 47 L.Ed.2d 18] (Mathews)] has
rejected absolute rules in favor of balancing three
considerations: ‘First, the private interest that will be
affected by the official action; second, the risk of an
erroneous deprivation of such interest through the
procedures used, and the probable value, if any, of
additional or substitute procedural safeguards; and
finally, the Government’s interest, including the

Appendix A-34
function involved and the fiscal and administrative
burdens that the additional or substitute procedural
requirement would entail.’” (Today’s Fresh Start, at
pp. 212-213.) California courts “also consider a fourth
factor, the ‘“dignitary interest in informing
individuals of the nature, grounds, and consequences
of the action and in enabling them to present their
side of the story before a responsible government
official.”’” (Id. at p. 213.) “In other words, what would
the proposed additional procedures add to the fairness
and accuracy of the proceedings actually held, and is
any such additional benefit constitutionally necessary
in light of the respective interests at stake?” (Id. at
pp. 228-229.)
2. The Lents Have Not Shown Section 30821
Is Unconstitutional on Its Face
As the California Supreme Court stated in
Today’s Fresh Start, supra, 57 Cal.4th 197, the
“standard for a facial constitutional challenge to a
statute is exacting. It is also the subject of some
uncertainty.” (Id. at p. 218.) Under one standard,
courts “will not invalidate a statute unless it ‘pose[s]
a present total and fatal conflict with applicable
constitutional prohibitions.’” (California School
Boards Assn. v. State of California (2019) 8 Cal.5th
713, 723-724; see California Teachers Assn. v. State of
California (1999) 20 Cal.4th 327, 338.) Under “‘a more
lenient standard,’” courts ask “‘whether the statute is
unconstitutional “in the generality or great majority
of cases.”’” (California School Boards Assn., at p. 724;
see Gerawan Farming, Inc. v. Agricultural Labor
Relations Bd. (2017) 3 Cal.5th 1118, 1138.) “Either
way, we consider only the text and purpose of the

Appendix A-35
statute, and ‘petitioners cannot prevail by suggesting
that in some future hypothetical situation
constitutional problems may possibly arise as to the
particular application of the statute.’” (California
School Boards Assn., at p. 724.) The Lents’ facial
constitutional challenge, even under the more lenient
standard, fails.
“[P]rocedural due process does not require a trialtype hearing in every instance.” (Oberholzer v.
Commission on Judicial Performance (1999) 20
Cal.4th 371, 392.) “To the contrary, ‘[i]n general,
“something less” than a full evidentiary hearing is
sufficient prior to adverse administrative action.’”
(Today’s Fresh Start, supra, 57 Cal.4th at p. 228.)
Courts have rejected challenges to administrative
proceedings that did not provide the kind of
procedural protections the Lents complain section
30821 does not provide, including the right to call
witnesses and examine adverse witnesses (see, e.g.,
Coleman v. Department of Personnel Administration
(1991) 52 Cal.3d 1102, 1122; James v. City of
Coronado (2003) 106 Cal.App.4th 905, 912; Stardust
Mobile Estates, LLC v. City of San Buenaventura
(2007) 147 Cal.App.4th 1170, 1189); the right to
exclude unsworn testimony (see E.W.A.P., Inc. v. City
of Los Angeles (1997) 56 Cal.App.4th 310, 324; Mohilef
v. Janovici (1996) 51 Cal.App.4th 267, 298); and the
right to subpoena witnesses (Mohilef, at p. 303; cf.
Cimarusti v. Superior Court (2000) 79 Cal.App.4th
799, 808-809 [“[g]enerally, there is no due process
right to prehearing discovery in administrative
hearing cases”]).

Appendix A-36
In support of their due process argument, the
Lents discuss primarily the first Mathews factor,
asserting that section 30821 allows the Commission to
impose substantial penalties of up to $20,000,000
against property owners, “akin to the deprivation of
one’s means of livelihood.” It is true that due process
may require a proceeding that more closely resembles
a trial when, for example, “action by the state
significantly impairs an individual’s freedom to
pursue a private occupation.” (Oberholzer v.
Commission on Judicial Performance, supra, 20
Cal.4th at p. 392.) While the Commission certainly
has the potential to impose significant penalties, this
potential has less relevance to the Lents’ facial
challenge because section 30821 does not require the
Commission to impose a minimum penalty if it
determines a property owner has violated the Coastal
Act. (See People ex rel. Lockyer v. Fremont Life Ins. Co.
(2002) 104 Cal.App.4th 508, 522-523 [statutory
penalty is less likely to violate due process where the
statute gives the adjudicator discretion in
determining the amount of the penalty].) To prevail on
their facial challenge, the Lents must show not only
that the Commission has the potential to impose
penalties large enough to violate due process under
the informal hearing procedures of section 30821, but
(under the standard more lenient to them) that in the
generality or the great majority of cases the
Commission’s imposition of a fine would violate due
process. They did not make such a showing here. The
Commission has discretion to impose a daily penalty
of up to $11,250 for a violation of the Coastal Act, but
it does not have to do so, even where it determines a
property owner has violated the Coastal Act.
Moreover, under section 30821, subdivision (h), the

Appendix A-37
Commission may not impose a penalty if the alleged
violator can correct the violation within 30 days of
receiving notification of the violation without
undertaking additional development that requires a
permit.
Turning to the second Mathews factor, neither the
Lents nor the Commission discusses the procedures
available to alleged violators in proceedings under
section 30821. But several provisions of the Coastal
Act and the regulations adopted by the Commission
are designed to ensure alleged violators have a
meaningful opportunity to be heard. The Commission
may only impose penalties after “a duly noticed public
hearing” on a cease and desist or restoration order or
after a hearing on a notice of intent to record a
violation of the Coastal Act. (See §§ 30810-30812,
30821, subd. (b).) Prior to the hearing, the executive
director of the Commission must give the alleged
violator notice of the Commission’s intent to issue the
order. (§ 30812, subd. (a); Cal. Code Regs., tit. 14,
§§ 13181, subd. (a), 13191, subd. (a).) In the case of a
notice of intent to issue a cease and desist order (the
procedure used here) or a restoration order, the
executive director must attach a statement of defense
form and give the alleged violator at least 20 days to
respond, with the executive director having discretion
to grant additional time. (Cal. Code Regs., tit. 14,
§§ 13181, subds. (a) & (b), 13191, subds. (a) & (b).)
Prior to the hearing the director must prepare and
distribute to the alleged violator a written
recommendation on the proposed order that includes
“a brief summary of (A) any background to the alleged
violation, (B) the allegations made by staff in its
violation investigation, (C) a list of all allegations

Appendix A-38
either admitted or not contested by the alleged
violator(s), (D) all defenses and mitigating factors
raised by the alleged violator(s), and (E) any rebuttal
evidence raised by the staff to matters raised in the
alleged violator’s assertion of any defense or
mitigating factor with references to supporting
documents.” (Id., § 13183, subd. (b)(2); see id., § 13193,
subd. (b)(2).) At the hearing the Commission staff
must summarize its investigation and proposed
findings, and the alleged violator may present his or
her position. (Id., §§ 13185, subds. (c) & (d), 13195.)
The alleged violator may also ask to submit “evidence
that could not have been set forth in a statement of
defense form,” in which case the Commission may
postpone the matter until later in the meeting or
continue the matter to a subsequent meeting. (Id.,
§§ 13185, subd. (d), 13195.) Any speaker, including
the alleged violator, may submit questions to the
Commission to ask other speakers. (Id., §§ 13185,
subd. (g), 13195.)9
Although not as robust as trial-like proceedings,
these procedures guarantee that a property owner has
notice of the alleged violations, an opportunity to
present evidence, notice of the recommendation by the
Commission staff and supporting evidence prior to the
hearing, and an opportunity to present a defense prior
to and at the hearing. The Lents do not explain why
these protections are insufficient in the generality or
in the great majority of cases. (See Today’s Fresh
Title 14 of the California Code of Regulations does not include
specific procedural requirements for hearings on a notice of
intent to record a violation, but section 30812, subdivision (d), of
the Public Resources Code requires that the owner have an
opportunity to present evidence at the public hearing.
9

Appendix A-39
Start, supra, 57 Cal.4th at pp. 229-230 [charter school
had a meaningful opportunity to be heard where it
had “notice of the alleged deficiencies in its operations
and numerous chances to respond, in writing and
orally, with evidence and arguments for why its
charter should not be revoked”].)
Moreover, to prove the existence of an
unpermitted development, the Commission, as it did
here, will generally rely on documentary evidence.
“Unlike cases that turn upon the testimony of live
witnesses, cases involving documentary evidence do
not carry a critical need to inquire into credibility via
cross-examination.” (Stardust Mobile Estates, LLC v.
City of San Buenaventura, supra, 147 Cal.App.4th at
p. 1189; see Oberholzer v. Commission on Judicial
Performance, supra, 20 Cal.4th at p. 393 [superior
court judge was not entitled to a trial-like evidentiary
hearing to contest an advisory letter from the
Commission on Judicial Performance because that
commission’s “inquiry lent itself well to proof through
documentary forms of evidence”]; cf. Manufactured
Home Communities, Inc. v. County of San Luis Obispo
(2008) 167 Cal.App.4th 705, 711 [cross-examination
“is especially important where findings against a
party are based on an adverse witness’s testimony”].)
And even in cases where the Commission’s findings
may depend on the testimony of a percipient witness,
the proceedings, as discussed, allow the alleged
violator to submit questions to the commissioners to
ask witnesses. (See Doe v. Regents of University of
California (2016) 5 Cal.App.5th 1055, 1084 [due
process did not guarantee a student accused of sexual
assault the right to cross-examine the complainant
where the student could submit written questions to

Appendix A-40
the university’s disciplinary review panel, even
though the panel’s findings were “likely to turn on the
credibility of the complainant, and respondent face[d]
very severe consequences”].)
Nor have the Lents shown that additional, triallike procedures would significantly reduce the risk
that the Commission would impose a fine that is not
justified under the statutory penalty factors. As the
California Supreme Court explained in People v.
Ramirez (1979) 25 Cal.3d 260, when a decision “is
evaluative in nature” and “depends on consideration
of a host of intangible factors rather than on the
existence of particular and contestable facts,” formal
hearing procedures aimed at “promoting accuracy and
reliability,” like cross-examination, are less important
“because of the difficulties inherent in challenging the
subjective aspects of an evaluative-type decision.” (Id.
at pp. 275-276.) Section 30820, subdivision (c), lists
five factors the Commission must consider before
imposing the penalty. At least three of them are or
include intangible factors that do not necessarily
depend on contestable facts: the “nature,
circumstance, extent, and gravity of the violation”; the
“sensitivity of the resource affected by the violation”;
and “[w]ith respect to the violator, . . . the degree of
culpability . . . and such other matters as justice may
require.” (§ 30820, subd. (c)(1)-(5).)10

Arguably, the other factors the Commission must consider
depend more on contestable facts, such as whether the violation
is susceptible to restoration or remediation efforts, the cost to the
state of bringing the action, and whether the violator has
undertaken any remediation efforts.
10

Appendix A-41
Regarding the final Mathews factor, the
Commission argues it has an important interest in
imposing penalties using informal procedures to
efficiently resolve violations of the Coastal Act and
deter future violations. Certainly the Commission has
an interest in efficiently remedying violations of the
Coastal Act. And although the Commission could
implement additional procedural protections for
alleged violators in proceedings under section 30821,
courts give some deference to the procedures an
agency has adopted in enforcement proceedings, even
if those proceedings do not include a full, trial-like
evidentiary hearing. As the California Supreme Court
stated in Today’s Fresh Start, supra, 57 Cal.4th 197,
“‘“legislatures and agencies have significant
comparative advantages over courts in identifying
and measuring the many costs and benefits of
alternative decisionmaking procedures. Thus, while it
is imperative that courts retain the power to compel
agencies to use decisionmaking procedures that
provide a constitutionally adequate level of protection
. . . , judges should be cautious in exercising that
power. In the vast bulk of circumstances, the
procedures chosen by the legislature or by the agency
are likely to be based on application of a Mathews-type
cost-benefit test by an institution positioned better
than a court to identify and quantify social costs and
benefits.”’” (Id. at p. 230; see Marvin Lieblein, Inc. v.
Shewry
(2006)
137
Cal.App.4th
700,
723
[acknowledging “the administrative and fiscal burden
of requiring a full evidentiary hearing with live
testimony”]; Mohilef v. Janovici, supra, 51
Cal.App.4th at p. 301 [“‘Courts should be particularly
cautious in deciding whether to require an agency to
provide a procedure that has the potential to impose

Appendix A-42
significant costs,
examine.’”].)11

such

as

a

right

to

cross-

One of the Lents’ primary arguments is not based
on any of the three Mathews factors. They argue
section 30821 is unconstitutional on its face because it
permits the Commission to impose a “quasi-criminal”
penalty, but does not guarantee property owners and
other alleged violators the “formalities usually
afforded the accused in the quasi-criminal context.”
The Lents contend that, by enacting the provision that
allows the Commission to impose an administrative
penalty, the Legislature intended, in part, to punish
those who violate the Coastal Act. Citing Austin v.
United States (1993) 509 U.S. 602 [113 S.Ct. 2801, 125
L.Ed.2d 488], the Lents argue that section 30821
therefore creates a quasi-criminal proceeding.12

The Lents do not make any specific arguments regarding the
fourth factor California courts consider, the dignitary interests
of the individual. The California Supreme Court has emphasized
that this factor largely concerns ensuring individuals have the
opportunity to meaningfully participate in proceedings. (See
People v. Allen (2008) 44 Cal.4th 843, 869 [defendants have a
“dignitary interest in being heard,” and the “government has no
interest in assuming a paternal role to prevent a defendant from
pursuing a strategically misguided path”]; People v. Ramirez,
supra, 25 Cal.3d at p. 275 [“‘Only through [oral] participation can
the individual gain a meaningful understanding of what is
happening to her, and why it is happening. Moreover, providing
the opportunity to react . . . promote[s] the feeling that,
notwithstanding the substantive result, one has been treated
humanely and with dignity by one’s government.’”].) As
discussed, the Commission’s procedures adequately account for
the dignitary interests of the individual.
11

12 The Lents also cite People v. Ruiz (2018) 4 Cal.5th 1100, where
the California Supreme Court considered whether a criminal

Appendix A-43
The problem with the Lents’ argument is that it
conflates different constitutional protections. In
Austin v. United States, supra, 509 U.S. 602 the
United States Supreme Court considered the
Excessive Fines Clause of the Eighth Amendment to
the United States Constitution—not the due process
balancing test described in Mathews. (See Austin, at
p. 604.) The Supreme Court held that a “‘civil sanction
that cannot fairly be said solely to serve a remedial
purpose, but rather can only be explained as also
serving either retributive or deterrent purposes, is
punishment’ . . . and, as such, is subject to the
limitations of the Eighth Amendment’s Excessive
Fines Clause.” (Austin, at pp. 621-622.) But even
assuming a penalty imposed under section 30821 is a
“fine” subject to the limitations of the Excessive Fines
Clause (an issue we will discuss), that does not
guarantee alleged violators all the “formalities
usually afforded the accused” in criminal proceedings.
For example, it is the Sixth Amendment, not the
Eighth Amendment, that guarantees the accused in
criminal prosecutions the right to confront witnesses
(one of the protections the Lents complain section
30821 does not afford them), and courts do not use the
Excessive Fines analysis of Austin to determine the
proceedings to which the protections of the Sixth
Amendment apply. (See, e.g., Lewis v. United States
(1996) 518 U.S. 322, 325 [116 S.Ct. 2163, 135 L.Ed.2d
laboratory analysis fee and drug program were “punishment” for
purposes of “Penal Code section 182, subdivision (a)—which
provides that persons convicted of conspiring to commit a felony
‘shall be punishable in the same manner and to the same extent
as is provided for the punishment of that felony.’” (Ruiz, at
p. 1106.) Neither Ruiz nor Penal Code section 182 has anything
to do with this case.

Appendix A-44
590]; Gardner v. Appellate Division of Superior Court
(2019) 6 Cal.5th 998, 1003.)
The California Supreme Court in People v.
Superior Court (Kaufman) (1974) 12 Cal.3d 421
similarly explained that the punitive nature of a
penalty does not guarantee an accused the Fifth
Amendment privilege against self-incrimination. In
that case the government sought to impose civil
penalties on an individual for deceptive advertising,
and the individual invoked his Fifth Amendment
privilege against self-incrimination to avoid
answering questions at a deposition, arguing the
proceeding was criminal in nature because of the
substantial penalties the individual faced. (See id. at
pp. 424-425, 429.) In rejecting the individual’s
privilege assertion, the Supreme Court explained that
a civil penalty for deceptive advertising “is
unquestionably intended as a deterrent against future
misconduct and does constitute a severe punitive
exaction by the state, but neither it nor the process by
which it is imposed is deemed criminal in nature for
such reasons. The penalty does not include, for
instance, the stigma of a criminal conviction nor does
it permit such alternative punishment as the loss of
personal freedom with which a defendant in a
criminal action is threatened.” (Id. at p. 431, fn.
omitted.)
In their reply brief the Lents assert that, “[b]y
definition, a quasi-criminal penalty is more serious
than a purely civil remedy, and that point is
appropriately considered in the balancing-factor
analysis under procedural due process.” But the
Legislature has characterized the penalty imposed

Appendix A-45
under section 30821 as an “administrative civil
penalty” (§ 30821, subd. (a)), not a “criminal” penalty
or fine. Like the civil penalty the Supreme Court
considered in Kaufman, a penalty imposed under
section 30821 does not expose the defendant to the
stigma of a criminal conviction. The Lents do not
explain why an individual has a greater interest in
avoiding an administrative civil penalty simply
because the Legislature intends the penalty (in part)
to deter future unlawful conduct.
3.

The Lents Have Not Shown Section 30821
Is Unconstitutional as Applied to Them

The party challenging a statute that is facially
valid has “the burden of evincing facts to show that it
was unconstitutional as applied.” (Associated
Homebuilders of Greater East Bay, Inc. v. City of
Livermore (1961) 56 Cal.2d 847, 854; accord, Coffman
Specialties, Inc. v. Department of Transportation
(2009) 176 Cal.App.4th 1135, 1145.) The Lents’
opening brief (but not their petition) includes a oneparagraph argument that section 30821, even if not
unconstitutional on its face, it is unconstitutional as
applied to them because the Commission imposed a
large penalty. There may be instances where an
agency, by imposing a substantial penalty without
giving the alleged violator a fair opportunity to
present a defense, infringes on the alleged violator’s
due process rights. For example, in Manufactured
Home Communities, Inc. v. County of San Luis
Obispo, supra, 167 Cal.App.4th 705 a county rent
control board determined, based primarily on the
testimony of tenants, that a mobilehome park
operator violated a rent control ordinance. (Id. at

Appendix A-46
p. 708.) The court held the county violated the
operator’s due process rights because the county
“found the tenants’ testimony to be credible and ‘never
rebutted,’” but “did not allow [the operator] to test the
tenants’ veracity or rebut the testimony through
cross-examination.” (Id. at p. 712.)
The Lents, however, have not identified any
specific procedural protection they contend was
necessary to avoid an erroneous deprivation of their
interests. They do not contend, for example, that they
needed to cross-examine or otherwise question a
particular witness the Commission relied on or that
they needed to subpoena a particular witness who was
unwilling to testify. The Lents simply reiterate that
they were entitled to all of the “traditional checks
against arbitrary and unfair adjudication” afforded in
trial-like proceedings, without explaining how these
additional protections, as applied to them, could have
made any difference. Accordingly, the Lents’ asapplied challenge fails.
E. The
Lents
Have
Not
Shown
Commissioners Are Biased Adjudicators

the

The Lents next contend the commissioners are
biased adjudicators in proceedings to impose penalties
under section 30821. Where “‘an administrative
agency conducts adjudicative proceedings, the
constitutional guarantee of due process of law
requires a fair tribunal.’” (Today’s Fresh Start, supra,
57 Cal.4th at p. 215; see Morongo Band of Mission
Indians v. State Water Resources Control Bd. (2009)
45 Cal.4th 731, 737.) Unlike California’s statutory
scheme, in which “an explicit ground for judicial
disqualification . . . is a public perception of partiality,

Appendix A-47
that is, the appearance of bias,” the constitutional due
process guarantee of a fair tribunal “focuses on actual
bias.” (People v. Freeman (2010) 47 Cal.4th 993, 1001.)
“A fair tribunal is one in which the judge or other
decision maker is free of bias for or against a party.”
(Morongo, at p. 737.) “Violation of this due process
guarantee can be demonstrated not only by proof of
actual bias, but also by showing a situation ‘in which
experience teaches that the probability of actual bias
on the part of the judge or decisionmaker is too high
to be constitutionally tolerable.’” (Ibid.; see Freeman,
at p. 1001.) “Claims that an adjudicator is biased are
not subject to balancing under the federal Mathews or
state Mathews-plus test.” (Today’s Fresh Start, at
p. 216.) “‘[T]he burden of establishing a disqualifying
interest rests on the party making the assertion.’” (Id.
at p. 221.)
Quoting (part of) section 30001.5, subdivision (c),
the Lents argue the commissioners are biased
adjudicators because the Coastal Act directs them to
“[m]aximize public access to and along the coast.” The
Lents’ quotation, however, is misleadingly selective.
The complete text of section 30001.5, subdivision (c),
states that the “basic goals of the state for the coastal
zone” include maximizing “public access to and along
the coast and maximiz[ing] public recreational
opportunities in the coastal zone consistent with
sound resources conservation principles and
constitutionally protected rights of private property
owners.” Section 30210, which the Lents also cite,
states that access “shall be provided for all the people
consistent with public safety needs and the need to
protect public rights, rights of private property
owners, and natural resource areas from overuse.”

Appendix A-48
The Lents’ argument is also based on a false premise.
Section 30001.5 does not direct or require the
commissioners to do anything; it is a statement of the
Legislature’s declarations and findings in adopting
the Coastal Act. That commissioners “may be
sympathetic towards the objectives of the Act is not a
valid criticism. . . . ‘Administrators who are
unsympathetic toward the legislative program are
very likely to thwart the democratic will; the way to
translate legislative policies into action is to secure
administrators whose honest opinions—biases—are
favorable to those policies.’” (CEEED v. California
Coastal Zone Conservation Com. (1974) 43 Cal.App.3d
306, 328-329; see Today’s Fresh Start, supra, 57
Cal.4th at p. 222 [we “presum[e] that agency
adjudicators are people of ‘“conscience and intellectual
discipline, capable of judging a particular controversy
fairly on the basis of its own circumstances”’”].)
The Lents also argue the commissioners are
biased because they can raise revenue for the
Commission by imposing penalties under section
30821. “[I]nstitutional financial interests alone, even
without any corresponding personal benefit, may
compromise due process.” (Today’s Fresh Start, supra,
57 Cal.4th at p. 217.) Here, the revenue derived from
penalties imposed under section 30821 is not collected
by the Commission; it is deposited into the Violation
Remediation Account of the Coastal Conservancy
Fund. (See § 30821, subd. (j).) But section 30823
requires the Conservancy to expend funds “for
carrying out the provisions” of the Coastal Act “when
appropriated by the Legislature.” The Commission
has “primary responsibility for the implementation of
the provisions” of the Coastal Act (§ 30330), which

Appendix A-49
includes “manag[ing] and budget[ing] any funds that
may be appropriated, allocated, granted, or in any
other way made available to the commission for
expenditure.” (§ 30340.) Therefore, the commissioners
know the revenue from penalties imposed under
section 30821 will be used (if at all) to carry out the
provisions of the Coastal Act, which by statute they
are required to implement (although it is not clear
from the record how the Commission exercises, and
whether it delegates any of, its executive authority).
That individuals with both executive and adjudicative
functions can raise revenue by imposing penalties in
adjudicative proceedings may, but does not
necessarily, show the individuals have a sufficient
institutional financial interest to violate due process.
The United States Supreme Court has held that
an official is not an impartial adjudicator where the
official has executive responsibilities, the official can
impose fines in adjudicative proceedings to fulfill his
or her executive responsibilities, and the fines
constitute a “substantial” or “major” part of the
revenue of the organization the official oversees. For
example, in Tumey v. State of Ohio (1927) 273 U.S.
510 [47 S.Ct. 437, 71 L.Ed. 749] (Tumey) the Supreme
Court held that the mayor of a village was not an
impartial adjudicator for a defendant who was
charged with unlawfully possessing liquor because the
mayor was the “chief executive of the village . . .
charged with the business of looking after the finances
of the village” and “substantial sums were expended
out of the village treasury, from the fund made up of
the fines” imposed on defendants convicted under the

Appendix A-50
applicable prohibition statutes. (Id. at pp. 521, 532.)13
The Supreme Court observed, however, that “the mere
union of the executive power and the judicial power in
[a person] cannot be said to violate due process of law”
and that the “minor penalties usually attaching to the
ordinances of a village council, or to the misdemeanors
in which the mayor may pronounce final judgment
. . . , do not involve any such addition to the revenue
of the village as to justify the fear that the mayor
would be influenced in his judicial judgment by that
fact.” (Ibid.) Similarly, in Ward v. Village of
Monroeville (1972) 409 U.S. 57 [93 S.Ct. 80, 34
L.Ed.2d 267] (Ward) the United States Supreme
Court held that the mayor of a village who convicted
and fined a defendant for traffic offenses was not
impartial where the mayor had “wide executive
powers,” “account[ed] annually to the [village] council
respecting village finances,” and had “general overall
supervision of village affairs,” and where a “major part
of village income [was] derived from the fines,
forfeitures, costs, and fees imposed by him in his
mayor’s court.” (Id. at pp. 58, 60.)
In contrast, the court in Alpha Epsilon Phi Tau
Chapter Housing Assn. v. City of Berkeley (9th Cir.
1997) 114 F.3d 840 (Alpha Epsilon) held a city’s rent
stabilization board that decided appeals over whether
units were subject to the city’s rent control ordinance
was an impartial adjudicator, even though the board
could impose fees and penalties to raise revenue. “In
its executive capacity, the Board control[led] the rents
The Supreme Court separately held the mayor was not
impartial because he personally received compensation if he
convicted the defendant, but not if he acquitted the defendant.
(Tumey, supra, 273 U.S. at pp. 523, 531-532.)
13

Appendix A-51
that landlords may charge for properties subject to the
ordinance,” administered “its own budget,” and was
“responsible for its own funding.” (Id. at p. 842.) If the
board ruled a unit was subject to rent control, the
owner had to pay an annual registration fee and
penalties for late payments, which went to the board’s
budget. Distinguishing Tumey and Ward, the court in
Alpha Epsilon held the arrangement did not violate
due process because the board did not have a strong
enough interest in adjudicating proceedings against
landlords to “‘reasonably warrant [a] fear of partisan
influence on [the] judgment.’” (Alpha Epsilon, at
pp. 846-847; see Commonwealth of the Northern
Mariana Islands v. Kaipat (1996) 94 F.3d 574, 575.)
The court explained that, although the board’s role as
both “adjudicator of coverage and executor of its
finances may be a less than optimal design for due
process purposes,” the “amount of the budget at stake”
from the registration fees and penalties “in any year—
at a maximum of five percent—is rather small.”
(Alpha Epsilon, at p. 847.) The court also concluded
that the board’s “ability to recoup losses” and “seek
funding from the City and other sources . . . further
attenuate[d its] financial motivations” and that the
board “regularly waive[d] penalties” and recently had
a surplus. (Ibid.)
The Coastal Act places some check on the
Commission’s ability to use revenue derived from
penalties imposed under section 30821 by requiring
that the Legislature appropriate and the Conservancy
expend the funds. (See § 30823; see also § 30821, subd.
(i)(3) [requiring the Commission to submit to the
Legislature a report of administrative penalties
imposed under section 30821].) More importantly, the

Appendix A-52
Lents submitted no evidence in the trial court of how
much money the Legislature generally appropriates
or the Conservancy spends from the Violation
Remediation Account to carry out the provisions of the
Coastal Act. Nor did the Lents submit evidence of the
Commission’s annual budget or of how much of its
budget (if any) the Commission generally receives
from expenditures from the Violation Remediation
Account. The Coastal Act may give the commissioners
at least some incentive to impose substantial fines
under section 30821, just as the budgetary system in
Alpha Epsilon gave the board some incentive to
recover registration fees and impose late payment
penalties on landlords. (See Alpha Epsilon, supra, 114
F.3d at p. 847.) But absent some additional evidence
showing how much the commissioners rely on the
penalties to carry out their executive duty to
implement the Coastal Act, we cannot determine
whether the commissioners’ motives are strong
enough to reasonably warrant a “fear of partisan
influence” on the Commission’s judgment or to cause
the commissioners “‘not to hold the balance nice, clear,
and true between the state and the accused.’” (Ibid.;
see Ward, supra, 409 U.S. at p. 60.) The Lents did not
meet their burden of showing the commissioners have
a strong enough institutional financial interest in the
penalties they impose to create a constitutionally
impermissible risk of bias.
In connection with their opening brief, the Lents
ask us to take judicial notice of a memorandum of
understanding (MOU) between the Commission and
the Conservancy, titled Use and Expenditure of
Violation Remediation Account Funds. According to
the Lents, the MOU shows the executive director of

Appendix A-53
the Commission has “final say” on how penalties
deposited into the Violation Remediation Account are
used. In their reply brief, the Lents ask us to take
judicial notice of even more documents prepared by
the Commission and the Conservancy. According to
the Lents, these documents show that the
Conservancy has made expenditures from the
Violation Remediation Account that directly fund the
Commission’s operations and that the penalty
imposed on the Lents would have accounted for
approximately 14 percent of the Commission’s annual
budget for the 2017-2018 fiscal year.
We deny the requests for judicial notice of these
documents. The Lents did not ask the trial court to
take judicial notice of any of these documents, nor do
the Lents explain why they did not submit this
evidence in the trial court. (See Brosterhous v. State
Bar (1995) 12 Cal.4th 315, 325-326 [“An appellate
court may properly decline to take judicial notice
under Evidence Code sections 452 and 459 of a matter
which should have been presented to the trial court
for its consideration in the first instance.”]; County of
Los Angeles Department of Public Health v. Superior
Court (2021) 61 Cal.App.5th 478, 486, fn. 3 [same].)
With respect to the MOU, even assuming we could
take judicial notice of it as an official act of an agency
(see Evid. Code, §§ 452, subd. (c), 459), the Lents ask
us to interpret the MOU in a manner that is not
obvious from the face of the document. While the MOU
states the Conservancy must ask the Legislature to
appropriate certain funds in the Violation
Remediation Account for specific projects designated
by the executive director of the Commission, it also

Appendix A-54
states that, “[i]f the Executive Officer of the
Conservancy finds the designation of the Executive
Director infeasible, then the Conservancy and the
Commission shall consider and agree upon an
alternative proposal(s).” It is not clear that, as the
Lents assert, the executive director has “final say” on
the Conservancy’s expenditures, and the extent of the
executive director’s control over expenditures is a
factual question a trial court would have been in a
better position to resolve had the Commission had an
opportunity to respond.
In addition, several of the documents the Lents
ask us in their reply brief to judicially notice,
including the document purporting to describe the
Commission’s annual budget, are memoranda
authored by members of the Conservancy and the
Commission. “While we may take judicial notice of . . .
official acts of state agencies [citation], the truth of
matters asserted in such documents is not subject to
judicial notice.” (Arce v. Kaiser Foundation Health
Plan, Inc. (2010) 181 Cal.App.4th 471, 482; see
Guarantee Forklift, Inc. v. Capacity of Texas, Inc.
(2017) 11 Cal.App.5th 1066, 1075.) The Lents seek to
use the memoranda to prove the purported facts in
those documents—namely, that the Conservancy in
fact made various expenditures from the Violation
Remediation Account to the Commission and that the
budget described in the memoranda is in fact the
budget the Legislature approved. And even if we could
take judicial notice of these documents, the Lents, by
waiting until their reply brief on appeal to request
judicial notice, prevented the Commission from
having an adequate opportunity to respond. (See
Newhall County Water Dist. v. Castaic Lake Water

Appendix A-55
Agency (2016) 243 Cal.App.4th 1430, 1450 [“[d]enial is
particularly appropriate where judicial notice has
been requested in support of a reply brief to which the
opposing party has no opportunity to respond”].)14
The Lents also contend that statements by the
individual commissioners at the hearing show the
commissioners were biased against them. “A party
must allege concrete facts that demonstrate the
challenged judicial officer is contaminated with bias
or prejudice. ‘Bias and prejudice are never implied and
must be established by clear averments.’” (Andrews v.
Agricultural Labor Relations Bd. (1981) 28 Cal.3d
781, 792.) The Lents take issue with the fact that
several commissioners recommended fines greater
than $4,150,000. Such statements, however, do not
show the commissioners had a “personal bias” (Hauser
v. Ventura County Bd. of Supervisors (2018) 20
Cal.App.5th 572, 580) against the Lents or advocated
against them prior to hearing the evidence (Nasha v.
City of Los Angeles (2004) 125 Cal.App.4th 470, 484).
Having declined to take judicial notice of these documents, we
do not reach the issue of whether the documents show, as argued
by the Lents, that the executive director of the Commission—a
person appointed by the commissioners who “serve[s] at the
pleasure of his or her appointing power” (§ 30335)—has
significant input into the Conservancy’s expenditures and that
those expenditures have occasionally provided funding for the
Commission’s operations. If penalties imposed by the
Commission directly fund the Commission’s operations without
sufficient oversight and comprise a significant portion of the
Commission’s budget, there could be a concern the
commissioners may have an impermissible institutional interest
when deciding whether to impose significant penalties under
section 30821 like the penalty the Commission imposed on the
Lents.
14

Appendix A-56
In fact, the commissioners who suggested imposing
higher fines justified their positions by discussing
permissible penalty factors under section 30821,
including the public’s loss of access to the beach, the
many years Commission staff spent trying to remedy
the violation, and the Lents’ unwillingness to
cooperate. (See §§ 30820, subd. (c)(1), (4) & (5), 30821,
subd. (c).)
Finally, the Lents argue the “the Commissioners
and staff delighted in how they could put the money
they raised to use” during the hearing. This is not an
accurate description of what occurred at the hearing.
There was a brief mention of how revenue is derived
from penalties. Commissioner Mark Vargas asked
Lisa Haage, the Commission staff’s Chief of
Enforcement, to clarify how the revenue collected
from penalties is allocated. She correctly responded,
“It goes to the Violation Remediation Account.” She
also stated, “If you had creative ideas of what to do
with $200,000, certainly there would be more that’s
possible to do with whatever amount you impose
today,” and she suggested that “one option might be to
fund the construction of this access way.”15 While
Commissioner Vargas later repeated Haage’s
suggestion, he emphasized that the Lents’ violation
was “egregious” and that they were unwilling to
remedy the violation. None of the other commissioners
discussed how the Commission could potentially use
revenue derived from the penalty or justified imposing
higher penalties on the Lents based on the potential
It is not clear what $200,000 Haage was referring to. The
Commission staff did not recommend, and none of the
commissioners discussed, imposing a $200,000 fine on the Lents.
15

Appendix A-57
revenue for the Commission. Nor did the Commission
discuss the potential revenue from the penalty in its
adopted findings and order.
F. The Lents Have Not Shown the Penalty
Violated the Constitutional Prohibition on
Excessive Fines
The Lents’ final argument is that the $4,150,000
penalty violates the federal and state constitutional
prohibition on excessive fines. It does not.
Both the Eighth Amendment to the United States
Constitution and article I, section 17 of the California
Constitution prohibit excessive fines. (See People ex
rel. Lockyer v. R.J. Reynolds Tobacco Co. (2005) 37
Cal.4th 707, 727-728.)16 “‘[T]he touchstone of the
constitutional inquiry under the Excessive Fines
Clause is the principle of proportionality,’” which
courts assess by considering “(1) the defendant’s
culpability; (2) the relationship between the harm and
the penalty; (3) the penalties imposed in similar
statutes; and (4) the defendant’s ability to pay.” (Ibid.;
see United States v. Bajakajian (1998) 524 U.S. 321,
334 [118 S.Ct. 2028, 141 L.Ed.2d 314].) A fine is
constitutionally excessive only if it is “grossly
disproportionate to the offense[ ] . . . .” (People v.
Braum (2020) 49 Cal.App.5th 342, 359; see
Bajakajian, at p. 334 [“a punitive forfeiture violates
the Excessive Fines Clause if it is grossly
disproportional to the gravity of a defendant’s
The Excessive Fines Clause of the Eighth Amendment is
applicable to the states through the Fourteenth Amendment.
(Timbs v. Indiana (2019) ___ U.S. ___, ___ [139 S.Ct. 682, 686687, 203 L.Ed.2d 11].)
16

Appendix A-58
offense”]; City and County of San Francisco v. Sainez
(2000) 77 Cal.App.4th 1302, 1322 [same].) Because the
Commission does not dispute that the penalty
imposed on the Lents is a fine for purposes of the
Excessive Fines Clause, we consider whether the
penalty is grossly disproportionate to the Lents’
violation under the factors in Lockyer and Bajakajian.
“‘We review de novo whether a fine is
constitutionally excessive and therefore violates the
Eighth Amendment’s Excessive Fines Clause.’
[Citations.] ‘[F]actual findings made by the [trial
court] in conducting the excessiveness inquiry, of
course, must be accepted unless clearly erroneous.’”
(Sweeney v. California Regional Water Quality
Control Bd. (Feb. 18, 2021, A153583) ___ Cal.App.5th
___, ___ [2021 Cal.App.Lexis 243, p. 81], as modified
Mar. 18, 2021.) We review the “underlying factual
findings . . . for substantial evidence, viewing the
record in the light most favorable to the ruling.”
(People v. Braum, supra, 49 Cal.App.5th at p. 360.)
1. The Lents’ Culpability
Relying on a declaration Warren Lent filed in the
Commission proceeding, the Lents contend they had
“minimal culpability” because they believed in “goodfaith . . . that they were not violating any public access
provisions.” The trial court found the Lents had a high
degree of culpability because they willfully retained
unpermitted structures and deliberately refused to
remove those structures for over nine years after the
Commission notified them the structures violated the
Coastal Act. The court’s finding was not clearly
erroneous. Although Warren Lent stated he did not
realize the structures were unpermitted, the trial

Appendix A-59
court was not required to find that statement credible,
particularly given that the Conservancy recorded its
acceptance of the public easement and the
Commission notified the Lents in 2007 that the
structures were not permitted and that they
encroached on the public access easement. The
Commission sent multiple letters to the Lents or
counsel for the Lents over the next several years
asking them to remove the structures and explaining
the Conservancy could not develop the accessway
until they did so. Still, the Lents refused to remove the
structures.
Citing United States v. Goodwin (1982) 457 U.S.
368 [102 S.Ct. 2485, 73 L.Ed.2d 74], where the United
States Supreme Court held that “to punish a person
because he has done what the law plainly allows him
to do is a due process violation ‘of the most basic sort’”
(id. at p. 372), the Lents argue the Commission
impermissibly punished them for exercising their
right to defend themselves in the enforcement
proceeding.17 But the trial court did not find the Lents
culpable because they attempted to defend
themselves. The court found the Lents culpable
because they continued to violate the law by refusing
to remove the unpermitted structures. And courts
routinely consider a person’s unwillingness to comply
with the law when considering whether a fine is
excessive under the Eighth Amendment. (See People
v. Braum, supra, 49 Cal.App.5th at p. 361 [landlord’s
The defendant in United States v. Goodwin, supra, 457 U.S.
368 moved to set aside a verdict on the ground of prosecutorial
vindictiveness, contending the prosecutor indicted him on a
felony charge in retaliation for not pleading guilty to a
misdemeanor charge. (See id. at pp. 371-372.)
17

Appendix A-60
flagrant disobedience of city ordinances and court
orders demonstrated his culpability]; City and County
of San Francisco v. Sainez, supra, 77 Cal.App.4th at
p. 1322 [landlord’s “numerous instances of ignoring or
disobeying orders to abate or rectify substandard
housing conditions affecting the public health and
safety” demonstrated his culpability]; Ojavan II,
supra, 54 Cal.App.4th at p. 398 [$9.5 million penalty
imposed by the Commission was not excessive, in part
because of the investor’s “flagrant disregard of the . . .
restrictions” on development].)
2. The Relationship Between the Harm and
the Penalty
The trial court found the Conservancy could have
built a public accessway if the Lents had removed the
structures in the easement area, although the court
stated it was not clear “how long it would have taken”
for the Conservancy to complete the accessway. Again,
the trial court’s finding was not clearly erroneous. The
Conservancy hired contractors in 2008 to complete a
survey of the property and in 2010 to design
conceptual plans. The executive officer of the
Conservancy submitted a letter to the Commission
stating the Conservancy’s draft feasibility study
showed no serious physical impediments, other than
the Lents’ refusal to remove the structures, to the
development of public access improvements. And both
the executive officer and another member of the
Conservancy confirmed this during the hearing. Even
if it was uncertain how long it would take the
Conservancy to build the accessway, there was
substantial evidence the Lents delayed the
Conservancy’s efforts, which in turn delayed the

Appendix A-61
public’s ability to use the easement to access the
beach.18
And there was other evidence showing the harm
the Lents caused was proportional to the penalty. It
was undisputed that there is no public access to the
beach near the Lents’ property; the beach is part of a
three-mile stretch of the coast with no public access,
with the closest public access point a mile away from
the Lents’ property. There is no question the state
places significant value on the public’s right to access
the coast. “[T]idelands—lands between the lines of
mean high tide and mean low tide—are owned by the
public,” which the state holds “in trust for the people
for their use . . . .” (State of California v. Superior
Court (Lyon) (1981) 29 Cal.3d 210, 214.) Both the
California Constitution and Coastal Act protect the
public’s right to access the coast (see Cal. Const.,
art. X, §§ 3, 4; § 30210), and the Coastal Act
specifically recognizes the importance of the public’s
ability to use oceanfront land for recreation (see
§§ 30220 [“Coastal areas suited for water-oriented
recreational activities that cannot readily be provided
at inland water areas shall be protected for such
uses.”]; 30221 [“Oceanfront land suitable for
recreational use shall be protected for recreational use
Citing a letter written by an engineer and submitted by the
Lents in support of their defense during the Commission
proceeding, the Lents contend that “the harm from any delay is
uncertain.” The trial court was not required to find the
statements by the Lents’ engineer credible, particularly because
they conflicted with the Conservancy’s evidence. And even if it is
not “certain” the Conservancy can eventually build an accessway
in the easement area, there is substantial evidence the Lents at
least delayed when the Conservancy can finally determine
whether building an accessway is feasible.
18

Appendix A-62
and development unless . . . already adequately
provided for in the area.”]).
That the harm caused by the Lents’ obstructing
public access to the coast may be difficult to quantify
does not show the penalty is not proportional to the
Lents’ violation. For example, in Ojavan II, supra, 54
Cal.App.4th 373 the Commission issued a permit
requiring an owner of 77 lots to recombine them into
two lots. (See id. at p. 378.) Despite the permit, an
investor purchased 54 of the 77 lots and attempted to
resell them as individual lots. (Id. at p. 379.) The court
in Ojavan II held that the trial court’s $9.5 million
penalty against the investor was not disproportionate
to the harm, even though the investor caused “‘very
little or no physical damage to the properties
involved,’” because the investor “engaged in activities
contrary to the Coastal Act’s goal of limiting
development.” (Ojavan II, at pp. 387, 397-398.)
Similarly, even if the Lents caused no physical
damage to the property by maintaining the
structures, the Lents’ conduct was inconsistent with
the Coastal Act’s goal of ensuring public access to the
coast and for many years impeded the Conservancy’s
efforts to provide that access.
3. Penalties Imposed in Similar Statutes
Citing various provisions of the Penal Code and
the Fish and Game Code (see Pen. Code, §§ 374.7,
subd. (b) [$250 to $3,000 fine for dumping waste
matter into a body of water], 374.8, subd. (b) [$50 to
$10,000 fine for knowingly causing a hazardous
substance to be deposited into or on a road, another
person’s land, or waters of the state]; Fish & G. Code,
§§ 12007 [$5,000 maximum fine for violating a

Appendix A-63
streambed alteration agreement], 12008 [$5,000
maximum fine for violating certain provisions
regarding endangered or protected species]), the
Lents contend that the penalty the Commission
imposed under section 30821 is disproportionate to
the penalty the state may impose for other violations
that cause environmental harm. But the statutes the
Lents cite impose fines for individual acts, not for
ongoing violations like maintaining an unpermitted
development that violates the Coastal Act’s public
access provisions. Moreover, there are plenty of
statutes that impose daily penalties for activity that
can
cause
environmental
harm—including
undertaking activity without obtaining a required
permit—some of which impose maximum penalties
higher than the maximum penalty the Commission
can impose under section 30821. (See, e.g., Fish & G.
Code, §§ 5901, 12025.1 [daily penalty of up to $8,000
for constructing or maintaining a device in a stream
that impedes passing of fish]; Gov. Code, §§ 66632,
66641.5, subd. (b) [$100 to $10,000 daily penalty for
knowingly placing fill, extracting materials, or
making any substantial change in use of any water,
land, or structure in the San Francisco Bay without
obtaining a permit]; Health & Saf. Code, § 25191
[daily penalty of up to $25,000 for the first violation,
and $50,000 for the second violation, of provisions
relating to the handling of hazardous waste]; Pub.
Resources Code, §§ 29610 [$50 to $5000 daily penalty
for “intentionally and knowingly commenc[ing] any
development in violation of” the Suisun Marsh
Preservation Act, § 29000 et seq.], 45023 [$10,000
daily penalty for violating provisions of the Integrated
Waste Management Act, § 40050 et seq.]; Wat. Code,
§§ 13265, subd. (d) [regional water board may impose

Appendix A-64
a daily penalty of up to $5,000, and the superior court
may impose a daily penalty of up to $25,000, for
discharging hazardous waste], 13385, subd. (b)(1)
[daily civil liability of up to $25,000 for violations of
the federal Clean Water Act, 33 U.S.C. § 1251 et seq.].)
And courts have rejected excessive fine challenges to
civil penalties of several million dollars imposed under
statutes authorizing daily penalties like the daily
penalty the Commission imposed here. (See Pacific
Gas, supra, 237 Cal.App.4th at pp. 866-867
[$14.35 million penalty against a gas pipeline
operator for failing to report information]; People v.
Braum, supra, 49 Cal.App.5th at p. 359 [$5,967,500
penalty against a landlord who leased property to
marijuana dispensary operator in violation of local
ordinance]; Ojavan II, supra, 54 Cal.App.4th at p. 398
[$9.5 million penalty against an investor for violations
of Coastal Act].)
4. Ability To Pay
Although the defendant’s ability to pay is a proper
factor for the court to consider when analyzing
whether a penalty violates the federal and state
constitutional prohibitions on excessive fines, the
defendant has the burden of proving his or her
inability to pay. (See People v. Cowan (2020) 47
Cal.App.5th 32, 49-50, review granted June 17, 2020,
S261952; People v. Kopp (2019) 38 Cal.App.5th 47, 96,
review granted Nov. 13, 2019, S257844; cf. People v.
First Federal Credit Corp. (2002) 104 Cal.App.4th 721,
728-729 [to obtain penalties for violations of the unfair
competition law and false advertising law, the
government was “not required to present evidence of
defendants’ wealth” where the relevant statutes did

Appendix A-65
not state that the defendant’s ability to pay was
“essential for determining the penalty”].) During the
Commission proceedings, the Lents never argued or
submitted any evidence they could not pay a fine of up
to $8,400,000, even though Commission staff notified
them prior to the hearing the Commission could
impose such a fine. The trial court stated in its order
on the Lents’ petition that the Lents (again) did not
contest their ability to pay the penalty, and the Lents
make no showing on appeal they submitted any such
evidence in the trial court. The Lents simply state,
without explanation, they “are prepared” to present
evidence on “their inability to pay a substantial fine”
if the matter is remanded. The Lents failed to meet
their burden.
DISPOSITION
The judgment is reversed. The superior court is
directed to vacate its order granting the petition in
part and to enter a new order denying the petition.
The parties’ motions for judicial notice are denied. The
Commission is to recover its costs on appeal.
/s/ Segal
SEGAL, J.
We concur:
/s/ Perluss
PERLUSS, P. J.
/s/ Feuer
FEUER, J.

Appendix B-1
Filed May 24, 2018
Los Angeles County Superior Court
Case No. BS167531
Warren M. Lent and
Henny S. Lent v.
California Coastal
Commission, et al., BS
167531

Tentative decision on
petition for writ of
mandate: granted in part

Petitioners Warren M. Lent (“Warren Lent”) and
Henny S. Lent, individually and as trustees of the
Lent Family Living Trust, seek a writ of mandate
directing Respondent California Coastal Commission
(“Commission”) to vacate a cease and desist order and
administrative penalty imposed against Petitioners.
Petitioners also seek a declaration of the parties’
rights and obligations pursuant to Public Resources
Code (“Pub. Res. Code”) section 30821.
The court has read and considered the moving
papers, opposition,1 and reply, and renders the
following tentative decision.

1 Both parties’ opening briefs are 15 pages plus a signature page,
and Petitioners’ reply is 10 pages plus a signature page. Counsel
are reminded that the page limits of CRC 3.1113(d) include the
signature line. Petitioners’ reply footnotes violate the 12-point
type requirements of CRC 2.104 and have not been read or
considered.

Appendix B-2
A. Statement of the Case
1.

Petition

Petitioners commenced this proceeding on
February 6, 2017. The operative pleading is the First
Amended Petitioner (“FAP”) filed on April 30, 2018.
The FAP alleges in pertinent part as follows.
The subject of this action is beachfront real
property located at 20802 Pacific Coast Highway,
Malibu, CA 90265 (“Property”). In 1978, the original
permit applicant, the Olympian Hotel Partnership
submitted a Coastal Development Permit (“CDP”)
application to the South Coast Regional Commission
(“Regional Commission”) for the construction of an
1,830 square foot, two-story, single family dwelling
with an attached two-car garage.
A few months later, the regional commission
approved the application with, inter alia, a permit
condition (1) requiring a deed restriction granting the
public access from Pacific Coast Highway to the beach
over a six-foot wide area along the eastern border of
the Property and (2) requiring the applicant to provide
an area for stairs down the access way to the beach, if
necessary. Due to the topography of the Property,
there are multiple steep drops in elevation in the
public access easement such that it would be
necessary to construct stairs and walkways to make it
usable as a public access easement.
Following an appeal, the Commission approved
the CDP with the permit condition but failed to specify
the location for the easement condition. The staff
report providing the findings in support of the

Appendix B-3
permit’s approval state that the easement would be
located along the Property’s western border.
In 1980, Olympian Hotel Partnership assigned
the CDP to Frank and Lynne Erpelding
(“Erpeldings”), who recorded in the office of the Los
Angeles County (“County”) Recorder an offer to
dedicate the public access easement. The easement
was specifically described as abutting the eastern
property line. In 1982, the California State Coastal
Conservancy (“Conservancy”) accepted the offer to
dedicate.
In 1983, construction of a residence on the
Property was completed. As constructed, the residence
included improvements within the recorded public
access easement area. These improvements include
decking, an external stairway, and a removable
fence/gate.
In 2002, Petitioners purchased the Property. They
had constructive knowledge of the offer to dedicate the
vertical accessway, but no notice that the residence’s
improvements violated the Conservancy’s easement
rights and/or the Coastal Act.
In 2007, the Commission mailed Petitioners a
Notice of Intent for Cease and Desist Order
Proceedings (“Order”) and to Record a Notice of
Violation of the Coastal Act. This notice of intent
alleged that the Property possessed unpermitted
developments inconsistent with the CDP.
The Conservancy had a survey of the easement
prepared. In 2009, the Conservancy entered into a
contract with a design firm, Bionic, for the

Appendix B-4
preparation of conceptual plans for public accessways
on several public access easements in Malibu.
In 2010, Petitioners’ attorney met with the
Commission,
Conservatory,
and
Bionic
representatives to discuss conceptual plans for the
public accessway on the Property. The Commission
and
Conservancy
representatives
informed
Petitioners that the gate, stairs, and related
improvements could remain within the vertical
accessway, due to liability issues, until such time as
the accessway was ready to be developed and opened
for public use.
In 2012, the Conservancy authorized a grant to
the Mountains Recreation and Conservation
Authority (“MRCA”) to develop plans for the
improvement of public accessways throughout
Malibu. In 2013, the Conservancy informed
Petitioners that MRCA was preparing a feasibility
study to determine the suitability of the Property’s
accessway for public use. No plans, beyond Bionic’s
conceptual ones, were developed for improvement of
the Property’s public accessway because this
feasibility study was not yet completed.
In December 2016, a hearing was held on the
proposed Order and civil penalties. The Commission’s
staff submitted a report for the hearing. The
Commission staff recommended that the Commission
issue the Order to remove all improvements within
the easement area and imposing an administrative
penalty in the sum of $950,000. Petitioners asserted
that they were not opposed to removal of
improvements within the easement area, but asked

Appendix B-5
that the removal not occur until May 31, 2017 when a
long-term lease for the Property was set to expire.
The Commission voted unanimously to adopt the
Order requiring Petitioners to remove all
improvements in the public access easement and an
administrative penalty requiring Petitioners to pay an
administrative fine in the sum of $4,185,000.
Petitioners seek a writ of administrative mandate
on the basis that (1) the Commission committed a
prejudicial abuse of discretion by issuing the Order,
(2) the Commission committed a prejudicial abuse of
discretion by imposing the administrative penalties,
and (3) Pub. Res. Code section 30821 is
unconstitutional on its face and as-applied.
2.

Course of Proceedings

On October 19, 2017, the court granted
Petitioners’ ex parte application for a stay of the
Order. On March 16, 2018, the court denied the
Commission’s and Real Parties’ ex parte application to
lift the stay.
B. Standard of Review
CCP section 1094.5 is the administrative
mandamus provision which structures the procedure
for judicial review of adjudicatory decisions rendered
by administrative agencies. Topanga Ass’n for a
Scenic Community v. County of Los Angeles,
(“Topanga”) (1974) 11 Cal.3d 506, 514-15.
CCP section 1094.5 does not on its face specify
which cases are subject to independent review,

Appendix B-6
leaving that issue to the courts. Fukuda v. City of
Angels, (1999) 20 Cal.4th 805, 811. In cases reviewing
decisions which affect a vested, fundamental right the
trial court exercises independent judgment on the
evidence. Bixby v. Pierno, (1971) 4 Cal.3d 130, 143.
See CCP §1094.5(c).
The administrative decision in this case is the
Order for Petitioners to remove improvements in the
easement area and to pay an administrative penalty
of $4,185,000. The Commission performs a quasijudicial function with it issues cease and desist orders
with regard to unauthorized development. See Marine
Forests Society v. California Coastal Commission,
(2005) 36 Cal.4th 1, 25-26.
In determining whether Petitioners have a
fundamental vested right subject to independent
review, the court must weigh together the importance
of the right involved and the degree to which it is
possessed. Hardesty v. Sacramento Metropolitan Air
Quality Management District, (“Hardesty”) 202
Cal.App.4th 404, 414 (citing Frink v. Prod, (1982) 31
Cal.3d 166, 177) (abatement of mining operation until
appellant obtained permit upheld under substantial
evidence standard). The search for “vestedness” and
the search for “fundamentalness” are one and the
same. Id. The ultimate question is whether the
affected right is sufficiently significant that its
abridgement by a body lacking judicial power should
be reviewed independently. Id.
A right is fundamental on either of two bases:
(1) the character and quality of its economic aspect
and (2) the character and quality of its human aspect.
Benetatos v. City of Los Angeles, (“Bentatos”) (2015)

Appendix B-7
235 Cal.App.4th 1270, 1280 (citations omitted)
(substantial evidence applied to city’s imposition of
conditions on continued operation of burger stand to
abate a nuisance). In weighing the fundamental issue,
the courts do not weigh the economic aspect alone, and
also consider its effect in human terms and its
importance to the individual in the life situation. Id.
(citing Bixby v. Pierno, (1971) 4 Cal.3d 130, 144). This
task is done on a case-by-case basis. Id.
The substantial evidence standard of review has
been applied to administrative decisions that restrict
a property owner’s return, increase the cost of doing
business, or reduce profits because such decisions
impact mere economic interests. Id. at 1281 (citations
omitted). On the other hand, the independent
judgment standard of review is applied to decisions
that will drive a property owner out of business or
significantly injure the owner’s ability to function.
Ibid. Courts are far less likely to find a fundamental
vested right where a case involves pure economic
interests. Ibid. (citation omitted). The ultimate
question in each case is whether the affected right is
deemed to be of sufficient significance to preclude its
extinction or abridgement by a body lacking judicial
power. Interstate Brands v. Unemployment Ins.
Appeals Bd., (1980) 26 Cal.3d 770, 779, n.5. In
analyzing the fundamental nature of a right, less
sensitivity is provided to the preservation of purely
economic privileges. Id. at 779, n.6.
Petitioners have neither a vested right to develop
their property in a particular fashion, nor a vested
right to a CDP free of conditions. Paoli v. California
Coastal Com., (1986) 178 Cal.App.3d 544, 550-51

Appendix B-8
(reviewing Commission’s decision imposing an open
space easement condition on CDP). The portion of the
Commission’s Order requiring Petitioners to remove
improvements in the easement area is reviewed under
the substantial evidence standard. Id.
As for the $4,185,000 administrative penalty, no
fundamental vested right generally is involved where
the penalty is a fine, and the trial court generally
reviews such a penalty for substantial evidence.
Handyman Connection of Sacramento, Inc. v. Sands,
(“Handyman”) (2004) 123 Cal.App.4th 867, 880.
Petitioners contend that the independent judgment
standard should apply to the $4,185,000 penalty
because it violates Petitioners’ fundamental vested
right against deprivation of property without due
process of law. Pet. Op. Br. at 12.
Petitioners cite Gikas v. Zolin, (“Gikas”) (1993) 6
Cal.4th 841, 870, for the proposition the
administrative penalty was imposed in a quasicriminal proceeding. Id. Gikas held that a DMV
license suspension proceeding could relitigate the
lawfulness of an arrest. 6 Cal.4th at 859. A dissenter
noted that a proceeding is quasi-criminal if it is closely
identified with the aims and objectives of criminal law
enforcement, and a DUI administrative license
suspension proceeding meets that definition. Id. at
870.
Petitioners focus on the wrong issue. The question
for judicial review is not whether the Commission’s
civil penalty is quasi-criminal – it is – but whether
imposition of the penalty invokes Petitioners’
fundamental
vested
rights.
This
requires
consideration of the fine’s effect on Petitioners in

Appendix B-9
human terms and its importance to the individual in
the life situation. Benetatos, supra, 235 Cal.App.4th
at 1280. Petitioners present no evidence of the
economic impact on themselves of the $4,185,000 fine
and its importance to their life situation. Therefore,
the general rule of a substantial evidence standard of
review applies. See Handyman, supra, 123
Cal.App.4th at 880.
“Substantial evidence” is relevant evidence that a
reasonable mind might accept as adequate to support
a conclusion (California Youth Authority v. State
Personnel Board, (“California Youth Authority”)
(2002) 104 Cal.App.4th 575, 585) or evidence of
ponderable legal significance, which is reasonable in
nature, credible and of solid value. Mohilef v. Janovici,
(1996) 51 Cal.App.4th 267, 305, n.28. The petitioner
has the burden of demonstrating that the agency’s
findings are not supported by substantial evidence in
light of the whole record. Young v. Gannon, (2002) 97
Cal.App.4th 209, 225. The trial court considers all
evidence in the administrative record, including
evidence that detracts from evidence supporting the
agency’s decision. California Youth Authority, supra,
104 Cal.App.4th at 585.
The agency’s decision must be based on the
evidence presented at the hearing. Board of Medical
Quality Assurance v. Superior Court, (1977) 73
Cal.App.3d 860, 862. The hearing officer is only
required to issue findings that give enough
explanation so that parties may determine whether,
and upon what basis, to review the decision. Topanga,
supra, 11 Cal.3d at 514-15. Implicit in section 1094.5
is a requirement that the agency set forth findings to

Appendix B-10
bridge the analytic gap between the raw evidence and
ultimate decision or order. Id. at 515.
An agency is presumed to have regularly
performed its official duties (Ev. Code §664), and the
petitioner therefore has the burden of proof. Steele v.
Los Angeles County Civil Service Commission, (1958)
166 Cal.App.2d 129, 137. “[T]he burden of proof falls
upon the party attacking the administrative decision
to demonstrate wherein the proceedings were unfair,
in excess of jurisdiction or showed prejudicial abuse of
discretion.” Afford v. Pierno, (1972) 27 Cal.App.3d
682,691.
The propriety of a penalty imposed by an
administrative agency is a matter in the discretion of
the agency, and its decision may not be disturbed
unless there has been a manifest abuse of discretion.
Lake v. Civil Service Commission, (1975) 47
Cal.App.3d 224, 228. Neither an appellate court nor a
trial court is free to substitute its discretion for that of
the administrative agency concerning the degree of
punishment imposed. Nightingale v. State Personnel
Board, (1972) 7 Cal.3d 507, 515. The policy
consideration underlying such allocation of authority
is the expertise of the administrative agency in
determining penalty questions. Cadilla v. Board of
Medical Examiners, (1972) 26 Cal.App.3d 961.
The court reviews questions of law de novo. The
Commission’s interpretation of the statutes and
regulations under which it operates is entitled to
deference. Ross v. California Coastal Commission,
(2011) 199 Cal.App.4th 900, 921. This deference does
not apply to Petitioners’ constitutional claims,
however.

Appendix B-11
C. Coastal Act
The Coastal Act of 1976 (Pub. Res. Code2 §30000
et seq.) (“Coastal Act” or “Act”) is the legislative
continuation of the coastal protection efforts
commenced when the People passed Proposition 20,
the 1972 initiative that created the Coastal
Commission. See Ibarra v. California Coastal Comm.,
(“Ibarra”) (1986) 182 Cal.App.3d 687, 693. One of the
primary purposes of the Coastal Act is the avoidance
of deleterious consequences of development on coastal
resources. Pacific Legal Foundation v. California
Coastal Comm., (1982) 33 Cal.3d 158, 163. The
Supreme Court described the Coastal Act as a
comprehensive scheme to govern land use planning
for the entire coastal zone of California. Yost v.
Thomas, (1984) 36 Cal.3d 561, 565. The Act must be
liberally construed to accomplish its purposes and
objectives. §30009.
The Coastal Act’s goals are binding on both the
Commission and local government and include:
(1) maximizing, expanding and maintaining public
access to the coast and coastal zone (§§ 30210-14);
(2) expanding and protecting public recreation
opportunities (§§ 30220-24); (3) protecting and
enhancing marine resources including biotic life
(§§ 30230-37); and (4) protecting and enhancing land
resources (§§ 30240-44). The supremacy of these
statewide policies over local, parochial concerns is a
primary purpose of the Coastal Act, and the
Commission is therefore given the ultimate authority
under the Act and its interpretation. Pratt
2 All further statutory references are to the Pub. Res. Code
unless otherwise stated.

Appendix B-12
Construction Co. v. California Coastal Comm., (2008)
162 Cal.App.4th 1068, 1075-76.
After public hearing, if the Commission
determines any person has undertaken or is
threatening to undertake any activity that
(1) requires a permit from the Commission without
securing said permit or (2) is inconsistent with any
permit previously issued by the Commission, the
Commission may issue an order directing that person
to cease and desist. §30810(a). The cease and desist
order may be subject to such terms and conditions as
the Commission may determine are necessary to
ensure compliance with the Act, including immediate
removal of any development or the setting of a
schedule within which steps shall be taken to obtain a
permit. §30810(b).
In 2014, the California Legislature enacted
section 30821, which enables the Commission to
impose an administrative civil penalty on persons who
violate public access provisions of the Act. §30821(a).
The penalty may be assessed for each day that the
violation persists, but for no more than five years. Id.
The amount of the penalty per violation may not
exceed 75 percent of $15,000 per day. Id.
In determining the amount of civil liability the
Commission must consider the following factors:
(1) the nature, circumstance, extent, and gravity of
the violation; (2) whether the violation is susceptible
to restoration or other remedial measures; (3) the
sensitivity of the resource affected by the violation;
(4) the cost to the state of bringing the action; and
(5) with respect to the violator, any voluntary
restoration or remedial measures undertaken, any

Appendix B-13
prior history of violations, the degree of culpability,
economic profits, if any, resulting from, or expected to
result as a consequence of, the violation, and such
other matters as justice may require. §30821(c)
(incorporating §30820(c)).
D. Statement of Facts3
1.

The Easement

The Property is an oceanfront parcel of land in
Malibu.4 On August 7, 1978, the original permit
applicant, the Olympian Hotel Partnership,
submitted a CDP application to the Regional
Commission for the construction of a 1,830 square
foot, two-story, single-family dwelling with an
attached two-car garage on the Property. AR 479.
On October 23, 1978, the Regional Commission
approved a CDP for the project, subject to several
conditions. AR 479, 596-97. One of the conditions was
a deed restriction (1) granting the public the right to
Petitioners ask the court to judicially notice the Commission’s
staff report for another matter in 2016. Respondents ask the
court to judicially notice the Conservancy’s staff report regarding
MRCA’s preparation of the Malibu Coastal Access Public Works
Plan. A staff report is the equivalent of legislative history for
agency action, but the court has no evidence that either the
Commission or the Conservancy adopted the respective reports.
Without it, neither document is an official act of an agency.
Nonetheless, since both sides admit that the Commission did
adopt the two staff reports, the requests are granted. See Evid.
Code §452(c).
3

Some of the following facts are unsupported by citation because
the parties failed to include the cited page in the Joint Appendix.
There is no dispute that the facts are true.
4

Appendix B-14
public access to and egress from the beach over a sixfoot wide area along the eastern property border and
(2) the right to construct stairs down to the beach
seaward of the proposed new residence. AR 479, 2634.
The easement would be located above a five-foot-wide,
concrete-encased storm drain outfall pipe serving
Pacific Coast Highway (“PCH”) and adjacent
northerly areas. AR 2634. The rationale for requiring
a public easement was that there was “a need for a
vertical access in this area.” AR 479. The existence of
the storm drain was part of the rationale (presumably
because nothing else could be built upon it). AR 479.
On October 31, 1978, Olympian Hotel Partnership
appealed one of the CDP’s conditions to the
Commission. AR 479. On January 17, 1979, the
Commission affirmed the condition and approved the
CDP. AR 480, 602. Special Condition No. 5 of the CDP
is the vertical easement condition: “The applicant
shall execute and record a document ... irrevocably
offering to dedicate to a public agency ... an easement
for public access to the shoreline.... The easement
shall allow for pedestrian access to and from the
shoreline.... Applicant shall provide an area for stairs
down from the vertical accessway, if necessary, in the
beach seaward of the structure.” AR 604. The
Commission found that the proposed project as
conditioned conformed to the Coastal Act. AR 602.
The CDP does not authorize any development
along the eastern side of the Property where the public
access easement was located, except to replace the
existing storm drainpipe. AR 480. To this end,
Standard Condition No. 4 states: “All construction
must occur in accord with the proposal as set forth in

Appendix B-15
the application for permit .... Any deviations from the
approved plans must be reviewed by the
Commission....” AR 481. Consistent with this
requirement, the plans submitted to and reviewed by
the Commission for the CDP show the eastern
Property edge unencumbered by any private external
development. AR 481, 623. The plans show a beach
access stair on the western property edge, opposite of
the public easement side. AR 481.
After the CDP was approved and before
commencement of the residence’s construction, the
owner applied for a permit amendment to construct a
larger house because an adjacent residence was
approved expanding the residence’s stringline
(imaginary line from adjacent houses limiting
seaward encroachment of residence). AR 481. On
February 20, 1980, the Commission approved the
amendment. AR 481. The amendment states in
relevant part: “All conditions of the original permit
not expressly altered by this amendment shall remain
in effect.” AR 481. The amendment, like the permit,
did not approve any development along the eastern
side of the Property. AR 481. The plans for the new
residence again showed the eastern Property edge
devoid of any external development. AR 481.
2.

The Residence

On July 7, 1980, the Olympian Hotel Partnership
assigned the CDP to the Erpeldings. AR 482. A few
days later, the Erpeldings recorded an offer to
dedicate the vertical easement pursuant to the CDP
condition. AR 482. The vertical easement was
described as a five-foot wide public access easement
over the eastern property line. Id. The Conservancy

Appendix B-16
accepted the offer to dedicate on November 17, 1982.
AR 2307.
Construction of the residence began in 1981 and
was completed in 1983. AR 482-83, 3027. As
constructed, the residence possesses an external
access ten-foot stairway constructed from the second
story down to the eastern edge of the Property for
private beach access. AR 483, 2331. The stairway
connects the house to a deck approximately ten feet
below, a point where the beach can be accessed. AR
2331. The stairway’s landing sits atop a large concrete
storm drain. AR 2553, 2677. The stairway lies directly
in the recorded public access easement, infringing on
it by 27 inches. AR 483, 698, 4215. This stairway was
not depicted in the designs approved in the CDP. AR
483. Additionally, an unpermitted gate/metal fence
was constructed blocking access to the easement. AR
483, 699.5
3.

Communications with the Property
Owner

In August 1993, the Conservancy sent a letter to
the then-owner of the Property notifying him that the
Conservancy staff would be conducting a site visit
later that month to view the easement. Following the
visit, the Conservancy created an Easement
Monitoring Form. AR 2428-30. The form mentioned
the stairway, but did not state it was non-compliant.
Id.

5 According to Petitioner Warren Lent, the gate protects the
public from a 6 to 7 foot drop from PCH onto the easement. AR
2331-32.

Appendix B-17
On September 15, 1993, the Conservancy sent a
letter to owner’s attorney stating that there is a gate
across the easement that “violates the Conservancy’s
vertical access easement by blocking it.” AR 700. The
Conservancy noted that the easement will remain
closed until the Conservancy locates a management
agency to open the easement to public use. Id. The
Conservancy told the owner’s attorney to “either
remove the gate or seek the Conservancy’s permission
to keep the gate in place during the period that the
accessway is officially closed.” Id. The Conservancy
did not mention removal of the stairway. See id.
There is no record of any response to the
Conservancy’s letter, and the development blocking
the public access easement remained. AR 484.
In 1996, the owner of the Property submitted to
the Commission an application for a CDP to add
approximately 35 feet of five-foot tall tubular steel
fencing to the street side of the existing residence. AR
448-49. The Commission waived the requirement for
a CDP for this work. AR 456.
4.

Petitioners’ Purchase of the Property

On November 7, 2002, twenty years after the
stairway and gate were built, Petitioners purchased
the Property. AR 484, 2331. The easement had been
appended to the Property’s title by this point. AR 484.
When Petitioners purchased the Property, it
contained the gate, outdoor stairway, vegetation,
planters, a mailbox, and a deck area on the easement.
AR 2331. Petitioners did not know that these fixtures
violated any laws. AR 2331. Since purchasing the
property in 2002, Petitioners have primarily used the

Appendix B-18
Property as a vacation rental. AR 479. In 2016, its
average nightly rate was $1092, the weekly rate was
from $8,500 up to $9,200 in peak months, and the
monthly rate was from $19,950 to $32,000 in peak
months. AR 479.
5.

The Notice of Violation

In May 2002, Commission staff became aware of
and began investigating the easement violation. AR
484.
On April 27, 2007, the Commission mailed
Petitioners a “Notice of Violation” letter pursuant to
section 30812.6 AR 484, 703. The letter explained that
the white metal fence and gate, vegetation, planters,
mailbox, and deck area (for convenience,
“stairway/gate”) obstructed the vertical easement and
thereby violated the CDP’s express conditions and the
Coastal Act. AR 703-04. The letter explained that
before the Conservancy could properly administer
public access, Petitioners need to remove the
encroachments and comply with the CDP conditions.
AR 704. The letter notified Petitioners that they, as
current owners, were liable for resolving any
outstanding violations of the Coastal Act that exist on
the Property. AR 704. Pursuant to section 30812(b)
and (g), the Commission’s Notice of Violation
requested that Petitioners contact a Commission
representative to resolve the matter informally. AR
704.

6 Pursuant to section 30812, the Commission may, after hearing
if there is an objection, record the notice of violation which shall
be considered notice to all successors-in-interest of the property.

Appendix B-19
Soon thereafter, Petitioners’ attorney had a
telephone
conversation
with
Commission
representatives. AR 2331. Petitioners explained that
portions of the unpermitted development protected
the public from a six to seven foot drop. Id.
Commission staff agreed that these portions of the
unpermitted development needed to remain in place
due to liability issues until the Conservancy developed
and managed the easement. AR 2331-32.
6.

The Notice of Intent

On May 23, 2007, following a number of telephone
conversations between Commission staff and
Petitioners and their attorney, the Commission
mailed Petitioners a “Notice of Intent to Commence
Cease and Desist Order Proceedings and to Record a
Notice of Violation of the Coastal Act” (“Notice of
Intent”) pursuant to section 30810(a). AR 484, 719.
The Notice of Intent informed Petitioners that the
stairway/gate is inconsistent with the terms of the
easement held by the Conservancy for the purpose of
public access to the beach. AR 719. The proposed cease
and desist order would require Petitioners to “remove
the portion of fence and gate that is blocking the
vertical easement” and “require [them] to keep the
easements open and free from impediments to
pedestrian use at all times in the future.” AR 721.
7.

The Conservancy’s Development Effort

In anticipation of a possible settlement with
Petitioners, the Conservancy began to take steps to
develop the easement. AR 485.

Appendix B-20
On March 3, 2008, the Conservancy prepared a
survey of the easement following a full site visit. AR
485. This survey revealed to the Conservancy for the
first time that the fence, stairway, landings, and deck
were all blocking the easement area. AR 485. The
Conservancy had been unable to make this
determination previously because the view from the
street was partially-obstructed view. Id. The survey
was the Conservancy’s first opportunity to document
the extent of the blockage. Id.
In July 2010, Commission staff, Conservancy
staff, representatives of Bionic (the Conservancy’s
design firm) and Petitioners’ attorney met at the
easement site to discuss the potential accessway
designs and the need to remove any development that
was blocking the easement. AR 485. Also in 2010, the
Commission staff notified Petitioners that the
stairway as well as the gate were unpermitted. AR
926.
The Conservancy consistently conveyed to
Petitioners its intent to improve the easement for
public access to the Las Flores Beach. AR 1189. In
2009, the Conservancy initiated a planning process for
public access improvements in the easement. AR
1189. In June 2010, Bionic, completed a series of
conceptual design for an accessway in the easement.
AR 485. The design, which was shown to Petitioners,
demonstrated the feasibility of constructing said
public accessway. AR 485, 1189-90. Even the rough
cost for improvements to the easement were in the
range of expectations for similar beach projects. AR
1189.

Appendix B-21
On August 2, 2011, Petitioners’ attorney outlined
in a letter to Commission staff a series of arguments
against removing the stairway/gate and opening the
easement to public access. AR 484. The letter argued
that (a) removing the stairway/gate would unduly
burden the Property in violation of Petitioners’
property rights, (b) the Commission was barred by
judicial estoppel from seeking its removal, (c) local
building codes prevented removing the stairway/gate,
(d) the easement should not be developed for public
access because it is infeasible to do so, and (e) there
are nearby easements that should be developed for
public access instead. AR 484. The Commission staff
found no merit to these arguments, but continued to
work with Petitioners over the next several years to
address them. AR 484-85.
8.

The Malibu PWP

In December 2012, the Conservancy authorized a
grant to MRCA of up to $470,000 to develop the
Malibu Coastal Access Public Works Plan (“Malibu
PWP”). AR 485. The Malibu PWP included planning
and designing improvements for Conservancy and
MRCA-owned public access easements in Malibu,
including the Property. Id.
In March 2013, Petitioners’ counsel sent the
Conservancy a letter arguing against inclusion of the
Property’s easement in the Malibu PWP. AR 485, 79296. Petitioners argued that there were existing nearby
public accessways to the beach and that public access
through the easement would be inconsistent with the
goals and policies of the Coastal Act. AR 792, 795.

Appendix B-22
The PWP apparently was adopted by the
Commission.7 The Plan is an effort by the
Conservancy and MRCA to explore the feasibility of
developing undeveloped or impeded public accessways
in Malibu as expeditiously as possible in compliance
with the Coastal Act and the Conservancy’s statutory
mandate for maximum public access to the beach. AR
2094. As a first step, MRCA will develop or refine
conceptual site plans sufficient to analyze site
feasibility and potential environmental impacts. AR
2095. The Property is one of the public access points
to be analyzed. AR 2096. The Conservancy shall give
property owners ten days’ notice for any proposed
action. AR 2100.
9.

The Conservancy’s Continued Efforts

After the approval of the Malibu PWP grant, the
Conservancy and MRCA continued to attempt to
complete the public access improvements on the
Property’s easement. AR 485, 959-62, 1187-92. In a
June 6, 2016 letter to the Commission, the
Conservancy concluded that it has intended to open a
public access to Las Flores Beach through the
easement for almost 34 years, but has been thwarted
by the Property owners’ long-term private
encroachments into the easement and refusal to agree
to the removal of the encroachments. AR 961-62. The
result has substantially impaired the ability of the
Conservancy and MRCA to proceed with finalizing
and implementing a public accessway. AR 962.

7 The Commission staff report for the Malibu PWP is in the
record (AR 2092-103), but not the Commission’s action adopting
it.

Appendix B-23
Subsequent correspondence was exchanged
between the parties regarding removal of the
encroachments and Petitioners’ legal challenges
thereto. In February 2014, Commission staff sent a
letter responding to Petitioners’ counsel’s March 2013
letter rebutting the legal challenges raised. AR 486,
797-805.
In March 2014, Petitioners’ attorney sent an
email again asserting that MRCA should complete its
feasibility study before Petitioners remove the
encroachments. AR 487, 806.
Commission staff sent an April 2014 letter
responding that the unpermitted development
violated the Coastal Act and is inconsistent with the
CDP conditions, and its prompt removal is imperative
to going forward with the long-delayed public access.
AR 807-08. Staff indicated that if Petitioners wish to
have input into the public access, the first step is to
negotiate a Consent Order. AR 807. Such a Consent
Order would have to happen soon because public
access easement has been blocked for far too long. AR
808.
At the end of April 2014, Petitioners’ attorney
wrote a letter expanding on their legal arguments
against removal of the encroachments. AR 487, 80917.
In June 2014, Commission staff responded in a
letter that focused on settlement through a Consent
Order. AR 487, 818-19. In October 2014, Commission
staff mailed an outline of a potential Consent Order to
Petitioners’ counsel. AR 488, 821-22.

Appendix B-24
On November 24, 2014, Commission staff
informed Petitioners’ counsel that the newly enacted
section 30821 authorized the Commission “to impose
administrative penalties in an amount up to $11,250
per day per violation” for violation of the Coastal Act’s
public access provisions, including section 30210 and
30211, and that this new penalty statute applies to
the Lents’ property. AR 488, 823.
In December 2014, Petitioners’ counsel responded
that that the Commission’s offer was “profoundly
disappointing” and amounted to a demand for
“absolute capitulation” by his client. AR 488, 824.
At the end of December 2014, Commission staff
responded to the arguments of Petitioners’ counsel
and repeated an interest in mutual settlement. AR
488, 826-28.
In January 2015, Petitioners’ counsel sent
another letter to Commission staff making new or
newly expanded arguments. AR 489. Petitioners’
counsel also sent a letter to the Conservancy raising
legal arguments against the removing the
stairway/gate. AR 489, 835-40.
In July 2015, Commission staff sent a rebuttal to
these arguments. AR 489, 841-49.
10. The Second Notice of Intent
In September 2015, the Commission sent
Petitioners a second “Notice of Intent to Commence
Cease and Desist Order and Administrative Civil
Penalties Proceedings” (“Second Notice of Intent”)
pursuant to section 30810(a). AR 490, 850-62. The

Appendix B-25
Second Notice of Intent stated that Commission staff
had been trying to resolve the violations of the Coastal
Act and CDP on the Property since 2007. AR 850. Yet,
the easement remains blocked by a private stairway,
fence, decks, and other unpermitted development. AR
851. The Second Notice of Intent warned Petitioners
that, if a Cease and Desist Order is imposed, section
30821 of the Coastal Act authorizes the Commission
to impose administrative penalties in the amount up
to $11,250 per day for each day a violation has
persisted, for up to five years. AR 856. If a person fails
to pay the administrative penalty, the equivalent of a
judgment lien may be recorded on that person’s
property. AR 856. The Second Notice of Intent closed
with a statement that the Commission was willing to
resolve the matter without a contested hearing if
Petitioners signed a Consent Order. AR 857.
11. Subsequent Correspondence
Petitioners’ counsel responded in a September 25,
2015 letter stating that Petitioners “are moving
forward in their efforts to try to reach a mutually
acceptable resolution of the current situation, based
upon a singular but critically important predicate:
they must have a viable second means of egress.” AR
863.
Subsequent emails stated Petitioners’ willingness
to resolve the matter through removal of the
stairway/gate if they could have some other private
beach stairs for the Property, an 18 month delay after
the Conservancy submitted an application for a CDP
for a public accessway, and other conditions. AR 490.

Appendix B-26
In January 2016, Petitioners changed attorneys,
which led to an exchange of letters raising old and new
legal challenges. AR 490. Later in the month,
Commission staff sent a January 19, 2016 letter that
described the Commission’s statutory authority under
section 30821 to impose administrative penalties. AR
491, 865-66. The letter stated that (1) Petitioners have
known about illegal development obstructing the
easement through Commission staff letters dated
April 27 and May 23, 2007, and (2) Petitioners have
known since at least 2010 that the stairway is
inconsistent with the public easement and the
Conservancy’s need to develop a public accessway. AR
866. Yet, Petitioners have consistently refused to
remove the illegal development. AR 866. The letter
concluded that even a generous weighing of factors in
section 30821 would result in substantial
administrative penalties. AR 866.
In February 2016, Petitioners’ new counsel sent
Commission staff a letter contending that the
permitting of the stairway is at least ambiguous, and
that an administrative fine of “several hundred
thousand dollars” would be unwarranted. AR 867-71.
The letter discussed the factors required to be
considered in section 30281 and concluded that no fine
would be warranted. AR 490, 867-71. Commission
staff responded to the permitting argument and
warned that an administrative fine could be
substantial. AR 491, 872-76. Correspondence between
the parties continued throughout early 2016. AR 491.
In May 2016, Commission staff informed
Petitioners that they intended to bring the matter
before the Commission in June. AR 492, 920. The

Appendix B-27
matter was postponed to December 2016 because
Petitioners changed lawyers again. AR 492. Further
negotiations and telephone conferences with
Petitioners’ counsel failed to resolve the matter. AR
492. The parties could not agree, inter alia, on an
appropriate civil penalty; Petitioners found
Commission staff’s demand of $600,000 to be an
unreasonable figure. See AR 928.
12. The Hearing
At a December 8, 2016 hearing, the Commission
adopted the Commission staff’s recommendation to
issue the portion of the Order directing Petitioners to
remove the stairway/gate from the public access
easement. AR 475, 2804.
The Order also imposes an administrative
penalty. The Commission staff report noted that
Petitioners had been in violation since at least
November 24, 2014, when Commission staff sent a
letter informing Petitioners that section 30821
penalties would apply to their Coastal Act violations.
AR 500. There was a period of 744 days between
November 24, 2014 and the hearing date. AR 500.
Commission staff noted that section 30821 authorizes
a penalty for up to five years for each day the violation
persists. AR 500. The Commission was authorized to
impose up to $8,370,000 ($11,250 per day for 744 days)
for each of Petitioners’ several violations. AR 500.
After evaluating a number of factors, the staff
recommended a conservative penalty of $950,000. AR
501.
The Commission evaluated the section 30821
factors, expressly noting that Petitioners had

Appendix B-28
remained in violation of the Coastal Act for 15 years
(AR 503) and Petitioners remained unwilling to allow
public access. AR 504. The Commission exercised its
discretion to impose a penalty in the amount of
$4,185,000 and not the $950,000 recommended by
staff. AR 501-05, 2804.
E. Analysis
Petitioners seek a writ of mandate directing
Respondent Commission to vacate the entire Order,
including removal of the stairway/easement and the
$4,185,000 administrative civil penalty imposed
against Petitioners. Petitioners also seek a
declaration of the parties’ rights and obligations
pursuant to section 30821.
1.

The Removal Requirement

a. Violation of Permit Requirement and
Inconsistency with CDP Conditions
Any person wishing to perform or undertake any
development in the coastal zone shall obtain a CDP.
§30600. A “development” means “... the placement or
erection of any solid material or structure....” §30106.
“If the commission, after public hearing, determines
that any person or governmental agency has
undertaken, or is threatening to undertake, any
activity that (1) requires a permit from the
commission without securing a permit or (2) is
inconsistent with any permit previously issued by the
commission, the commission may issue an order
directing that person or governmental agency to cease
and desist.” §30810.

Appendix B-29
Petitioners contend that they have not
undertaken or threatened to undertake any
development of the stairway/gate. Pet. Op. Br. at 9.
According to Petitioners, the Commission has
conceded this fact. Id.8 Even if Petitioners’ mere use of
the stairway/gate is an “undertaking of development”,
this activity is not inconsistent with the Coastal Act.
The CDP’s Condition 5 required only an offer to
dedicate an easement, and Petitioners’ predecessor
owners performed that condition. The subsequent
easement is not exclusive, and Petitioners have a right
to use it so long as it does not unreasonably interfere
with the Conservancy’s usage. See Main Street Plaza
v. Cartwright & Main, LLC, (2011) 194 Cal.App.4th
1044, 1054 (easement for particular purpose does not
include any other uses by property owner). Petitioners
contend that the Order should be set aside for this
reason. Id.
Petitioners need not have constructed the
stairway/gate to be in violation of section 30810. As
Respondents point out (Opp. at 7), Leslie Salt Co. v.
San Francisco Bay Conservation etc. Com. (“Leslie
Salt”) (1984) 153 Cal.App.3d 605, is analogous. In
Leslie Salt, unpermitted land fill had been placed on
marshy shoreline property between 1971 and 1976. Id.
at 609. The San Francisco Bay Conservation and
Development Commission (“BCDC”) discovered the
landfill in 1979. Ibid. Appellant property owner was
8 Petitioners overstate the Commission’s concession. The
Commission staff only admitted that Petitioners are not the
original Property owners and did not place the stairway/gate on
the Property. AR 3048. This statement is not a concession that
Petitioners have not undertaken any activity in violation of
section 30810(a).

Appendix B-30
not involved in, and had no knowledge of, the fill. The
court examined the McAteer-Petris Act, the purpose
of which is to comprehensively regulate development
of the San Francisco Bay and shoreline. Id. at 616-17.
The McAteer-Petris Act provides that BCDC may
issue an order requiring a person to cease and desist
when the commission determines that the person has
“undertaken, or is threatening to undertake, an
activity that (1) requires a permit from the
commission without securing a permit, or (2) is
inconsistent with a permit previously issued by the
commission.” Govt. Code §66638. The commission so
determined and ordered appellant to remove the fill.
Id. at 610. On appeal, the appellant contended that
Government Code section 66638 could not be applied
to any person other than the one who actually placed
the fill — viz., the one who “undertook” the landfill.
Leslie Salt, supra, 153 Cal.App.3d at 612. The court
disagreed. Id. at 618. In order to effectuate the
important purpose of the McAteer-Petris Act, the
court found it “necessary to construe section 66638
broadly so that one who ‘has undertaken, or is
threatening to undertake’ the proscribed activities
refers not simply to one responsible for the actual
placement of unauthorized fill but also to one whose
property is misused by others for the purpose and who
even passively countenances the continued presence
of such fill on his land.” Id. at 616-18.
Leslie Salt is analogous to the instant case.
Petitioners did not perform or undertake the
proscribed activity of installing the unpermitted
stairway/gate, but nevertheless continued to permit
its presence on the Property. The McAteer-Petris Act
and the Coastal Act are similar in that they possess

Appendix B-31
cease-and-desist statutes that must be interpreted
broadly. See §§ 30810, 30009 (Coastal Act shall be
liberally construed). Applying the Leslie Salt
rationale, section 30810 must be construed broadly to
proscribe not only the actual placement of
unpermitted structures, but also Petitioners’
countenance of the continued presence of the
unpermitted stairway/gate. Given the frequent
transfer of real properties, only in this way can the
Coastal Act purpose of obtaining and maintaining
beach access be enforceable.
Apart from a Leslie Salt statutory construction,
section 30810 is violated when the retention of
unpermitted structures is inconsistent with a
previously issued CDP. Special Condition 5 of the
CDP not only requires recordation of an offer for a
public access easement, it requires that the Property
allow public access to the beach: “The easement shall
allow for pedestrian access to and from the shoreline.”
AR 480. Special Condition No. 4 requires all
construction must occur by permit, and no
development along the eastern side of the Property
been through a permit. AR 481. Therefore, Petitioners’
retention of the stairway/gate without a permit
violates the CDP and section 20810.
Petitioners contend that they are in compliance
with the CDP because their predecessor Property
owner recorded the offer for access easement. They are
not. The stairway/gate is inconsistent with the CDP’s
Special Condition No. 5 because it made public
pedestrian access to and from the shoreline virtually
impossible. The gate blocks pedestrian access entirely,
and the stairway encroaches 27 inches onto a 60-inch

Appendix B-32
(five-foot) wide accessway. The stairway/gate also is
inconsistent with Special Condition No. 4 because it is
unpermitted.
Petitioners suggest that the stairway/gate in fact
was permitted, which would satisfy Special Condition
No. 4 (but not Condition No. 5). They rely on approved
1980 plans for the residence from County files which
they contend show stairs along the eastern side of the
residence. AR 2633-37, 2661. Petitioners contend that
a diagram was submitted to the Commission in 1981
as part of the request for approval of the CDP
amendment which shows a door on the second floor of
the eastern side of the residence. AR 2659.
In reply, Petitioners also present evidence from
Ron Goldman (“Goldman”), an architect since the late
1970’s, who avers that it was a general custom and
practice at the time not to always depict walkways,
steps, planters and other landscape features outside
of the footprint of the residence. AR 2561. Reply at 9.
Petitioners further contend that the gate, while
unpermitted, was installed out of necessity to protect
passersby because of a steep 6 -to -7 -foot drop from
PCH onto the wood landing covering the storm water
pipe. AR 2331-32. As long as the easement remains
undeveloped, members of the public could fall onto the
landing and seriously injury themselves. That is why
the Commission and the Conservancy allowed
Petitioners to keep the removable gate until such time
as construction of the accessway actually commenced.
AR 2331-32, 2485.
Petitioners have not carried their burden. The
plan page approved by the County is virtually
illegible. AR 2661. The diagram submitted to the

Appendix B-33
Commission as part of the CDP amendment does not
“clearly depict” anything either. See AR 2634, 2659.
More important, the CDP amendment states: “All
conditions of the original permit not expressly altered
by this amendment shall remain in effect.” AR 627
(emphasis added). Whatever the plans may show, the
CDP amendment did not expressly alter the public
access easement to permit a stairway to be built.
The Commission’s staff also rebutted the plan
sheet submitted by Petitioners by showing that it is
contradicted by all other County-approved plans for
the residence that show no development in the public
easement. AR 509, 516-17. The plan sheet presented
by Petitioners was not in the Commission’s permit
file, and there is no evidence that the Commission
reviewed or approved the stairway or other
development. AR 511-14. In fact, the Coastal Act and
the Commission’s regulations prohibit it from
approving development in a public access easement
that lessens public usage; the Commission would have
had to expressly address a development that
fundamentally contradicts the CDP’s public access
purpose. AR 515-17.
There is substantial evidence that the
Commission never saw or approved any plans for a
stairway, and that a stairway in the public right of
way would deviate from Coastal Act policies and the
CDP. The stairway was unpermitted, and it is
undisputed that the gate was also. As such, this
unpermitted development violated CDP Special
Condition No. 4. The stairway/gate also are
inconsistent with Special Condition No. 5’s
requirement for public access to the beach. For this

Appendix B-34
reason, Petitioners violated section 30810 because the
stairway/gate are inconsistent with the CDP.
Additionally, Petitioners violated section 30810 by
passively
countenancing
the
encroaching
stairway/gate.
b. Laches
Petitioners contend that laches precludes the
Commission’s enforcement action. Pet. Op. Br. at 10.
They argue that the Commission unreasonably
delayed in bringing its action, and this worked to
Petitioners detriment because witnesses have been
lost – the original applicant and his architect have
passed away. AR 4197. Additionally, it has been
difficult to reconstruct the CDP events for
construction of the residence. Pet. Op. Br. at 11.
Laches is an equitable safeguard operating
independently of the statute of limitations and exists
to assure defendants are not confronted with stale
claims. Transwestern Pipeline Co. v. Monsanto Co.,
(1996) 46 Cal.App.4th 502, 520. A claims based on the
public duty of a local or state agency may be barred by
the doctrine of laches. People v. Dept. of Housing &
Community Development, (1975) 45 Cal.App.3d 185,
195. The claim is barred by the laches where the
plaintiff is guilty of unreasonable delay in
commencing litigation plus either the plaintiff
acquiesces to the defendant’s alleged wrongful act or
the defendant is prejudiced by the delay. Johnson v.
City of Loma Linda, (2000) 24 Cal.4th 61, 68; Conti v.
Board of Civil Service Commissioners, (1969) 1 Cal.3d
351, 359-360. The laches defense applies fully to
mandamus claims as well as other claims. Schellinger
Brothers v. City of Sebastopol, (2009) 179 Cal.App.4th

Appendix B-35
1245, 1267-68. Laches is not available where it would
nullify an important policy adopted for the benefit of
the public. Feduniak v. California Coastal Com’n,
(“Feduniak”) (2007) 148 Cal.App.4th 1346, 1381.
The
Property’s
stairway/gate
has
been
inconsistent with the CDP since the residence was
completed in 1983. AR 3027. The stairway/gate is
visible from PCH. AR 699. The Conservancy acquired
actual knowledge of the stairway/gate in 1993 when it
sent a letter that the owner must either remove the
gate or seek the Conservancy’s permission to keep it
in place until the accessway was opened for public use.
AR 700. In 1996, the Property’s former owner
submitted a CDP application to the Commission that
sought to add five-foot tall tubular steel fencing to the
street side of the existing residence. AR 448-49. The
Property’s former owner filled out an undated
“Easement Monitoring Form” stating that “the
vertical easement is altered in the way of a gate placed
at the entrance point” and that the gate “could
constitute a lack of compliance”. AR 4078.
From this evidence, Petitioners conclude that the
Conservancy and Commission knew about the
stairway/gate no later than 1993 and 1996,
respectively. Pet. Op. Br. at 11. The timing of the
Commission’s knowledge of the stairway/gate
existence is a factual question which need only be
supported by substantial evidence. Substantial
evidence exists for the Commission’s conclusion that
it did not learn of the unpermitted stairway/gate until
May 2002 when Commission staff became aware of,
and began investigating, the easement violation. AR
484. Petitioners’ evidence of the Commission’s

Appendix B-36
knowledge does not contradict this conclusion because
it concerns only fencing on the PCH side of the
residence and the former Property owner’s Easement
Monitoring Form was given to the Conservancy, not
the Commission.
In any event, the Commission delayed from 2002
until 2007, when Commission staff mailed Petitioners
the April 27, 2007 Notice of Violation and then the
May 23, 2007 Notice of Intent. AR 484, 703, 719. The
court will assume arguendo that this delay was
unreasonable. Nonetheless, laches cannot be applied
to the Commission’s failure to act. One of the core
principles of the Coastal Act is to maximize public
access to the coast to the extent feasible. City of Dana
Point v. California Coastal Commission, (2013) 217
Cal.App.4th 170, 185. The public has a strong interest
in “eliminating an ongoing unpermitted development”
and in “protecting the Commission’s ability to enforce
existing and future easement and permit conditions.”
Feduniak, supra, 148 Cal.App.4th at 1380 (cease and
desist order enforced to compel restoration of 3-hole
golf course per easement requiring native vegetation
despite 20 year delay). Use of the laches doctrine to
prevent enforcement of the easement’s public
accessway to the beach would nullify an important
Coastal Act public policy.
Petitioners assert that application of laches would
negate the cease and desist order, but would not
prevent removal of the stairway/gate because
Petitioners are committed to removing them if and
when construction commences for the public
accessway. Pet. Op. Br. at 11-12. As the Commission
staff pointed out (AR 536), Petitioners’ decade of

Appendix B-37
“avowed resistance” to the Commission’s removal of
the stairway/gate undermines this purported
commitment.9
Substantial evidence supports the Commission’s
Order directing Petitioners to remove the
stairway/gate pursuant to the Commission’s authority
under section 30810(b) because (1) the stairway/gate
are inconsistent with the CDP and (2) Petitioners
violated section 30810(a) statute by passively
countenancing the stairway/gate encroaching on the
public access easement. This conclusion would apply
even under an independent judgment standard of
review.
2.

The Administrative Penalty

In 2014, the California Legislature enacted
section 30821, enabling the Commission to impose an
administrative civil penalty on “a person, including a
landowner, who is in violation of the public access
provisions” of the Coastal Act. §30821(a). The penalty
may be assessed for each day that the violation
persists, but for no more than five years. Id. The
amount of the penalty per violation may not exceed 75
percent of $15,000 per day (i.e., $11,250 per day). Id.10

Petitioners contend that they were told by the Commission that
they could keep the gate until construction of a public walkway
began. AR 2331-32. Pet. Op. Br. at 9, 10. This promise has no
bearing on their violation of section 30810, and would at most
support only an agency estoppel claim, which has not been made.
9

10 Section 30820 permits a superior court to award a civil
penalty of not less than $1,000 and not more than $15,000 per
day for each day of violation under similar circumstances of a

Appendix B-38
In determining the amount of civil liability, the
Commission must consider the following factors:
(1) the nature, circumstance, extent, and gravity of
the violation; (2) whether the violation is susceptible
to restoration or other remedial measures; (3) the
sensitivity of the resource affected by the violation;
(4) the cost to the state of bringing the action; and
(5) with respect to the violator, any voluntary
restoration or remedial measures undertaken, any
prior history of violations, the degree of culpability,
economic profits, if any, resulting from, or expected to
result as a consequence of, the violation, and such
other matters as justice may require. §30821(c)
(incorporating §30820(c)).
The Commission performs a quasi-judicial
function when it issues a cease and desist order and
an accompanying fine for unauthorized development.
See Marine Forests Society v. California Coastal
Commission, supra, 36 Cal.4th at 25-26. The
limitations on the Commission’s power to issue a fine
are that it must be authorized by legislation and must
be “reasonably necessary to effectuate the
administrative
agency’s
primary,
legitimate
regulatory purpose.” McHugh v. Santa Monica Rent
Control Board, (1989) 49 Cal.3d 348, 374. Petitioners
do not dispute the Commission’s statutory authority
to impose a fine where it is reasonably necessary to
rectify a violation of the Coastal Act’s public access
provisions.

development that is in violation of the Coastal Act or inconsistent
with a CDP, local coastal program, or certified port master plan.

Appendix B-39
1.

Violation of Public Access Provisions

Petitioners contend that the Commission
mistakenly relies on section 30210 through 30212,
which are Coastal Act public access provisions, to
justify application of an administrative penalty for
Petitioners. Pet. Op. Br. at 13.
a. Section 30210
Section 30210 states in relevant part: “In carrying
out the requirement of Section 4 of Article X of the
California Constitution, maximum access ... shall be
provided for all the people consistent with public
safety needs and the need to protect public rights,
rights of private property owners, and natural
resource areas from overuse.”11 (Emphasis added).
Petitioners contend that section 30210 sets forth
public duties imposed on the Commission and the
Conservancy, not on property owners like Petitioners.
Pet. Op. Br. at 12. Petitioners contend that only the
Conservancy violated section 30210 by “sitting on” the
easement for decades without taking action. Pet. Op.
Br. at 12-13.
Petitioners are partly correct. As stated ante,
section 30821 authorizes the Commission to impose
administrative penalties on anyone “in violation of the
public access provisions” of the Coastal Act. §3082l(a).
11 Section 4 of Article X of the California Constitution states in
relevant part: “No individual ... claiming or possessing the
frontage or tidal lands of a harbor, bay, inlet, estuary, or other
navigable water in this State, shall be permitted to exclude the
right of way to such water whenever it is required for any public
purpose.”

Appendix B-40
Section 30210 is a public access provision, and sets
forth a public access policy which the Commission is
obligated to implement. See §30214. It is not a policy
directed to Petitioners or obligating them to act.
§30330. Nevertheless, the Commission did implement
this policy through the CDP issued to Petitioners’
predecessor owner. The CDP’s Special Conditions are
enforced by the Commission through a cease and
desist order under section 30810. Petitioners are in
violation of the public access provisions of the Coastal
Act,
including
section
30210,
by
undertaking/passively countenancing activities that
violate the CDP’s Special Conditions. The
Commission has both jurisdiction under section 30810
and a duty under section 30210 to abate this violation.
AR 2809.
Petitioners argue that section 30821 authorizes
an administrative penalty only for violation of the
Coastal Act’s access policies, and the Commission
could file a civil action under section 30820 if it
wanted to allege a violation of the CDP. Pet. Op. Br.
at 15. Not so. The Coastal Act’s access policies are
implemented through the CDP. The Commission has
the authority under section 30821 to impose an
administrative penalty for a violation of coastal
policies required by a CDP.
Petitioners contend that their maintenance of the
gate is consistent with public safety needs and that
their maintenance of a stairway only partly
encroaches in the easement area and is consistent
with their non-exclusive right to the easement. Pet.
Op. Br. at 13. Petitioners miss the point. The policy in
section 30210 is maximum access to the coast

Appendix B-41
consistent with public safety needs. Public safety
needs are not the focus, but rather a limitation on
public access. As noted post, Petitioners stairway/gate
violates the CDP’s Special Conditions and impairs
maximum public access to the beach.
b. Section 30211
Also a public access provision, Section 30211
states in relevant part that “[d]evelopment shall not
interfere with the public’s right of access to the sea
where acquired through use or legislative
authorization.”
Petitioners contend that they are not interfering
with the public’s right of access because there is no
public access at their property; there is only a
neglected publicly-owned easement which is
physically inaccessible because of the inherent
dangers in the easement’s topography. Petitioners
rely on the Commission hearing testimony of Alex
Nathan Helperin (“Helperin”), a Commission staff
member. AR 4273. Helperin testified that a grade
separation exists between the sidewalk and the
surface of the easement area such that something
must be in place in order for the public to descend to
the storm drain or whatever is on it as a pathway. The
Conservancy and MRCA are finalizing their plans
regarding removal of the gate and this topography
issue. Id. Pet. Op. Br. at 13.
Petitioners also contend that insufficient evidence
supports the Commission’s claim that that the
unpermitted stairway/gate impedes further planning
and design of the public accessway. Petitioner Warren
Lent testified that he intends to remove the gate at a

Appendix B-42
moment’s notice and send keys to Commission and
Conservancy staff so that they can build on or
evaluate the Property. AR 4216-17. He also testified
that he was not trying to block the easement and just
wanted to figure out a way to have a secondary means
of egress out of his home. Id. Petitioners further cite
to a 2011 letter written by David C. Weiss (“Weiss”), a
structural engineer, who examined Bionic’s
conceptual designs and questioned their practicality.
AR 2396. Pet. Op. Br. at 13.
These arguments are spurious. The immediate
availability of public access following removal of
unpermitted development is not the test for whether
the development denies public access. There is
overwhelming evidence that Petitioners are
interfering with the public’s right of access to the
ocean via the easement. The Conservancy has made
clear that the stairway/gate has substantially
impaired its ability to move forward with a public
accessway. AR 959-62. Since 2012, the Conservancy
has been working with MRCA to design and improve
the Property’s public access easement. AR 959. The
Conservancy has spent tens of thousands of dollars to
address the various problems raised by the
encroachments which otherwise could have gone to
design and planning efforts. Id. The Conservancy
cannot move beyond a very rough draft of its
feasibility studies until it learns when and how the
stairway/gate will be removed. AR 960. Petitioners’
resistance to removal of the stairway/gate has harmed
the efforts to develop the easement as it has rendered
potential costs, timeframes, and liability issues
uncertain. AR 962. The Conservancy concludes:
“Removal of these encroachments will enable [it] to

Appendix B-43
move forward with increasing needed public access in
this area.” Id. At the Commission hearing, Helperin
testified that the Conservancy and MRCA have been
“holding off’ on finalizing plans for the public
accessway because “they weren’t sure how things were
going to play out and whether there was going to be
resistance.” AR 4273.
This evidence compellingly shows that removal of
the stairway/gate is required for the easement to be
available to the public for access to the beach, and that
Petitioners have interfered with the public’s right of
access in violation of section 30211.
c.

Section 30212

Section 30212 is a public access provision, and
provides in relevant part that “[p]ublic access from the
nearest public roadway to the shoreline and along the
coast shall be provided in new development projects.”
Petitioners contend that this statute requires that
new development be conditioned on the provision of
public access, which imposes an obligation on the
Commission, not Petitioners. Pet. Op. Br. at 13. As
noted ante, this logic is unsound. Section 30212 is a
policy enforced by the Commission upon developers
through a CDP. A breach of a CDP condition is a
violation of this public access policy.
d. Conclusion
Overwhelming evidence exists to support the
Commission’s decision to impose an administrative
civil penalty on Petitioners for their violation of the

Appendix B-44
public access provisions of the Coastal Act as
implemented through the CDP. §30821(a).
2.

The Administrative Penalty

The Commission found that every one of the five
factors in section 30821(c), borrowed from section
30820, supports imposition of a significant penalty.
AR 501.
a. Nature, Circumstance, Extent, and
Gravity of the Violation
The Commission found Petitioners’ violation of
the public access provisions to be significant in nature,
circumstance, extent, and gravity. AR 501. The
Commission described the public accessway as “highly
needed” and desired. Id. The stairway/gate
unpermitted by a CDP blocked the easement
belonging to the public for access to and from the
ocean. Id. The Commission characterized the public
access as a “significant and central resource protected
by the Coastal Act” and Petitioners’ blockage
significant. Id. The Commission noted that the
violation had impacted the easement’s improvement
for multiple years. Id. Finally, the Commission
concluded that the gravity of Petitioners’ violation is
significant because it limits public access to the coast
for an almost three-mile distance and there is a
complete lack of other available public access. Id.
The Commission acknowledged that Petitioners
are not the original owners who built the
stairway/gate, but stated that they have a legal duty
to comply with the CDP’s conditions and the Coastal

Appendix B-45
Act. AR 505. The easement also was on title when
Petitioners purchased the Property. Id.
Petitioners wrongly argue that the Commission
cites the Coastal Act, CDP, and violation of Coastal
Act policies, yet should only have evaluated
Petitioners’ violation of the Coastal Act’s public-access
policies pursuant section 30821(c). Pet. Op. Br. at 14.
The CDP implements the Coastal Act’s public access
policies, and it was appropriate for the Commission to
evaluate it as part of the violation.
Petitioners argue that they did nothing more than
buy the Property upon which the unpermitted
developments were already present. Pet. Op. Br. at 14.
Petitioners did more than that. When they bought the
Property, the unpermitted stairway/gate had
prevented public access for 20 years. Petitioners
continued that blockage by fighting the Conservancy
and the Commission to prevent its removal. By the
time of the hearing, Petitioners had continued to
prevent public access by retaining the stairway/gate
for another 14 years. Petitioners cannot be saddled
with the initial 20 year delay, but its existence
underscores the significance of the violation.12
Petitioners argue that the stairway/gate does not
“significantly” block the easement because the
12 Petitioners
contend that the Commission’s decision
mistakenly assumed that the stairway/gate interferes with
public access as opposed to blocking a closed easement that only
recently became a candidate for Conservancy/MRCA
development. Pet. Op. Br. at 14. This argument ignores the
Conservancy’s initial tentative effort in 1993, as well as the
Conservancy’s and the Commission’s more concerted effort
beginning in 2007 and continuing thereafter.

Appendix B-46
stairway lies only partly in the easement area. Pet.
Op. Br. at 14-15. This conclusion is not true. The gate
blocks access to the easement entirely, and the
stairway encroaches nearly halfway (27 inches) onto
the six foot easement. There is no evidence that a
public accessway could be built on a three and a half
foot easement, and common sense suggests otherwise.
Petitioners argue that the gate and landing
protect the public against a six to seven foot fall onto
the concrete landing in the easement area. Pet. Op.
Br. at 14. This is true with respect to the gate. The
gate or some other blockage well may be necessary to
prevent falls by the public until the Conservancy
builds the accessway. But that fact does not
undermine the seriousness of Petitioners’ refusal to
remove the stairway.
Petitioners contend that the Commission
exaggerates the lack of actual and potential beach
access in the vicinity of Petitioners’ property. Pet. Op.
Br. at 15. They argue that other publicly-owned
accessways remain closed only because of the
Conservancy’s failure to develop them. Id. Petitioners
informed the Commission of three locations in close
proximity to the Property that have public access
easements to the beach: (a) two that are one-half mile
west at Duke’s restaurant; (b) a second at
Moonshadows restaurant one-half mile east, and (c) a
third at 19900 PCH, approximately 1.1 miles east. AR
2633-34, 3012. Reply at 4.
Since Petitioners concede that these public
accessways currently are closed (Reply at 4), the
Commission’s conclusion that there are no other
operative accessways for a three-mile stretch is

Appendix B-47
correct. Moreover, it is not for Petitioners to say which
public accessways should be opened; that is the
Conservancy’s job. The Commission and the
Conservancy have been trying for years to gain public
access to the beach through dedicated easements, only
to battle various homeowners for lawful public access.
See, e.g., AR 2097-99 (noting three lawsuits in which
the Conservancy and/or Commission have been
obligated to litigate public beach access). According to
the Commission, there have been 34 public accessway
easements recorded in the County, and yet only 13
have been opened for public use. AR 502. In Malibu,
only 8 of the 24 vertical access easements have been
opened for public access. AR 502. Indeed, frustration
over private property owner resistance to opening
previously granted public access easements to the
beach appears to be the reason why the Legislature
passed section 30821. The Malibu LUP establishes a
goal of a public accessway every 1000 feet for Las
Flores Beach, where the Property is located, and for
Las Costa Beach. AR 502. Yet, there are only two
public accessways near the Property, one 1.7 miles
west at Carbon Beach and another one mile east at
Big Rock Beach. AR 502. Petitioners cannot rely on
the resistance of other private property homeowners
to permit beach access to undermine the significance
of their own violation. The Conservancy is guilty of
acquiescing in some of the delay, but there is no doubt
that homeowners have been a major obstacle to beach
access.
The first factor weighs in favor of a penalty.

Appendix B-48
b. Whether the Violation is Susceptible to
Restoration or Other Remedial
Measures
The Commission acknowledged that Petitioners’
violation could be viewed as susceptible to restoration
because the stairway/gate can be removed and
demolished. AR 505. The Commission nevertheless
found that removal of unpermitted development
would not undo years of lost public access to the beach.
Id. The Conservancy stated that the public accessway
would have been opened to the public long ago but for
Petitioners’ encroachments. Id.
Petitioners contend that this factor merely asks
whether the violation is susceptible to restoration.
Pet. Op. Br. at 15. They argue that the answer is
plainly yes; the stairway/gate can be removed quickly
and
simply.
Id.
The
Commission’s
Chair
acknowledged that “the ability to restore is quite
simple.” AR 4276. Petitioners contend that the
Commission improperly focused on the harm from the
violation, and not the violation itself. Id.
The Commission’s opposition does not address
this argument. Section 30821(c) incorporates the
factors of section 30820 in determining the amount of
civil liability for violating Coastal Act public access
provisions. The factor in section 30820(c)(2) is
“whether the violation is susceptible to restoration or
other remedial measures.” The plain meaning of this
provision is remediation of the violation, not
remediation of the harm from the violation. The
Commission’s discussion runs adrift from the second
factor’s scope.

Appendix B-49
The second factor does not weigh in favor of a
penalty and the Commission erred in so finding.
c.

Sensitivity of the Resource Affected by
the Violation

The Commission noted that the resource affected
— coastal access — is a sensitive resource which is
extremely limited in the County, and in Malibu in
particular. AR 502. Vertical easements in developed
coastal areas are rare and valuable and there are
virtually no new vertical easements being required
presently. Id. Further, California’s population
continues to grow and there is a concordant increasing
desire to access the coast. Id.
Petitioners contend that the Commission engaged
another “bait-and-switch” on this factor because the
easement is the resource affected by Petitioners’
violation, not public access. They note that there are
24 vertical public easements in Malibu, with eight
open for public use. Petitioners contend that this is a
sufficient number. Pet. Op. Br. at 15.
Petitioners are wrong. For purposes of a Coastal
Act violation, the resource affected is public access.
The purpose of the easement is to provide public
access to the beach. There are eight open public
accessways in Malibu, but there should be more. The
Malibu LUP establishes a goal of a public accessway
every 1000 feet for Las Flores Beach where the
Property is located. AR 502. There are only two public
accessways near the Property, one 1.7 miles west at
Carbon Beach and another one mile east at Big Rock
Beach. AR 502. Public access to Las Flores beach has
been significantly impacted by Petitioner’s violation.

Appendix B-50
In reply, Petitioners blame the Conservancy and
MRCA for the lack of public access. Reply at 4-5. This
repetitive argument may be given short shrift. The
Conservancy is complicit in the multi-decade failure
to develop public accessways, but that fact in no way
exonerates Petitioners.
The third factor weighs in favor of a penalty.
d. Cost to the State of Bringing the Action
The Commission found that the costs to the state
in bringing this action have been “very significant”
and that Petitioners’ violation has been “particularly
egregious”. AR 502. The Commission’s staff has spent
nine years working on this matter, including a
tremendous amount of time in letter writing,
researching,
phone
conversations,
attempted
negotiations, coordination with other agencies, and
meetings. Id. Much of this time has been spent in
responding to Petitioners’ numerous challenges. Id.
Since December 2013, the Commission’s staff has
written approximately 20 letters to Petitioners, many
with long, detailed legal analysis. Id. Many of the
responses involved rearguing the same issues raised
by Petitioners. Id. Each time staff rebutted an
argument, Petitioners proffered new variations of the
argument, or else new arguments. Id.
Additionally, the Conservancy has spent
considerable time investigating the encroachments,
and time and money attempting to plan the accessway
while confronting opposition from Petitioners. AR 503.
These public funds could have been spent developing
public access at other locations. Id. When MRCA is
included, three state agencies have invested

Appendix B-51
significant time and effort on this violation. Id. The
public policies in favor of resolving violations quickly
and reducing transactions costs support higher
penalties in Petitioners’ case. Id.
Petitioners contend that this factor has “no
sensible application” because the state — through the
Attorney General — did not bring an action to recover
penalties against Petitioners under section 30820.
Pursuant to section 30820, the state brings an action
for civil penalties in superior court and, in such a
lawsuit, the court may consider the State’s costs in
bringing the suit under section 30820(c)(4). According
to Petitioners, this factor has no bearing on a
Commission-imposed administrative civil fine under
section 30821, which by definition cannot include the
cost of a superior lawsuit. Pet. Op. Br. at 16.
Petitioners are incorrect. Section 30821(c) only
requires consideration of section 30820’s factors, not
the portions of section 30820(a) and (b) concerning a
superior court lawsuit. As incorporated into section
30821(c), section 30820(c)(4)’s language of “bringing
the action” must be construed to mean bringing the
Commission’s cease and desist enforcement
proceeding.
Petitioners further argue that the Commission
made no effort to quantify the administrative cost
even of bringing the administrative proceeding. AR
3046, 4276. Petitioners add that the costs to the
Conservancy of research, settlement talk, and
conferring with third parties are not part of the costs
of “bringing the action”, which only should be the costs
of preparing for and conducting the cease and desist
proceeding. Reply at 5.

Appendix B-52
The court disagrees. Section 30820(c)(4)’s
language must be interpreted to include the state’s
costs — through the Commission, Conservancy, and
MRCA — of dealing with Petitioners in an attempt to
open the public accessway. The Commission’s cost for
conducting the actual enforcement hearing is
relatively small, and the factor should not be
construed in a way that unduly crimps consideration
of the state’s efforts.
Petitioners contend that the Commission asserts
that it incurred “very significant” costs in enforcing
this matter but made no effort to quantify said costs.
Pet. Op. Br. at 16. This is true. The Commission’s
failure to quantify the state’s costs undermines, but
does not negate, this factor. The number and detail of
the letters between the parties shows a substantial,
albeit unquantified, effort by state agencies.
The fourth factor weighs in favor of a penalty, but
less heavily than a quantified number would have.
e.

With Respect to the Violator, Any
Voluntary Restoration or Remedial
Measures Undertaken, Any Prior
History of Violations, the Degree of
Culpability, Economic Profits, if Any,
Resulting from, or Expected to Result as
a Consequence of, the Violation, and
Such Other Matters as Justice May
Require

The Commission noted that the Petitioners
exhibited a high degree of culpability and a lack of
voluntary restoration efforts. AR 503. Since 2007,
Petitioners have refused to remove Coastal Act

Appendix B-53
violations that blocked the public access easement or
enter into a cease and desist order despite many staff
letters over the years requesting a resolution. Id.
Petitioners’ pattern of behavior over the years reflects
an attitude of unwillingness to allow public access to
the beach and an intention of keeping the beach
private. AR 504.
This unwillingness was distinctive as the
Commission has amicably resolved many past
disputes without resort to section 30821 penalties. Id.
The Commission settled a similar public access
violation in Malibu in 2013 for over $1million
(Ackerberg). Id. Other recent settlements include
$700,000 in 2016, $400,000 in 2015, and $2.5 million,
$600,000, and $575,000 in 2013. Id. Immediately
preceding this matter, the Commission settled the
first section 30821 case for public access in Malibu just
upcoast of the Property. Id. The respondent was
cooperative and settled within several months of
purchasing the property for an amount similar to
$950,000 recommended by staff in this case. Id.
The Commission also noted that Petitioners have
maintained the residence primarily for temporary
vacation rental listed on “VRBO” and other websites.
AR 504. Properties in Malibu typically enjoy
substantial profits. AR 504. On November 17, 2016,
the average nightly rate of the residence was listed as
$1,092, and the weekly rate ranged from $6,500 in
winter to $32,000 per month in the peak summer
months. Id. See AR 769-85. Commission staff did not
have access to specific records of occupancy, but the
residence appears to be booked typically based on the
VRBO website. Id. The private access to the beach

Appendix B-54
through the stairway/gate is highlighted as a benefit
for potential renters in the VRBO advertisement. Id.
Therefore, Petitioners’ Coastal Act violations
indirectly helped market the Property and generated
higher revenues. Id.
Petitioners contend that they have engaged in
some voluntary restoration and remedial measures.
Pet. Op. Br. at 16. Petitioners cite an unsigned draft
letter from their counsel to the Commission with
supporting pictures to contend that they removed a
mailbox and planters in the easement area. AR 2475.
Petitioner Warren Lent declares that they have never
blocked the Conservancy’s access to the easement and
always provided access when requested to do so. AR
2333 (¶7). At the hearing, Petitioner Warren Lent
testified that he gave gate keys to the Commission. AR
4217.
Assuming all of this evidence is correct — the
citation does not actually support removal of the
planter — Petitioners’ voluntary effort has had only a
minor impact. Petitioners did not voluntarily remove
the two important unpermitted structures — the gate
and stairway — and did not adopt reasonable
remedial measures as evidenced by the nine years of
Conservancy and Commission effort and the cease and
desist proceeding. See Opp. at 11. In no way have
Petitioners given “full cooperation” as they claim. See
Reply at 5.
Petitioners contend that they have not committed
prior violations, are innocent purchasers of the
Property with no knowledge of any alleged violation,
and are not responsible for the present lack of public
access. Pet. Op. Br. at 16. Petitioners have not

Appendix B-55
committed prior violations and they were innocent
purchasers. But they have known of the violations for
over nine years and have resisted the requirement for
public access. As the Commission pointed out,
Petitioners were never justified in their noncompliance with the CDP conditions and the Coastal
Act. AR 505.
Petitioners attack the Commission’s conclusion
that they derive economic profits from the violation.
They contend that the Commission merely speculated
that Petitioners have made significant revenues from
renting the house without actual evidence of the same.
In fact, the “undisputed evidence” is that the rental
income does not cover the Property’s mortgage and
property tax. AR 4212. Pet. Op. Br. at 16.
The Commission had no quantifiable evidence of
economic profits from the violation. It did have some
evidence. The Commission may reasonably infer that
the unpermitted development aided Petitioners’ effort
to generate rental income because Petitioners’ VRBO
listing provides a picture of the stairway, landing, and
beach beyond with the caption: “Direct Beach Access.”
AR 785. The stairway/gate to the beach has been a
selling point for Petitioners’ rentals.
Moreover, Petitioners need not derive a profit
from renting the Property for this factor to apply. The
factor involves examination of “economic profits, if
any, resulting from, or expected to result as a
consequence of, the violation.” This means profit from
the violation, not profit from a property rental
business. Further, Petitioners purported evidence
that the vacation rentals of their Property does not
pay the mortgage and property tax is merely the

Appendix B-56
advocacy of their lawyer, who reported what his
clients told him. AR 4212. That argument is not
evidence.
Petitioners contend that the Commission
punished them for “fighting hard” to preserve a
staircase, landing, and gate that they believed legal
and vital to the safety and security of themselves and
the public. Reply at 6. They did not spend nine years
defying the Commission; Commission staff is at fault
for delaying months and sometimes years without
following up. AR 2331-32, 2485. Id.
The court agrees that Commission staff
sometimes waited months before responding to a
letter from Petitioners’ counsel. Nonetheless,
Petitioners are the principal cause of the nine year
delay. It is plain that Petitioners’ motive was to stall.
If given the chance, Petitioners would have continued
their letter writing indefinitely, purporting to
cooperate but making the same legal arguments,
sometimes embellished in a new way. This factor
works in favor of a penalty not because Petitioners
fought hard for their legal rights, but because they
deliberately stalled public access.
The fifth factor weighs in favor of a penalty.
3.

The Penalty

Based on these factors, as well as an attempt to be
conservative in its first imposition of penalties under
section 30821 by using the November 24, 2014 date on
which Commission staff first notified Petitioners of
the potential for section 30821 penalties and by
reducing the number of violations to one, the

Appendix B-57
Commission imposed a penalty of half the maximum:
$4,185,000. AR 505. This penalty was more than four
times greater than
the
$950,000 penalty
recommended by staff. See id.
Petitioners do not challenge the Commission’s
calculation of the fine. The court has some concern
about the calculation because, at least from the cited
pages in the Joint Appendix, the Commission did not
draw a nexus between its findings on the pertinent
factors and the actual penalty of $4.1 million. Instead,
the Commission was concerned with the deterrence of
other homeowners who fail to cooperate and resist
opening lawful public access easements. For this
reason, the Commission considered a penalty six
times that imposed on the cooperating homeowner
who settled for a $925,000 penalty that day, and
ultimately settled on a penalty four times that
amount. AR 4286, 4307. Civil penalties may have a
punitive or deterrent aspect, but their primary
purpose is to secure obedience to statutes and
regulations serving an important public policy. City
and County of San Francisco v. Sainez, (“Sainez”)
(2000) 77 Cal.App.4th 1302, 1315 (citation omitted).
4.

Constitutionality of Penalty

Petitioners contend that the penalty is grossly
disproportional to the gravity of Petitioners’ offense
and should be set aside as unconstitutional under the
excessive fine clauses in the United States and
California Constitutions. Pet. Op. Br. at 17.

Appendix B-58
a. Excessive Fine
Both the United States and California
Constitutions possess excessive fines clauses. U.S.
Const., 8th Amend; Cal. Const., art. I, § 17. A civil
penalty, by virtue of its partially punitive purpose, is
a fine for purposes of the constitutional protection.
Sainez, supra, 77 Cal.App.4th at 1321. The
constitutional question is whether the penalty is
excessive. Id. The touchstone of this inquiry is the
principle of proportionality: The amount of the
forfeiture must bear some relationship to the gravity
of the defendant’s offense. Id. at 1321-22. The fine is
unconstitutional if the amount of the forfeiture is
grossly disproportional to the gravity of the violator’s
offense. Id. at 1322. Proportionality factors include the
nature of the violation, its punishment, the harm
caused by the violator, other penalties for like
offenses, and the ability to pay. See id. Judgments
about the appropriate punishment for an offense
belong in the first instance to the legislature. Balice v.
U.S. Dept. of Agriculture, (9th Cir. 2000) 203 F.3d 684,
699.
i.

Nature of Violation

Petitioners contend that the nature of their
violation is that (1) a removable gate restricts access
to a topographically dangerous easement and (2) a
stairway and wood landing encroach partly within the
easement area but do so to provide emergency
secondary egress for Petitioners. Pet. Op. Br. at 17.
This is not a fair characterization. The nature of
Petitioners’ violation is the willful retention of
unpermitted structures blocking public access in

Appendix B-59
violation of the Coastal Act and CDP, and nine years
of deliberate refusal to remove them after the
Commission notified them on April 27, 2007 that they
were in violation. AR 703-04.
ii. Harm Caused
Petitioners contend that the Commission proved
no harm because the Conservancy has failed to
develop a path for public access. There is insufficient
evidence to support a conclusion that stairway/gate
are impeding the opening of this easement into a
public accessway. Pet. Op. Br.at 17.
Substantial evidence demonstrates that a public
accessway could have been built long ago if Petitioners
had removed their gate/stairway. In June 2010,
Bionic, the Conservancy’s design firm, completed a
series of conceptual design for a public accessway in
the easement. AR 485. The design, which was shown
to Petitioners, demonstrated the feasibility of
constructing said public accessway. AR 485, 1189-90.
Even the rough cost for improvements to the easement
were in the range of expectations for similar beach
projects. AR 1189. There is substantial evidence that
Petitioners’ resistance was the only hurdle preventing
further development of the easement as a public
accessway. The only unclear issue is how long it would
have taken for the Conservancy to fund, design, and
build the public accessway.
iii. Other Penalties for Like Offenses
Petitioners contend that the penalty is grossly
disproportional to other penalties assessed for like
offenses. Petitioners attempt to cite to a matter before

Appendix B-60
the Commission on the same hearing date in which
Commission staff recommended a section 30821
penalty in the amount of $925,000 against Malibu
Beach Inn. Pet. RJN Ex. A, p.24.
The Commission settled a section 30821 case on
the same day as Petitioners’ hearing for $925,000. AR
504. The critical distinction between the two matters
is that, unlike Petitioners, the other proceeding was a
settlement in which the Malibu Beach owners were
“very recent purchasers [circa 2015] of the property”
who “worked with staff to very quickly rectify the
violation after having the violation brought to their
attention.” Pet. RJN Ex. A, p.24.
On the other hand, the Commission indicated that
it settled a similar public access violation in Malibu in
2013 for over $1 million (Ackerberg). AR 504. This is
not a fair characterization of Ackerberg. This
department handled the Ackerberg enforcement
lawsuit and, to the court’s best recollection, Ackerberg
had blocked public access to the ocean through an
easement on her property for over 30 years, more than
three times as long as Petitioners. The Commission
did not explain why it settled that case for $1 million
in contrast to the more than $4 million penalty
imposed in this case. According to the Commission,
other settlements for public access violations have
been $700,000 in 2016, $400,000 in 2015, and
$2.5 million, $600,000, and $575,000 in 2013. AR 504.
The $4.1 million penalty is disproportionate to
other penalties in similar matters, but not grossly so
on the existing record. The other penalties were all
obtained by settlement and only one was obtained
pursuant to section 30821. A penalty is not excessive

Appendix B-61
where it is “‘both proportioned to the...misconduct and
necessary to achieve the penalty’s deterrent
purposes.’” Kinney v. Vaccari, (1980) 27 Cal.3d 348,
356 (quoting Hale v. Morgan, (1978) 22 Cal.3d 388,
404).
iv. Ability to Pay
Petitioners do not raise arguments for this factor.
See Sainez, supra, 77 Cal.App.4th at 1319-20
(evidence of a defendant’s net worth, not just the value
of a particular property, may be received in a civil
penalty case).
v. Punishment
The punishment is a civil penalty in the amount
of $4,185,000. As Respondents point out (Opp. at 12),
section 30821 authorized the Commission to impose a
penalty up to $8,370,000 for each violation. AR 500.
The Commission elected to impose a penalty for one
violation and cut the maximum sum in half. Id.
A consideration of all of the pertinent factors does
not justify Petitioners’ conclusion that the penalty is
grossly disproportionate to their offense. Petitioners’
fine is within the maximum that the Commission
could have imposed, and a civil penalty less than the
statutory maximum generally does not run afoul of
the federal excessive fines clause. United States v.
Mackby, (N.D. Cal. 2002) 221 F.Supp. 1106, 1110-11.
A fine greater than that imposed for parties who settle
is not grossly disproportionate. See United States v.
Goodwin, (“Goodwin”) (1982) 457 U.S. 368, 378-80.
The $4.1 million fine is not grossly disproportionate to
the fines imposed on settling homeowners. See Ojavan

Appendix B-62
Investors, Inc. v. Coastal Commission, (1997) 54
Cal.App.4th 373, 397-98 ($9.5 million civil penalty
imposed by trial court under Coastal Act for deed
restriction
violations
was
not
grossly
disproportionate, in part because of owners’ blatant
disregard and need for deterrence).
b. Vindictive Prosecution
Petitioners contend that “vindictive prosecution”
played a significant role in the Commission’s
determination of the penalty. Petitioners cite the
Commission Staff Report which reads: “In summary,
[Petitioners] have declined repeatedly over many
years to remove the unpermitted development and to
provide public access consistent with the permit and
Coastal Act. They, therefore, have a high degree of
culpability in the violation.” AR 3047. Petitioners also
cite to the Commission testimony discussing the
voluntary remediation factor of section 30820(c). The
Commission representative stated: “[L]ooking at the
prior history of violations ... staff went into great
detail in looking at how many letters, how many
points of contact, how many times there were
meetings with the respondent that were to no avail.”
AR 4258. Another Commission representative stated:
“[W]e don’t want to be in a position where rewarding
... applicants that have been fighting us and resisting
these types of opportunities.” AR 4263. Petitioners
contend that they were severely punished for their
exercise of their right to petition under the First
Amendment. See MHC Fin. Ltd. Pship Two v. City of
Santee (2010) 182 Cal.App.4th 1169, 1187, n.16 (right
to petition is accorded preferred place in our
democratic system). Pet. Op. Br. at 18; Reply at 7.

Appendix B-63
To punish a person because he has done what the
law plainly allows him to do is a due process violation
of the most basic sort. Goodwin, supra, 457 U.S. at
372. Where the defendant shows that the prosecution
has increased the charge in apparent response to the
defendant’s exercise of a procedural right, the
defendant has made an initial showing of an
appearance of vindictiveness. Twiggs v. Superior
Court (1983) 34 Cal.3d 360, 371.
The Commission has not punished Petitioners for
exercising their constitutional right to petition.
Instead, it has punished them for their steadfast
refusal to remove the stairway/gate after being
informed of the violation. Due process does not allow
Petitioners unlawfully to refuse to remove these
unpermitted structures, even if they concomitantly
exercised their right to petition by wrongly claiming
that their refusal was justified.
Moreover,
Petitioners
have
taken
the
Commissioners’ and staff’s statements out of context.
The Commission staff noted that Petitioners possess
a high degree of culpability because they were
informed about the violations nine years earlier and
still refused to remove the gate/stairway. Individual
Commissioners commented that Petitioners should
not be rewarded for “fighting and resisting” public
access with a penalty in a similar amount as the
homeowner who cooperatively settled on the same day
for $925,000. AR 4263. See also AR 4278(“we have
these two different instances of similar problems dealt
with in absolutely the opposite — 180 degrees”), or in
similar amount to a case where they settled amicably
for $725,000 with a homeowner “who acted as quickly

Appendix B-64
as they could once they realized that they were in
violation” (AR 4267). Thus, the Commission ensured
that Petitioners were punished for their deliberate
refusal to remove the stairway/gate. The individual
Commissioners who spoke at the hearing wanted to
ensure that the penalty was greater than that
imposed for cooperative homeowners who settled; they
were not retaliating against Petitioners for exercising
their First Amendment rights. Reply at 7. See
Goodwin, supra, 457 U.S. at 378-80.
4.

Due Process

Petitioners contend that section 30821 is
unconstitutional facially and as-applied under the due
process clauses of the United States and California
Constitutions. Pet. Op. Br. at 19. Petitioners proceed
with this theory in two ways: (1) Petitioners contend
that the Commission is inherently biased because it
has a financial interest in the fines it imposes and
(2) section 30821 provides insufficient due process
guarantees. Pet. Op. Br. at 19-20. Petitioners also
contend that section 30821 is unconstitutional facially
and as-applied under the excessive fines clauses of the
United States and California Constitutions. Pet. Op.
Br. at 20.
The federal and state constitutions impose similar
procedural limitations on adjudicating state and local
agencies. At minimum, an agency must provide
private parties with adequate notice, an opportunity
for a fair hearing at a meaningful time and manner,
and an impartial decision-maker. Today’s Fresh Start,
Inc. v. Los Angeles County Office of Education,
(“Today’s Fresh Start”) (2013) 57 Cal.4th 197, 212.

Appendix B-65
To succeed in a facial challenge to the validity of
a statute, the plaintiff must establish that the
statute’s provisions inevitably pose a total and fatal
conflict with applicable constitutional provisions.
Tobe v. City of Santa Ana, (“Tobe”) (1995) 9 Cal.4th
1069, 1102. All presumptions favor the validity of a
statute, and the court may not declare a statute
invalid unless it is clearly so. Id. Under a facial
challenge, the fact that the statute or ordinance
“might operate unconstitutionally under some
conceivable set of circumstances is insufficient to
render it wholly invalid....” Sanchez v. City of
Modesto, (2006) 145 Cal.App.4th 660, 679.
A timely as-applied challenge where the
petitioner’s injury does not arise solely from the law’s
enactment may include a facial attack on the
measure. Travis v. County of Santa Cruz, (2004) 33
Cal.4th 757, 769. This is because the action challenges
the enforcement of the measure and not just its
enactment. Id. In this circumstance, the facial
challenge to the text of a measure may be made only
insofar as it affects enforcement of the measure
against the petitioner. Id. at 767.
In assessing due process constitutionality, “[a]ll
presumptions favor the validity of a statute”, and a
court “may not declare it invalid unless it is clearly
so.” Tobe, supra, 9 Cal.4th at 1102. In the exercise of
its police power, a legislature does not violated due
process so long as the enactment is procedurally fair
and reasonably related to a proper legislative goal.
Ojavan, supra, 54 Cal.App.4th at 397. It is well
accepted that a state may impose reasonable penalties

Appendix B-66
as a means of securing obedience to statutes validly
enacted under the police power. Ibid.
a. Impartiality
The right to a fair procedure includes the right to
impartial adjudicators. Rosenblit v. Superior Court,
(1991) 231 Cal.App.3d 1434, 1448. Unless they have a
financial interest in the outcome, adjudicators are
presumed to be impartial. Morongo Band of Mission
Indians v. State Water Resources Control Bd.,
(“Morongo”) (2009) 45 Cal.4th 731, 73 7. Bias and
prejudice on the part of an administrative decision
maker must be proven with concrete facts. Breakzone
Billiards v. City of Torrance, (2000) 81 Cal.App.4th
1205, 1237. Bias and prejudice are never implied. Id.
Petitioners contend that the Commission is an
inherently biased tribunal because section 30821
penalties enable the Commission to finance Coastal
Act policies, including public access. Pet. Op. Br. at 19.
Section 30821 civil penalties are deposited in the
Conservancy’s Violation Remediation Account
(“VRA”) until appropriated by the Legislature.
§30821(j); §30823. When appropriated by the
Legislature, the funds must be expended for Coastal
Act purposes. §30823. Petitioners conclude that
section 30821 guarantees that the Commission will be
influenced by the prospect of filling the coffers of its
sister agency, the Conservancy. Pet. Op. Br. at 19.
In their facial challenge, Petitioners contrast
section 30821’s procedures with those of section
30820. Pet. Op. Br. at 19-20. In a section 30820 action,
the Commission must go to the superior court, a
disinterested decision-maker, to obtain a civil fine.

Appendix B-67
There is no risk of bias because the court has no
financial interest in the fine. Yet, section 30821 places
the power to financially destroy individuals in the
hands of those who institutionally benefit from the
most aggressive exercise of that power. Pet. Op. Br. at
20.
Petitioners’ facial challenge is unpersuasive. As
Respondents point out (Opp. at 14), the VRA is
managed by the Conservancy, not the Commission.
The entities might have similar purposes, but they are
distinct. The use of monies collected in an enforcement
action to remediate the harm caused by the violation
also is not improper. People ex. rel Younger v.
Superior Court, (1976) 16 Cal.3d 30, 38-39. The
deposit into the VRA of civil penalty funds imposed by
the Commission under section 30821 does not fatally
conflict with the due process requirement of
impartiality.
For their as-applied challenge, Petitioners
contend that the Commission was “blinded” by their
purported statutory financial interest in exacting a
multi-million dollar penalty. Pet. Op. Br. at 19.
Petitioners point out that the Commission imposed a
penalty over four times greater than recommended by
its staff and even entertained a penalty over six times
greater. AR 4286. During the hearing, a Commission
staff member asked if the Commission had “creative
ideas of what to do with [the penalties]” and suggested
“that one option might be to fund the construction of
this accessway.” AR 4261-62.
Petitioners’ contentions are still unpersuasive.
Bias is not implied under Morongo, and Petitioners
present no concrete facts of bias. Section 30821

Appendix B-68
expressly empowers the Commission to authorize a
fine within the statutory maximum. The
Commission’s discussion of “creative ideas” for use of
the civil fine is consistent with the statute’s dictates
about the use of the fine for Coastal Act purposes. The
Commission’s financial interest is constrained by the
nexus between the fine and the section 30820 factors,
the Conservancy’s management of the VRA, and the
Legislature’s appropriation.
Section 30821 is not facially unconstitutional or
as-applied based on the lack of impartial decisionmaker.
b. Adequacy of the Procedure
The extent to which due process protections will
be available depends on a careful and clearly
articulated balancing of the interests at stake in each
context. Mohilef v. Janovici, (“Mohilef”) (1996) 51
Cal.App.4th 267, 286. In some instances, this
balancing may counsel formal hearing procedures
that include rights of confrontation and crossexamination; in others, due process may require only
that that the administrative agency comply with the
statutory limitations on its authority. Id. The factors
considered in this balancing include (1) the private
interest that will be affected by the official action;
(2) the risk of an erroneous deprivation of such
interest through the procedures used, and the
probable value, if any, of additional or substitute
procedural safeguards; (3) the dignitary interest in
informing individuals of the nature, grounds, and
consequences of the action and in enabling them to
present their side of the story before a responsible
governmental official; and (4) the governmental

Appendix B-69
interest, including the function involved and the fiscal
and administrative burdens that the additional or
substitute procedural requirement would entail. Id. at
287 (noting balancing test’s similarity to one adopted
in Mathews v. Eldridge, (1976) 424 U.S. 319, 341).
Petitioners contend that evaluation of the Mohilef
factors demonstrates that section 30821 provides
insufficient due process guarantees. Pet. Op. Br. at 20.
(i) Private Interest
Petitioners point out that section 30821’s penalty
provision is a quasi-criminal proceeding which
enables the Commission to divest the accused of
property, including either payment of the fine or
recording of a lien, for the purpose of punishment. Pet.
Op. Br. at 20.
Whether a statute is civil or criminal is a question
of statutory construction. Smith v. Doe, (“Smith”)
(2003) 538 U.S. 84, 92). The legislature’s stated intent
normally warrants deference, unless the clearest
proof overrides the intent. Id. at 93. The court agrees
that the Commission’s imposition of a section 30821
fine is a quasi-criminal matter. There is no question
that the purpose of a section 30821 fine is to punish.
As one Commissioner stated: “[A] penalty is meant to
penalize...It’s supposed to hurt.” AR 4278. The fine
serves the objective of abating an unlawful public
access blockage, and is similar to a nuisance
prosecution. While there should be a nexus between
the harm and the fine, the Commission may also
consider deterrence, which is normally a quasicriminal issue. See Ojavan, supra, 54 Cal.App.4th at
397 (Commission staff indicating in section 30820

Appendix B-70
proceeding that deterrent is necessary to prevent
reoccurrence). A section 30821 fine may not always
impact a significant private interest, but it certainly
does in Petitioners’ circumstance.
The $4,185,000 fine concerns a significant private
interest.
(ii) Risk of Erroneous Deprivation/Probable
Value of Additional Safeguards
Petitioners point out that section 30821 imports
the same informal procedures applicable in civil
enforcement matters that do not threaten seizure of
property. 14 CCR §§ 13065, 13066, 13185-86, 13195.
This informal procedure resulted in no opportunity to
respond to all adverse testimony, no right to crossexamine adverse witnesses, and no chance to exclude
evidence that normally would be inadmissible under
standard evidentiary rules. Id. Pet. Op. Br. at 20.
The Commission’s opposition point out (Opp. at
15) that due process is often satisfied if the accused
received adequate notice of the nature of the violation
and is provided a meaningful opportunity to respond
to the charges against him. Mohilef, supra, 51
Cal.App.4th at 276; see also Gai v. City of Selma,
(1998) 68 Cal.App.4th 213, 219 (“[P]rocedural due
process in an administrative setting requires notice of
the proposed action; the reasons therefor; a copy of the
charges and materials on which the action is based;
and the right to respond to the authority initially
imposing the discipline ‘before a reasonably impartial,
noninvolved reviewer.’”). It is not necessary to provide
the full panoply of procedural protections accorded in
a judicial trial of the right to cross-examine witnesses

Appendix B-71
or not observe the formal rules of evidence. Mohilef,
supra, 51 Cal.App.4th at 288-89.
The court must defer to the Commission’s hearing
procedure if it is constitutionally adequate.
“Legislatures and agencies have significant
comparative advantages over courts in identifying
and measure the many costs and benefits of
alternative decisionmaking procedures. Thus, while it
is imperative that courts retain the power to compel
agencies to use decisionmaking procedures that
provide a constitutionally adequate level of protection,
judges should be cautious in exercising that power.”
Today’s Fresh Start, supra, 57 Cal.4th at 230.
The Commission’s opposition notes that
Petitioners had the benefit of years of communications
with the Conservancy and Commission, a Commission
staff report received weeks before the hearing,
submitted a substantial Statement of Defense, and
received 50 minutes to present their case with an
opportunity to propose questions for any other
speaker. Opp. at 15.
The court agrees that Petitioners received ample
notice of the proposed cease and desist order for the
stairway/gate and of the Commission’s staff report for
the hearing. While Petitioners did not receive specific
notice of the $4.1 million fine actually imposed, the
Staff Report informed them that the Commission
could impose a maximum fine of $8,370,000 based on
one violation, and explained the daily maximum fine,
the number of days of violation, and the section 20831
factors. The notice was sufficient. See Pacific Gas &
Electric Co. v. Public Utilities Commission, (2015) 237
Cal.App.4th 812, 858-63 (OSC amply warned

Appendix B-72
petitioner that its violation was serious and did not
need to specifically warn of a continuing violation to
impose a $14 million fine).
The hearing provided by the Commission also was
sufficient. In a land-use public hearing context, the
safeguards of sworn testimony and cross-examination
are unnecessary. Mohilef, supra, 51 Cal.App.4th at
288-302. Land use hearings are traditionally informal
and lack the elements of formal trial-type proceedings
such as cross-examination and sworn testimony. Id.
The Commission was not obligated to abide by the
rules of evidence, and could consider any evidence
that reasonably could be relied upon as accurate,
including hearsay. Petitioners also received sufficient
opportunity to present evidence on all issues. The
mere fact that other speakers addressed the
Commission after Petitioners does not undermine this
informal process. See AR 44187-217 (Petitioners),
4217 (MCRA), 4222 (Conservancy), 4248 (staff).
Nonetheless, the $4.1 million fine was substantial
and more than four times greater than the $950,000
recommended by staff. The Commission deviated
upward from the staff-recommended $950,000 fine
primarily because it felt that Petitioners’ fine should
be substantially greater than the $925,000 paid that
same day by a settling public access violator who had
been cooperative. AR 504, 4263, 4267, 4278.
Petitioners had no opportunity to argue against the
Commission’s assessment of the other matter or its
reasoning for imposition of a considerably larger fine.
The risk of erroneous deprivation is increased when
an agency deviates upward from the staff-

Appendix B-73
recommended fine without the offender having an
opportunity to argue against it.
The Commission also (a) wrongly concluded that
Petitioners’ violation was not susceptible to remedial
measures under section 30820(c)(2), (b) did not give
Petitioners the chance to rebut the Commission’s
conclusion that their vacation rentals were aided by
their blockage of the stairway/gate (their lawyer
merely argued that the rentals do not cover the
mortgage and property taxes), and (c) did not give
Petitioners the chance to show that the $4.1 million
fine was disproportionate to other similar public
easement matters, most particularly Ackerberg.
These factors bear only on the amount of fine. If
given the opportunity to address a proposed
$4.1 million fine, Petitioners may have been able to
present evidence and at least argue against each of
those matters. They also could have addressed their
ability to pay a $4.1 million fine and the value of the
Property in relation to the fine. Substantive due
process in a civil penalty matter allows consideration
of evidence of a defendant’s net worth, not just the
value of a particular property at issue. Sainez, supra,
77 Cal.App.4th at 1319. These failures were
aggravated by the Commission’s apparent focus on
deterrence without also considering the nexus
between the section 30820 factors they found and the
ultimately fine. Civil penalties may have a punitive or
deterrent aspect, but their primary purpose is to
secure obedience to statutes and regulations serving
an important public policy. Id. at 1315. The
Commission’s focus at the hearing on deterrence in
deciding whether the fine should be $6.2 or

Appendix B-74
$4.1 million seems arbitrary and not tied to the
section 30820 factors.
The risk of erroneous deprivation and probable
value of additional safeguards is not supported
facially, but it is as applied to Petitioners. The amount
of the fine in this case is substantial and the hearing
procedure did not give Petitioners an opportunity to
present all available evidence and argue against the
$4.1 million penalty imposed. An additional
opportunity to present evidence would have enhanced
the reliability of the quasi-criminal proceeding and
the fine actually imposed, and a safeguard permitting
Petitioners to present additional penalty evidence
would not adversely impact the Commission’s
procedure.
(iii) Dignitary Interest
Petitioners contend that application of judicial
rules of procedure and evidence to a section 30821
proceeding would provide necessary safeguards to
protect Petitioners from arbitrary deprivation and
thereby would protect their dignitary interest. Pet.
Op. Br. at 20.
Petitioners’ dignitary interest supports a
procedure in which they may present evidence on a
proposed $4.1 million penalty. It does not support a
formal proceeding with evidentiary rules and witness
cross-examination.
(iv) Governmental Interest
Petitioners contend that enacting more stringent
procedures and evidentiary requirements could save

Appendix B-75
the government time and resources currently
expended on allowing the presentation of deficient
evidence and testimony. Pet. Op. Br. at 20.
The Commission’s governmental interest in
conducting the public hearing weighs against
burdening the section 30821 fine process with witness
cross-examination, in limine hearings, and formal
evidentiary rules. On the other hand, the
governmental interest is not burdened by permitting
Petitioners to provide additional evidence on the
$4.1 million fine.
(v) Conclusion
Petitioners’ due process guarantees argument
mostly lacks merit. While not constitutionally
compelled by due process, the better practice would be
for the Commission to notify an offender of the specific
amount that it intended to impose, as recommended
by staff or greater, and then give the offender an
opportunity to present evidence and argue against it.
In this particular case, due process requires that the
Commission comply with this practice and give
Petitioners an additional opportunity to present
evidence and argue against the $4.1 million fine.13

13 Petitioners contend that section 30821 is unconstitutional
facially and as-applied under the excessive fines clauses of the
United States and California Constitutions. Pet. Op. Br. at 20.
Petitioners contend that section 30821 dispenses with the
explicit mandate in case law to consider proportionality in
levying fines. Id. Instead, section 30821 promotes excessive fines
by permitting consideration of the state’s costs and the violator’s
economic profits. Id. Petitioners’ argument is unavailing. The
section 30820 factors permit consideration of proportionality,

Appendix B-76
F. Conclusion
The Petition for writ of mandate is granted in
part. A writ shall issue directing the Commission to
set aside the fine, give notice to Petitioners of a
specific proposed section 20831 fine, and give them an
opportunity to present additional evidence and argue
against it or for a lower fine. In all other respects, the
Petition is denied.
Petitioners’ counsel is ordered to prepare a
proposed writ and judgment, serve it on the
Commission’s counsel for approval as to form, wait ten
days after service for any objections, meet and confer
if there are objections, and then submit the proposed
judgment along with a declaration stating the
existence/non-existence of any unresolved objections.
An OSC re: judgment is set for June 19, 2018 at
1:30 p.m.

and the governing statute need not expressly mandate
constitutional conformity.

Appendix C-1
Dated Dec. 8, 2016
CEASE AND DESIST ORDER CCC-16-CD-03
AND ADMINISTRATIVE CIVIL PENALTY
CCC-16-AP-01
(Lent)
1.0 CEASE AND DESIST ORDER CCC-16-CD-03
Pursuant to its authority under California Public
Resource Code (“PRC”) Section 30810, the
California
Coastal
Commission
(“the
Commission”) hereby orders and authorizes
Dr. Warren M. and Henny Lent, in their
individual capacities and as Trustees of any Trust
in which title to the property at 20802 Pacific
Coast Highway in Malibu is vested, and all their
successors in interest, assigns, future owners of
the Property, employees, agents, contractors, and
anyone acting in concert with any of the foregoing
(hereinafter referred to as “Respondents”) to take
all actions required by this Cease and Desist
Order including by complying with the following:
1.1 Cease and desist from engaging in any
further development, as that term is defined
in the Coastal Act (PRC Section 30106), on
the property identified in Section 4.2 below
(the “Property”), unless authorized pursuant
to the Coastal Act (PRC Sections 30000 to
30900), which includes pursuant to this
Cease and Desist Order, or confirmed by
Commission staff to be exempt.
1.2 Remove, pursuant to and consistent with the
terms of an approved Removal Plan as set

Appendix C-2
forth in Section 6.0, below and to the terms
and conditions set forth herein, all of the
physical items of development that were
placed or have come to rest as a result of
Unpermitted Development, as that phrase is
defined in Section 4.4 below.
1.3 Refrain from any attempt to limit or interfere
(a) with the public’s use of the public access
easements on the Property that were offered
by the prior owners as required by the special
conditions of Coastal Development Permit A421-78, as amended, and accepted by the
State Coastal Conservancy in acceptance
documents recorded with the Office of the
County Recorder for Los Angeles County as
Instruments No.s 82-1303557 and 821303558; or (b) with the use of those
easements by any holder(s) thereof to
develop access improvements or to maintain
the easements as available for public use;
including refraining from any attempt or
activity to physically or indirectly discourage
or prevent use of the public easements on the
Property.
1.4 Comply with all terms and conditions of CDP
A-421-78, approved by the Commission on
January 17, 1979, as amended by the
Commission on February 20, 1980 and on
June 16, 1981.

Appendix C-3
2.0 ADMINISTRATIVE CIVIL PENALTY
CCC-16-AP-0l
Pursuant to its authority under PRC Section
30821, the Commission hereby imposes on
Respondents an administrative civil penalty of
$4,185,000. Within sixty (60) days of the effective
date of this Cease and Desist Order and
Administrative Penalty, Respondents shall
submit a plan for the review and approval of the
Commission’s Chief of Enforcement or the Deputy
Chief of Enforcement for the payment of this
penalty that shall result in the full payment of
this penalty within one year of the effective date
of this Cease and Desist Order and
Administrative Penalty. Extensions for payments
under this plan may be requested under Section
14.0 below. The funds for this penalty shall be
made out to the California Coastal Conservancy
for deposit into its Violation Remediation Account
(see PRC Section 30821(j) and 30823). The
Commission also authorizes the Executive
Director to record a lien on the Property if the
penalty is unpaid within this specified timeframe.
3.0 PERSONS SUBJECT TO THIS CEASE AND
DESIST ORDER AND ADMINISTRATIVE
PENALTY
The persons subject to this Cease and Desist
Order
and
Administrative
Penalty
are
Dr. Warren M. and Henny S. Lent, in their
individual capacities and as Trustees of any Trust
in which title to the Property is vested, all of their
successors, assigns, employees, agents, and

Appendix C-4
contractors, and anyone acting in concert with the
foregoing.
4.0 DEFINITIONS
4.1 This Cease and Desist
Administrative Penalty

Order

and

Cease and Desist Order No. CCC-16-CD-03
and Administrative Penalty No. CCC-16-AP01 are referred to collectively herein as this
Cease and Desist Order and Administrative
Penalty. This Cease and Desist Order refers
specifically to the requirement of Cease and
Desist Order No. CCC-16-CD-03.
4.2 The Property
The property that is the subject of this Cease
and Desist Order and Administrative
Penalty is as follows: 20802 Pacific Coast
Highway in Malibu, Los Angeles County,
which is identified by the Los Angeles
County Assessor’s Office as APN 4450-007027. This Cease and Desist Order and
Administrative Penalty refer to that
property as the “Property.”
4.3 Vertical Public Access Easement
Vertical Public Access Easement refers to the
easement or the easement interest on the
Property that was offered by the prior owners
as required by the special conditions of
Coastal Development Permit A-421-78, as
amended, and accepted by the State Coastal

Appendix C-5
Conservancy in an acceptance document
recorded with the Office of the County
Recorder for Los Angeles County as
Instrument No. 82-1303557, and which
provided an easement “in perpetuity for the
purposes of ... public access from Pacific
Coast Highway to the mean high tide line,
including the privilege and right to pass and
repass over a five (5) ft. wide strip of land
located on the subject property ... along the
eastern edge of the parcel, extending from
the edge of the public right-of-way of Pacific
Coast Highway to the mean high tide line of
the Pacific Ocean. . . .”
4.4 Unpermitted Development
Unpermitted
Development
refers
to
development as that term is defined by the
Coastal Act (PRC Section 30106) that
occurred on the Property without the
authorization required under the Coastal Act
and/or that did not comply with the terms
and conditions of Coastal Development
Permit No. A-421-78, including its
amendments, as well as any materials or
structures existing on the Property as a
result of such development, specifically
including a staircase, stair landings or decks,
a fence, a gate, supporting structures, and
any other structures placed in the area
covered by the Vertical Public Access
Easement.
4.5 Vertical Easement Holder

Appendix C-6
Vertical Easement Holder refers to the State
Coastal Conservancy or any successor in
interest as the holder of the Vertical Public
Access Easement.
5.0 SUBMITTAL OF DOCUMENTS
All documents and funds submitted to the
Commission pursuant to this Cease and Desist
Order and Administrative Penalty shall be sent
to:
California Coastal Commission
Attn: Peter Allen
45 Fremont St, Suite 2000
San Francisco, CA 94105
With a copy sent to:
California Coastal Commission
Attn: Molly Troup
89 S. California Street, Suite 200
Ventura, CA 93001
6.0

REMOVAL PLAN
6.1 Within 30 days of issuance of this Cease and
Desist Order, Respondents shall submit a
Removal Plan for the review and approval of
the Commission’s Chief of Enforcement or
the Deputy Chief of Enforcement. The
Removal Plan shall describe, in detail, all
measures to be used for the removal and offsite disposal of all physical items that were
placed or have come to rest on the Property
as a result of Unpermitted Development,
including but not necessarily limited to all

Appendix C-7
items
of
Unpermitted
Development
specifically identified in Section 4.4 above,
and shall be consistent with the conditions
set forth m this Section 6.0, below.
6.2 The Removal Plan shall be prepared by a
licensed, certified civil engineer or other
qualified professional licensed by the State of
California (“Specialist”) approved by the
Commission’s Chief of Enforcement or the
Deputy Chief of Enforcement and shall
include the following components:
A. A timetable for removal activities that
will provide for removal of all items of
Unpermitted Development, including,
but not necessarily limited to, the fence,
gate, stairs, decks, and other supporting
structures in the Vertical Public Access
Easement, within 30 days from approval
of the Removal Plan;
B. A site plan, prepared by a licensed
surveyor, depicting the boundary lines of
the Property, the area of the Vertical
Public Access Easement, and the area of
the lateral public access easement on the
Property,
all
physical
items
of
Unpermitted Development to be removed
and the location where photographs will
be taken pursuant to Section 6.4, below;
C. A detailed description of the proposed
removal activities, which shall indicate
the use of removal techniques that will
minimize impacts to the natural habitat

Appendix C-8
of the beach and public use of that beach
and Pacific Coast Highway;
D. An identification of the disposal or
recycling site to which removed
development
materials
will
be
transported, which must be a licensed
disposal facility. If the proposed
destination for the removed materials is
located in the Coastal Zone and is not an
existing, legal sanitary landfill or
recycling center, a CDP is required for
such disposal. All hazardous materials
must be transported to and properly
disposed of at a licensed hazardous waste
disposal facility;
E. The Removal Plan shall describe all
equipment to be used. All tools utilized
shall be hand tools unless the Specialist
demonstrates to the satisfaction of the
Chief of Enforcement or the Deputy Chief
of
Enforcement
that
mechanized
equipment is needed and will not impact
resources protected under the Coastal
Act. If mechanized equipment is
proposed, the Removal Plan shall provide,
for the review and approval of the Chief of
Enforcement or the Deputy Chief of
Enforcement, a description of:
1) Type of mechanized equipment that
will be used for removal activities;
2) Length of time equipment will be
used;

Appendix C-9
3) Routes that will be utilized to bring
equipment to and from the Property,
including to and from the sandy beach
area if such activity is approved in the
Removal Plan;
4) Storage locations for equipment when
not in use during removal process.
Mechanized equipment cannot be
stored on the sandy beach;
5) Hours of operation of mechanized
equipment;
6) Contingency plan that addresses
clean-up and disposal of released
materials and water quality concerns
in case of a spill of fuel or other release
of hazardous materials from use of
mechanized equipment;
7) Designated areas for staging of any
construction
equipment
and
materials, including receptacles and
temporary stockpiles of materials. All
stock piles and construction materials
shall be covered, enclosed on all sides,
located as far away as possible from
drain inlets and the beach and ocean,
and shall not be stored in contact with
the soil. No demolition or construction
materials. debris, or waste shall be
placed or stored where it may enter
receiving waters or a storm drain, or
be subject to wind or runoff erosion
and dispersion.

Appendix C-10
8) Designated and confined areas for
maintaining and washing machinery
and equipment, specifically designed
to control runoff. Thinners or solvents
shall not be discharged anywhere on
the Property or adjacent areas,
including into sanitary or storm sewer
systems. The discharge of hazardous
materials into any receiving waters is
prohibited.
6.3 Within 10 days of completion of removal
activities pursuant to this Section,
Respondents shall submit evidence of the
completion to the Commission’s Chief of
Enforcement or the Deputy Chief of
Enforcement for his or her review and
approval,
including
photographic
documentation from the locations depicted
on the site plan required by Section 6.2.B,
evidencing the removal of all physical items
and structures required to be removed
pursuant to this Cease and Desist Order and
Administrative Penalty. After review of the
evidence, if the Commission’s Chief of
Enforcement or the Deputy Chief of
Enforcement determines that the removal
activities have in part, or in whole, been
unsuccessful, based on the requirements of
the approved Removal Plan and this Cease
and Desist Order, Respondents shall submit
a Revised Removal Plan for the review and
approval of the Commission’s Chief of
Enforcement or the Deputy Chief of
Enforcement. The Revised Removal Plan

Appendix C-11
shall specify any measures necessary to
ensure that the removal activities comply
with the approved Removal Plan, this Cease
and Desist Order and Administrative
Penalty, and the Coastal Act. Respondents
shall implement any specified measures,
within the timeframe specified by the
Commission’s Chief of Enforcement or the
Deputy Chief of Enforcement.
7.0 REVISION OF DELIVERABLES
The Commission’s Chief of Enforcement or the
Deputy Chief of Enforcement may require
revisions to deliverables under this Cease and
Desist Order and Administrative Penalty,
whenever necessary to satisfy the criteria
established in this Cease and Desist Order and
Administrative Penalty, and Respondents shall
revise any such deliverable consistent with the
requested specifications and resubmit it for
review and approval by the Commission’s Chief of
Enforcement or the Deputy Chief of Enforcement,
by the deadline established by the modification
request.
8.0 COMMISSION JURISDICTION
The Commission has jurisdiction over resolution
of these Coastal Act violations pursuant to PRC
Section 30810 and jurisdiction to issue
administrative civil penalties under PRC Section
30821.

Appendix C-12
9.0 EFFECTIVE DATE AND TERMS OF THIS
CEASE AND DESIST ORDER AND
ADMINISTRATIVE PENALTY
The effective date of this Cease and Desist Order
and Administrative Penalty is the date the
Commission votes to issue this Cease and Desist
Order and Administrative Penalty. This Cease
and Desist Order and Administrative Penalty
shall remain in effect permanently unless and
until either is modified by the Commission.
10.0 FINDINGS
This Cease and Desist Order and Administrative
Penalty are issued on the basis of the findings
adopted by the Commission, as set forth in the
document
entitled
“STAFF
REPORT:
RECOMMENDATIONS AND FINDINGS FOR
CEASE
AND
DESIST
ORDER
AND
ADMINISTRATIVE CIVIL PENALTY.” The
Commission has authorized the activities
required in this Cease and Desist Order and
Administrative Penalty and has determined them
to be consistent with the resource protection
policies set forth in Chapter 3·of the Coastal Act,
if carried out in compliance with the terms of this
Cease and Desist Order and Administrative
Penalty.
11.0 COMPLIANCE OBLIGATION
Strict compliance with this Cease and Desist
Order and Administrative Penalty by all parties
subject hereto is required.

Appendix C-13
11.1 Failure to comply with the requirement to
pay the Administrative Penalty required by
this Cease and Desist Order and
Administrative Penalty may result in the
Commission recording a lien on the Property
in the amount of the Administrative Penalty,
which shall have the force, effect, and
priority of a judgment lien.
11.2 Failure to comply with any term or condition
of this Cease and Desist Order and
Administrative Penalty, including any
deadline contained herein, will constitute a
violation of this Cease and Desist Order and
Administrative Penalty and may result in
the imposition of civil penalties under PRC
Section 30821.6 of up to SIX THOUSAND
DOLLARS ($6,000) per day for each day in
which each violation persists. In addition,
failure to comply with any terms or
conditions of this Cease and Desist Order
and Administrative Penalty may result in
the Commission seeking judicial relief and
additional penalties as authorized under
Chapter 9 of the Coastal Act, including PRC
Sections 30820, 30821, and 30822.
12.0 SITE ACCESS
Respondents shall provide Commission staff and
staff of any agency having jurisdiction over the
work being performed under this Cease and
Desist Order with access to the areas of the
Property described below. Nothing in this Cease
and Desist Order is intended to limit in any way
the right of entry or inspection that any agency

Appendix C-14
may otherwise have by operation of any law. The
Commission and other relevant agency staff may
enter and move freely about the following areas:
(1) the portions of the Property on which the
violations are located, (2) any areas where work is
to be performed pursuant to this Cease and Desist
Order or pursuant to any plans adopted pursuant
to this Cease and Desist Order, (3) adjacent areas
of the Property and any other area in order to view
the areas where work is being performed
pursuant to the requirements of this Cease and
Desist Order, (4) any other area where evidence of
compliance with this Cease and Desist Order may
lie for purposes including, but not limited to,
inspecting records, logs and contracts relating to
the Property; and overseeing, inspecting,
documenting, and reviewing the progress of
Respondents in carrying out the terms of this
Cease and Desist Order.
13.0 GOVERNMENT LIABILITY
Neither the State of California, nor the
Commission, nor its employees shall be liable for
injuries or damages to persons or property
resulting from acts or omissions by Respondents
in carrying out activities required and authorized
under this Cease and Desist Order and
Administrative Penalty; nor shall the State of
California, the Commission, or its employees be
held as a party to any contract entered into by
Respondents or their agents in carrying out
activities pursuant to this Cease and Desist Order
and Administrative Penalty.

Appendix C-15
14.0 DEADLINES
The Commission’s Chief of Enforcement or the
Deputy Chief of Enforcement may extend any
deadlines specified herein, Any extension request
must be made in writing and received by
Commission staff ten (10) days prior to expiration
of the subject deadline. Any such request shall be
sent to the address listed in Section 5.0, above.
15.0 SEVERABILITY
Should any provision of this Cease and Desist
Order and Administrative Penalty be found
invalid, void, or unenforceable, such illegality or
unenforceability shall not invalidate the whole,
but this Cease and Desist Order and
Administrative Penalty shall be construed as if
the provision(s) containing the illegal or
unenforceable part were not a part hereof.
16.0 SUCCESSORS AND ASSIGNS
This Cease and Desist Order shall run with the
land, binding Respondents and all successors in
interest, heirs and assigns of Respondents, and
future owners of the Property. Respondents shall
provide notice to all successors, heirs, assigns, and
potential purchasers of the Property of any
remaining obligations under this Cease and
Desist Order.

Appendix C-16
17.0 MODIFICATIONS AND AMENDMENTS TO
THIS CEASE AND DESIST ORDER AND
ADMINISTRATIVE PENALTY
Except as provided in Section 14.0 of this Cease
and Desist Order and Administrative Penalty, or
for ministerial corrections, this Cease and Desist
Order and Administrative Penalty may be
amended or modified only in accordance with the
standards and procedures set forth in Section
13188(b) of Title 14 of the California Code of
Regulations.
18.0 APPEAL
Pursuant to PRC Section 30803(b), any person or
entity against whom this Cease and Desist Order
under Section 1.0 is issued may file a petition with
the Superior Court for a stay of this Cease and
Desist Order.
19.0 GOVERNMENT JURISDICTION
This Cease and Desist Order and Administrative
Penalty shall be interpreted, construed, governed,
and enforced under and pursuant to the laws of
the State of California.
20.0 NO LIMITATION ON AUTHORITY
Except as expressly provided herein, nothing
herein shall limit or restrict the exercise of the
Commission’s enforcement authority pursuant to
Chapter 9 of the Coastal Act (PRC Sections 30800
to 30824), including the authority to require and

Appendix C-17
enforce compliance with this Cease and Desist
Order and Administrative Penalty.
Executed in Ventura, CA on behalf of the California
Coastal Commission.
By: /s/ John Ainsworth
John Ainsworth
California Coastal Commission
Acting Executive Director

12/8/2016

Appendix D-1
Filed 4/16/21
CERTIFIED FOR PUBLICATION
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SEVEN
WARREN M. LENT et al.,

B292091

Plaintiffs, Appellants, and (Los Angeles
Cross-respondents,
County Super. Ct.
No. BS167531)
v.
ORDER
CALIFORNIA COASTAL
MODIFYING
COMMISSION,
OPINION AND
DENYING
Defendant, Respondent,
REHEARING [NO
and Cross-appellant,
CHANGE IN
APPELLATE
CALIFORNIA STATE
JUDGMENT]
COASTAL CONSERVANCY
et al.,
Real Parties in Interest.

THE COURT:
The opinion filed on April 5, 2021 and certified for
publication, is modified as follows:
1. On page 43, in the second sentence of the last
paragraph, add the phrase “in their as-applied

Appendix D-2
challenge” after the word “contend,” so that the
sentence reads:
They do not contend in their as-applied
challenge, for example, that they needed to
cross-examine or otherwise question a
particular witness the Commission relied on or
that they needed to subpoena a particular
witness who was unwilling to testify.
2. In footnote 8 on pages 30 to 31, replace the
second sentence in the footnote, which begins with the
word “Because,” with:
But the trial court did not remand based on
either purported finding, instead determining
the Lents did “not challenge the Commission’s
calculation of the fine” in their petition.
Therefore, we do not address the parties’
arguments on these issues.
Appellant’s petition for rehearing is denied.
This order does not change the appellate
judgment.
_________________________________________________
PERLUSS, P. J.
SEGAL, J.
FEUER, J.

Appendix E-1
Filed July 21, 2021
Court of Appeal, Second Appellate District,
Division Seven – No. B292091
S268762
IN THE SUPREME COURT OF CALIFORNIA
En Banc
_________________________________________________
WARREN M. LENT et al., Plaintiffs, Crossrespondents and Appellants,
v.
CALIFORNIA COASTAL COMMISSION,
Defendant, Cross-appellant and Respondent;
CALIFORNIA STATE COASTAL CONSERVANCY
et al., Real Parties in Interest.
_________________________________________________
The petition for review is denied.

CANTI L-SAKAUYE
Chief Justice

Appendix F-1
U.S. Const. amend. VIII
Excessive bail shall not be required, nor excessive
fines imposed, nor cruel and unusual punishments
inflicted.

Appendix G-1
U.S. Const. amend. XIV, § 1
Section 1. All persons born or naturalized in the
United States, and subject to the jurisdiction thereof,
are citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall
any State deprive any person of life, liberty, or
property, without due process of law; nor deny to any
person within its jurisdiction the equal protection of
the laws.

Appendix H-1
Cal. Pub. Res. Code § 30810.
Cease and desist orders issued after public
hearing; terms and conditions; notice of
hearing; finality and effectiveness of order
(a) If the commission, after public hearing,
determines that any person or governmental agency
has undertaken, or is threatening to undertake, any
activity that (1) requires a permit from the
commission without securing a permit or (2) is
inconsistent with any permit previously issued by the
commission, the commission may issue an order
directing that person or governmental agency to cease
and desist. The order may also be issued to enforce
any requirements of a certified local coastal program
or port master plan, or any requirements of this
division which are subject to the jurisdiction of the
certified program or plan, under any of the following
circumstances:
(1) The local government or port governing
body requests the commission to assist with, or
assume primary responsibility for, issuing a cease and
desist order.
(2) The commission requests and the local
government or port governing body declines to act, or
does not take action in a timely manner, regarding an
alleged violation which could cause significant
damage to coastal resources.
(3) The local government or port governing
body is a party to the violation.

Appendix H-2
(b) The cease and desist order may be subject to
such terms and conditions as the commission may
determine are necessary to ensure compliance with
this division, including immediate removal of any
development or material or the setting of a schedule
within which steps shall be taken to obtain a permit
pursuant to this division.
(c) Notice of the public hearing on a proposed
cease and desist order shall be given to all affected
persons and agencies and the order shall be final and
effective upon the issuance of the order. Copies shall
be served immediately by certified mail upon the
person or governmental agency subject to the order
and upon other affected persons and agencies who
appeared at the hearing or requested a copy. The
notice shall include a description of the civil remedy to
a cease and desist order, authorized by Section 30803.

Appendix I-1
Cal. Pub. Res. Code § 30811.
Restoration order; violations
In addition to any other authority to order
restoration, the commission, a local government that
is implementing a certified local coastal program, or a
port governing body that is implementing a certified
port master plan may, after a public hearing, order
restoration of a site if it finds that the development
has occurred without a coastal development permit
from the commission, local government, or port
governing body, the development is inconsistent with
this division, and the development is causing
continuing resource damage.

Appendix J-1
Cal. Pub. Res. Code § 30812.
Notification of intention to record property
violation; contents; public hearings; review
(a) Whenever the executive director of the
commission has determined, based on substantial
evidence, that real property has been developed in
violation of this division, the executive director may
cause a notification of intention to record a notice of
violation to be mailed by regular and certified mail to
the owner of the real property at issue, describing the
real property, identifying the nature of the violation,
naming the owners thereof, and stating that if the
owner objects to the filing of a notice of violation, an
opportunity will be given to the owner to present
evidence on the issue of whether a violation has
occurred.
(b) The notification specified in subdivision (a)
shall indicate that the owner is required to respond in
writing, within 20 days of the postmarked mailing of
the notification, to object to recording the notice of
violation. The notification shall also state that if,
within 20 days of mailing of the notification, the owner
of the real property at issue fails to inform the
executive director of the owner's objection to recording
the notice of violation, the executive director shall
record the notice of violation in the office of each
county recorder where all or part of the property is
located.
(c) If the owner submits a timely objection to the
proposed filing of the notice of violation, a public
hearing shall be held at the next regularly scheduled
commission meeting for which adequate public notice

Appendix J-2
can be provided, at which the owner may present
evidence to the commission why the notice of violation
should not be recorded. The hearing may be postponed
for cause for not more than 90 days after the date of
the receipt of the objection to recordation of the notice
of violation.
(d) If, after the commission has completed its
hearing and the owner has been given the opportunity
to present evidence, the commission finds that, based
on substantial evidence, a violation has occurred, the
executive director shall record the notice of violation
in the office of each county recorder where all or part
of the real property is located. If the commission finds
that no violation has occurred, the executive director
shall mail a clearance letter to the owner of the real
property.
(e)(1) The notice of violation shall be contained in
a separate document prominently entitled “Notice of
Violation of the Coastal Act.” The notice of violation
shall contain all of the following information:
(A) The names of the owners of record.
(B) A legal description of the real property
affected by the notice.
(C) A statement specifically identifying the
nature of the alleged violation.
(D) A commission file number relating to the
notice.
(2) The notice of violation, when properly
recorded and indexed, shall be considered notice of the

Appendix J-3
violation to all successors in interest in that property.
This notice is for informational purposes only and is
not a defect, lien, or encumbrance on the property.
(f) Within 30 days after the final resolution of a
violation that is the subject of a recorded notice of
violation, the executive director shall mail a clearance
letter to the owner of the real property and shall
record a notice of recision in the office of each county
recorder in which the notice of violation was filed,
indicating that the notice of violation is no longer
valid. The notice of recision shall have the same effect
of a withdrawal or expungement under Section 405.61
of the Code of Civil Procedure.
(g) The executive director may not invoke the
procedures of this section until all existing
administrative methods for resolving the violation
have been utilized and the property owner has been
made aware of the potential for the recordation of a
notice of violation. For purposes of this subdivision,
existing methods for resolving the violation do not
include the commencement of an administrative or
judicial proceeding.
(h) This section only applies in circumstances
where the commission is the legally responsible
coastal development permitting authority or where a
local government or port governing body requests the
commission to assist in the resolution of an unresolved
violation if the local government is the legally
responsible
coastal
development
permitting
authority.
(i) The commission, 24 months from the date of
recordation, shall review each notice of violation that

Appendix J-4
has been recorded to determine why the violation has
not been resolved and whether the notice of violation
should be expunged.
(j) The commission, at any time and for cause, on
its own initiative or at the request of the property
owner, may cause a notice of recision to be recorded
invalidating the notice of violation recorded pursuant
to this section. The notice of recision shall have the
same effect of a withdrawal or expungement under
Section 405.61 of the Code of Civil Procedure.

Appendix K-1
Cal. Pub. Res. Code § 30820.
Civil liability; violations; amount; factors
(a) Any person who violates any provision of this
division may be civilly liable in accordance with this
subdivision as follows:
(1) Civil liability may be imposed by the
superior court in accordance with this article on any
person who performs or undertakes development that
is in violation of this division or that is inconsistent
with any coastal development permit previously
issued by the commission, a local government that is
implementing a certified local coastal program, or a
port governing body that is implementing a certified
port master plan, in an amount that shall not exceed
thirty thousand dollars ($30,000) and shall not be less
than five hundred dollars ($500).
(2) Civil liability may be imposed for any
violation of this division other than that specified in
paragraph (1) in an amount that shall not exceed
thirty thousand dollars ($30,000).
(b) Any person who performs or undertakes
development that is in violation of this division or that
is inconsistent with any coastal development permit
previously issued by the commission, a local
government that is implementing a certified local
coastal program, or a port governing body that is
implementing a certified port master plan, when the
person intentionally and knowingly performs or
undertakes the development in violation of this
division or inconsistent with any previously issued
coastal development permit, may, in addition to any

Appendix K-2
other penalties, be civilly liable in accordance with
this subdivision. Civil liability may be imposed by the
superior court in accordance with this article for a
violation as specified in this subdivision in an amount
which shall not be less than one thousand dollars
($1,000), nor more than fifteen thousand dollars
($15,000), per day for each day in which the violation
persists.
(c) In determining the amount of civil liability,
the following factors shall be considered:
(1) The nature, circumstance, extent, and
gravity of the violation.
(2) Whether the violation is susceptible to
restoration or other remedial measures.
(3) The sensitivity of the resource affected
by the violation.
(4)

The cost to the state of bringing the

action.
(5) With respect to the violator, any
voluntary restoration or remedial measures
undertaken, any prior history of violations, the degree
of culpability, economic profits, if any, resulting from,
or expected to result as a consequence of, the violation,
and such other matters as justice may require.

Appendix L-1
Cal. Pub. Res. Code § 30821.
Additional civil penalties; determination of
amount; time to correct violation
(a) In addition to any other penalties imposed
pursuant to this division, a person, including a
landowner, who is in violation of the public access
provisions of this division is subject to an
administrative civil penalty that may be imposed by
the commission in an amount not to exceed 75 percent
of the amount of the maximum penalty authorized
pursuant to subdivision (b) of Section 30820 for each
violation. The administrative civil penalty may be
assessed for each day the violation persists, but for no
more than five years.
(b) All penalties imposed pursuant to subdivision
(a) shall be imposed by majority vote of the
commissioners present in a duly noticed public
hearing in compliance with the requirements of
Section 30810, 30811, or 30812.
(c) In determining the amount of civil liability,
the commission shall take into account the factors set
forth in subdivision (c) of Section 30820.
(d) A person shall not be subject to both monetary
civil liability imposed under this section and monetary
civil liability imposed by the superior court for the
same act or failure to act. If a person who is assessed
a penalty under this section fails to pay the
administrative penalty, otherwise fails to comply with
a restoration or cease and desist order issued by the
commission in connection with the penalty action, or
challenges any of these actions by the commission in

Appendix L-2
a court of law, the commission may maintain an action
or otherwise engage in judicial proceedings to enforce
those requirements and the court may grant any relief
as provided under this chapter.
(e) If a person fails to pay a penalty imposed by
the commission pursuant to this section, the
commission may record a lien on the property in the
amount of the penalty assessed by the commission.
This lien shall have the force, effect, and priority of a
judgment lien.
(f) In enacting this section, it is the intent of the
Legislature to ensure that unintentional, minor
violations of this division that only cause de minimis
harm will not lead to the imposition of administrative
penalties if the violator has acted expeditiously to
correct the violation.
(g) “Person,” for the purpose of this section, does
not include a local government, a special district, or
an agency thereof, when acting in a legislative or
adjudicative capacity.
(h) Administrative
penalties
pursuant
to
subdivision (a) shall not be assessed if the property
owner corrects the violation consistent with this
division within 30 days of receiving written
notification from the commission regarding the
violation, and if the alleged violator can correct the
violation
without
undertaking
additional
development that requires a permit under this
division. This 30-day timeframe for corrective action
does not apply to previous violations of permit
conditions incurred by a property owner.

Appendix L-3
(i) The commission shall prepare and submit,
pursuant to Section 9795 of the Government Code, a
report to the Legislature by January 15, 2019, that
includes all of the following:
(1) The number of new violations reported
annually to the commission from January 1, 2015, to
December 31, 2018, inclusive.
(2) The number of violations resolved from
January 1, 2015, to December 31, 2018, inclusive.
(3) The number of administrative penalties
issued pursuant to this section, the dollar amount of
the penalties, and a description of the violations from
January 1, 2015, to December 31, 2018, inclusive.
(j) Revenues derived pursuant to this section
shall be deposited into the Violation Remediation
Account of the Coastal Conservancy Fund and
expended pursuant to Section 30823.

Appendix M-1
Cal. Code Regs. tit. 14, § 13181.
Commencement of Cease and Desist Order
Proceeding Before the Commission.
(a) If the executive director believes that the
results of an enforcement investigation so warrant, he
or she may commence a cease and desist order
proceeding before the commission. The executive
director shall formally commence such a proceeding
by providing any person whom he or she believes to
have acted or failed to act in such a manner as to
trigger the application of section 30810(a) of the
Public Resources Code, or who is threatening to so act,
with notice of his or her intent to do so, unless the
person waives the right to such notice. Such notice of
intent may be given either as a provision of a cease
and desist order issued pursuant to section 30809 of
the Public Resources Code or by separate written
communication delivered either (1) by certified mail,
(2) by regular mail or electronic mail, receipt of which
is confirmed by subsequent oral or written
communication, or (3) by hand, and shall include, at
minimum, the information specified in sections
13187(a)(4), (5), and (6) together with an explanation
of the basis of the executive director's belief that the
specified activity, threat, or failure to act meets the
criteria of section 30810(a). The notice of intent shall
be accompanied by a “statement of defense form” that
conforms to the format attached to these regulations
as Appendix A with an indication of when the
completed form is due back to the Commission. The
person(s) to whom such notice is given shall complete
and return the statement of defense form to the
Commission by the date specified therein, which date

Appendix M-2
shall be no earlier than 20 days from transmittal of
the notice of intent.
(b) The executive director may at his or her
discretion extend the time limit for submittal of the
statement of defense form imposed by any notice of
intent issued pursuant to subsection (a) of this section,
upon receipt, within the time limit, of a written
request for such extension and a written
demonstration of good cause. The extension shall be
valid only to those specific items or matters that the
executive director identifies to the party that
requested the extension as being exempt from the
deadline for the Statement of Defense form, and shall
be valid only for such additional time as the executive
director allows.
Once the applicable deadline for the submittal of
(i) the Statement of Defense form or (ii) any specific
items or matters for which the executive director has
provided an extended deadline has passed, no
additional defenses, factual claims, or supporting
evidence may be submitted unless the responding
party demonstrates to the satisfaction of the
Executive Director that the late response could not
have been submitted earlier, in which case the late
response may nevertheless trigger a delay in the
proceedings pursuant to section 13185(d) or
otherwise.

Appendix N-1
Cal. Code Regs. tit. 14, § 13183.
Contents of an Executive Director’s
Recommendation on Proposed Cease and
Desist Order.
(a) The executive director shall prepare a
recommendation on a proposed commission cease and
desist order.
(b) The executive director's recommendation
shall be in writing and shall include, at minimum:
(1) a copy of any statement of defense form
completed and returned to the Commission by the
alleged violator(s) pursuant to section 13181;
(2) a brief summary of (A) any background
to the alleged violation, (B) the allegations made by
staff in its violation investigation, (C) a list of all
allegations either admitted or not contested by the
alleged violator(s), (D) all defenses and mitigating
factors raised by the alleged violator(s), and (E) any
rebuttal evidence raised by the staff to matters raised
in the alleged violator's assertion of any defense or
mitigating factor with references to supporting
documents;
(3) a summary
unresolved issues;

and

analysis

of

all

(4) a statement of (A) whether the executive
director has issued a cease and desist order relating to
the same activity, and if so (B) its expiration date; and
(C) the extent of the alleged violator(s)' compliance
therewith;

Appendix N-2
(5) the proposed text of any cease and desist
order that the executive director recommends that the
commission issue.

Appendix O-1
Cal. Code Regs. tit. 14, § 13185.
Procedure for Hearing on Proposed Cease and
Desist Order.
A hearing on a proposed cease and desist order
shall proceed in the following manner:
(a) the Chair shall announce the matter, ask all
alleged violators or their representatives present to
identify themselves for the record, indicate what
matters are already part of the record, and announce
the rules of the proceeding including (1) any
imposition pursuant to subsection (b) of time limits for
presentations to be made by the staff, the alleged
violator(s), and the public at the hearing and (2) the
right of any speaker to propose to the Commission
before the close of the hearing any question(s) for any
Commissioner, in his or her discretion, to ask of any
other speaker;
(b) the Chair may impose time limits based on
the circumstances of the alleged violation(s), the
number of other items contained on the meeting
agenda, the number of persons who intend to speak,
and such other factors as the Chair believes relevant;
(c) the staff shall summarize its violation
investigation and proposed findings with particular
attention to issues which remain in controversy;
(d) each alleged violator may present its
position(s) on the matter(s) relevant to the alleged
violation or proposed order with particular attention
to those issue(s) where an actual controversy exists
between the staff and the party(ies). Presentation of

Appendix O-2
evidence that could not have been set forth in a
statement of defense form pursuant to section 13181
at the time of submittal may be grounds for a
determination by the commission, in its discretion,
(1) to trail the matter to later in the same day; (2) to
postpone the matter to a later day of the same
meeting; or (3) to continue the matter to a subsequent
meeting;
(e) other speakers may speak concerning the
matter;
(f) the chair shall close the public hearing after
the staff, all alleged violators, and the public have
completed their presentations, except that the chair
may allow staff to respond to particular points raised
by other speakers;
(g) commissioners may ask questions, including
any question(s) proposed by any speaker under
authority granted pursuant to subsection (a), of any
speaker at any time during the hearing or
deliberations;
(h) the commission shall deliberate and
determine, by majority vote of those present and
voting, whether to issue a cease and desist order
either in the form recommended by the executive
director or as amended by the commission.

Appendix P-1

View of the easement area looking seaward.

Appendix P-2

View of the easement area looking landward.

